CAPITAL CASE
___________________________________________________________
No. ______
IN THE

Supreme Court of the United States
___________________________________________________________
TINA LASONYA BROWN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
____________________________________________________________
On Petition for a Writ of Certiorari to the
Supreme Court of Florida
______________________________________________________________
PETITIONER’S APPENDIX
______________________________________________________________
DAWN B. MACREADY
Counsel of Record
STACY R. BIGGART
Capital Collateral Regional Counsel –
Northern Region
1004 DeSoto Park Drive
Tallahassee, Florida 32301
(850) 487-0922
Dawn.Macready@ccrc-north.org
Stacy.Biggart@ccrc-north.org

INDEX TO APPENDIX
Exhibit 1 – Florida Supreme Court opinion below (August 27, 2020) ......................... 1
Exhibit 2 – Florida Supreme Court order on rehearing (November 12, 2020) ......... 34
Exhibit 3 – Circuit Court order denying postconviction relief (April 5, 2019) .......... 36
Exhibit 4 – Role of the jury in capital sentencing in American death-penalty
jurisdictions other than Florida ........................................................... 147
Exhibit 5 – Sources of the data in Exhibit 4 ............................................................. 152

Exhibit 1

App.001

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

prosecutor’s statement during rebuttal closing argument
that defendant was “cold-blooded murderer” did not
amount to fundamental error.
[6]

304 So.3d 243
Supreme Court of Florida.

Tina Lasonya BROWN, Appellant,
v.
STATE of Florida, Appellee.
Tina Lasonya Brown, Petitioner,
v.
Mark S. Inch, etc., Respondent.
No. SC19-704
|
No. SC19-1419
|
August 27, 2020

Affirmed; habeas petition denied.
Canady, C.J., concurred in result with opinion.

West Headnotes (48)

[1]

Criminal Law Deficient representation and
prejudice in general
To prevail on an ineffective assistance of
counsel claim, first, the claimant must identify
particular acts or omissions of the lawyer that
are shown to be outside the broad range of
reasonably competent performance under
prevailing professional standards, and second,
the clear, substantial deficiency shown must
further be demonstrated to have so affected the
fairness and reliability of the proceeding that
confidence in the outcome is undermined. U.S.
Const. Amend. 6.

Synopsis
Background: Defendant was convicted in the County
Court, Escambia County, Gary L. Bergosh, J., of
first-degree murder and sentenced to death. Defendant
appealed. The Supreme Court, 143 So.3d 392, affirmed.
The County Court, Escambia County, Bergosh, J., denied
defendant’s motion to vacate her conviction. Defendant
appealed and petitioned for writ of habeas corpus.

Holdings: The Supreme Court held that:

1 Cases that cite this headnote

[1]

defendant could not establish actual bias required to
prove that she was prejudiced by trial counsel’s failure to
challenge juror for cause;
[2]
[2]

counsel was deficient in failing to call witness to
impeach alleged accomplice’s trial testimony;

Criminal Law Presumptions and burden of
proof in general
Regarding deficiency prong of Strickland test
for ineffective assistance claims, there is a
strong presumption that trial counsel’s
performance falls within the wide range of
reasonable professional assistance. U.S. Const.
Amend. 6.

substantial evidence supported postconviction court’s
finding that counsel was not deficient in failing to present
inmate’s testimony about her observations of defendant in
jail;
[3]

[4]

defendant failed to show cumulative prejudice arising
from trial counsel’s alleged deficiencies;
trial court’s error in summarily denying defendant’s
claim that she was entitled to relief from her death
sentence because jury did not unanimously find existence
of statutory aggravating circumstance beyond reasonable
doubt was harmless; and

1 Cases that cite this headnote

[5]

[3]

Criminal Law

Adequacy of Representation

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App.002

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

Fair assessment of attorney performance under
deficiency prong of ineffective assistance claim
requires that every effort be made to eliminate
the distorting effects of hindsight, to reconstruct
the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from
counsel’s perspective at the time. U.S. Const.
Amend. 6.

[7]

Review De Novo
Counsel

Because deficiency and prejudice prongs of
Strickland test for ineffective assistance claims
present mixed questions of law and fact, the
Supreme Court employs a mixed standard of
review, deferring to the circuit court’s factual
findings that are supported by competent,
substantial evidence but reviewing the circuit
court’s legal conclusions de novo. U.S. Const.
Amend. 6.

1 Cases that cite this headnote

[4]

Criminal Law
Criminal Law

Criminal Law Presumptions and burden of
proof in general
Criminal Law Strategy and tactics in general

1 Cases that cite this headnote
Regarding deficiency prong of Strickland test
for ineffective assistance claims, defendant
bears the burden to overcome the presumption
that, under the circumstances, the challenged
action might be considered sound trial strategy.
U.S. Const. Amend. 6.

[5]

Criminal Law

Criminal Law

Prejudice in general

“Reasonable probability” that, but for counsel’s
errors, the result of the proceeding would have
been different, as would support prejudice prong
of ineffective assistance claim, is a probability
sufficient to undermine confidence in the
outcome. U.S. Const. Amend. 6.

Criminal Law

Jury selection

To establish the prejudice required by
Strickland, where a postconviction motion
alleges that trial counsel was ineffective for
failing to raise or preserve a cause challenge, the
defendant must demonstrate that a juror was
actually biased. U.S. Const. Amend. 6; Fla. R.
Crim. P. 3.851.

Prejudice in general

Regarding prejudice prong, Strickland test for
ineffective assistance claims requires defendants
to show there is a reasonable probability that,
but for counsel’s unprofessional errors, the
result of the proceeding would have been
different. U.S. Const. Amend. 6.

[6]

[8]

[9]

Criminal Law

Jury selection

Under the actual bias standard for analyzing
prejudice required by Strickland where a
postconviction motion alleges that trial counsel
was ineffective for failing to raise or preserve a
cause challenge, the defendant must demonstrate
that the juror in question was not impartial, i.e.,
that the juror was biased against the defendant,
and the evidence of bias must be plain on the
face of the record. U.S. Const. Amend. 6; Fla. R.
Crim. P. 3.851.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

App.003

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

[10]

Criminal Law

Defense counsel

Defendant failed to show actual bias on part of
juror who initially stated during voir dire that he
had open mind as to appropriate penalty, but
then explained that whether he would vote to
impose death penalty would “depend on the
evidence,” and that if proven “without a shadow
of a doubt,” he would “go with the death
penalty,” as would support prejudice prong of
postconviction claim that defense counsel was
ineffective in failing to challenge juror for
cause; juror did not voice disagreement when
counsel later asked entire panel whether they
agreed that it was not automatic that defendant
be sentenced to death if found guilty of murder,
or whether there was anyone on panel who
would not be able to consider her personal
circumstances when making decision as to
recommend life or death. U.S. Const. Amend. 6;
Fla. R. Crim. P. 3.851.

[11]

Criminal Law
of witnesses

Criminal Law

[13]

Criminal Law

Defense counsel

Trial counsel was not deficient in failing to
impeach
alleged
accomplice,
during
cross-examination in guilt phase of capital
murder trial, through evidence that she was
biased due to her husband’s affairs with
defendant and victim, and thus had motive to
kill victim and blame defendant, as would
support postconviction claim for ineffective
assistance of counsel; accomplice denied
knowledge of husband’s affairs when questioned
about them at postconviction evidentiary
hearing, and trial counsel could not be
ineffective for failing to elicit information from
accomplice that accomplice denied existed. U.S.
Const. Amend. 6.

Impeachment or contradiction

Defense counsel’s alleged deficiency in failing
to
impeach
alleged
accomplice
on
cross-examination with her prior convictions for
two petit thefts and two felony failures to appear
did not prejudice defendant, in prosecution for
first-degree murder, and thus could not amount
to ineffective assistance; contrary to defendant’s
argument, impeaching accomplice with her prior
convictions would not have opened door to
further detail about underlying detail of those
convictions, and at best, accomplice’s responses
would have resulted in records of her
convictions being introduced into evidence. U.S.
Const. Amend. 6; Fla. Stat. Ann. § 90.610(1).

[12]

what she would have said if questioned about
them during guilt phase of capital murder
prosecution was speculative, and could not
support postconviction relief on claim that trial
counsel was ineffective in cross-examining
accomplice because he failed to impeach her
with alleged inconsistent statements. U.S. Const.
Amend. 6; Fla. R. Crim. P. 3.851.

[14]

Criminal Law

Post-conviction relief

Defendant’s argument, on appeal of denial of
postconviction relief, that trial counsel was
ineffective during his cross-examination of
defendant’s fellow inmate, in guilt phase of
capital murder prosecution, because he failed to
impeach her with her prior convictions was
procedurally barred, where defendant ‘s
argument was not included in her postconviction
motion. U.S. Const. Amend. 6.

Defense counsel

Alleged accomplice was not questioned at
postconviction evidentiary hearing about her
alleged prior inconsistent statements, and thus,

[15]

Criminal Law

Defense counsel

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

App.004

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

testimony in which she attempted to minimize
her role in victim’s murder and described
defendant as ringleader, and husband’s
admission to having affairs with both defendant
and victim could have been used to explain
accomplice’s motive for participating in murder
and her bias for testifying and attempting to
minimize her role in comparison with
defendant’s role. U.S. Const. Amend. 6.

Fellow inmate did not testify at evidentiary
hearing on defendant’s postconviction motion,
and thus, what she would have said if questioned
about her jail records and statements made in
her pretrial deposition was speculative, and
could not support postconviction relief on claim
that trial counsel was ineffective in
cross-examining accomplice, during guilt phase
of capital murder prosecution, because he failed
to impeach her with jail records and deposition
statements. U.S. Const. Amend. 6.

[18]

[16]

Criminal Law
of witnesses

[17]

Criminal Law
of witnesses

Presentation of witnesses

Counsel is generally not ineffective for deciding
not to call a witness whose testimony will be
harmful to the defendant. U.S. Const. Amend. 6.

Impeachment or contradiction

Trial counsel was deficient, as element of
ineffective assistance claim, in failing to call
witness to impeach alleged accomplice’s trial
testimony, during guilt phase of capital murder
prosecution, in order to lessen defendant’s
culpability, show that accomplice was
ringleader, and corroborate similar powerful
impeachment evidence from accomplice’s
husband; at pretrial deposition, witness testified
that accomplice told him she had discovered that
husband was having affair with victim, and that
she had fought with victim about it two days
prior to murder, and that on separate occasion,
accomplice admitted to pouring gas on victim
and to setting her on fire, and witness’s
testimony was consistent with counsel’s trial
strategy. U.S. Const. Amend. 6.

Criminal Law

[19]

Criminal Law

Defense counsel

Trial counsel was not deficient in failing to
investigate and call alleged accomplice’s fellow
inmate as witness, during guilt phase of capital
murder prosecution, about conversation inmate
allegedly overheard in which accomplice
confessed to victim’s murder, as would support
postconviction relief on ineffective assistance
claim; even assuming trial counsel should have
discovered information from fellow inmate,
counsel testified at postconviction evidentiary
hearing that he generally did not like to use
“jailhouse snitches and rats” because they lied,
and that he did not feel that having multiple
witnesses testify that accomplice confessed
would have been helpful for defendant’s case.
U.S. Const. Amend. 6; Fla. R. Crim. P. 3.851.

Impeachment or contradiction

Trial counsel was deficient, as element of
ineffective assistance claim, in failing to call
alleged accomplice’s husband as witness at trial
to impeach accomplice, during guilt phase of
capital murder prosecution; husband’s testimony
about accomplice’s statements would have
impeached her trial testimony that she and
victim were “real close friends” and other

[20]

Criminal Law

Defense counsel

Competent, substantial evidence supported
postconviction court’s finding that trial counsel
was not deficient, as element of claim for

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

App.005

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

ineffective assistance, in failing to present,
during guilt phase of capital murder prosecution,
inmate’s testimony about her observations of
defendant in jail because it did not refute
another inmate’s testimony that defendant
confessed to her early one morning; although
inmate testified at postconviction hearing that,
based on her observations of defendant while
they were in jail together, defendant was not
early
riser,
inmate
admitted
on
cross-examination that it was possible defendant
got up early at times. U.S. Const. Amend. 6; Fla.
R. Crim. P. 3.851.

[21]

Criminal Law

Criminal Law

[23]

Right to counsel

Postconviction court did not err in ruling that
portions of defendant’s claim that trial counsel
rendered deficient performance, as element of
ineffective assistance, in investigating and
presenting mitigation evidence, during penalty
phase of capital murder trial, were facially
insufficient, and that defendant failed to
substantiate remaining portions of claim that
related to named individuals; court correctly
ruled that portions of defendant’s motion failed
to identify witnesses trial counsel was
supposedly deficient for failing to discover,

Criminal Law

Defense counsel

Competent, substantial evidence supported
postconviction court’s finding that trial counsel
was not deficient, as element of claim for
ineffective assistance, in failing to consult and
present additional mental health experts to
explain combined effects of polysubstance
abuse, childhood trauma, and mental illness on
defendant’s brain, during penalty phase of
capital murder prosecution; court found that
record supported trial counsel’s testimony at
evidentiary hearing that she thought defense
expert covered defendant’s life history from the
beginning to time of the crime, and linked
defendant’s life history to crime itself. U.S.
Const. Amend. 6; Fla. R. Crim. P. 3.851.

Specification of errors

Defendant failed to preserve for appeal her
argument that postconviction court erred in
ruling that entirety of evidence presented at
evidentiary hearing with respect to trial
counsel’s alleged ineffectiveness regarding
mitigation evidence, during penalty phase of
capital murder trial, was either facially
insufficient or unsubstantiated, where she
challenged in her brief only postconviction
court’s alternative ruling that even if her claim
were factually sufficient, mitigation alleged in
her postconviction motion was cumulative to
mitigation already presented at penalty phase.
U.S. Const. Amend. 6; Fla. R. Crim. P. 3.851.

[22]

specific mitigation each would have provided, or
how its absence prejudiced her were facially
insufficient. U.S. Const. Amend. 6; Fla. R.
Crim. P. 3.851.

[24]

Criminal Law

Defense counsel

Defendant failed to show cumulative prejudice
arising from trial counsel’s alleged deficiencies,
in guilt and penalty phases of capital murder
prosecution, including failing to use available
impeachment evidence of alleged accomplice’s
prior convictions, and failing to call additional
witnesses to impeach accomplice’s trial
testimony and implicate her as ringleader, and
thus she was not entitled to postconviction relief
on ineffective assistance claim; likelihood that
jury placed high value on accomplice’s
testimony was suspect, despite describing
herself as victim and minimizing her role in
victim’s murder, and evidence of defendant’s
involvement and culpability in murder under
both theories of premeditated and felony murder
was overwhelming. U.S. Const. Amend. 6; Fla.
R. Crim. P. 3.851.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

App.006

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

[25]

Privileged Communications and
Confidentiality Experts and professionals in
general
Email from alleged accomplice’s trial attorney
to accomplice’s mitigation specialist fell within
attorney-client privilege, and thus was
inadmissible, in prosecution for capital murder.
Fla. Stat. Ann. § 90.502(2).

[26]

issue could not have been discovered at trial
with due diligence and that the specific evidence
at issue is of such a nature that it would
probably produce an acquittal on retrial. Fla. R.
Crim. P. 3.851(e)(1).

[29]

Criminal Law Theory and Grounds of
Decision in Lower Court

[30]
Criminal Law

Reply briefs

[31]
Criminal Law

Newly discovered evidence

A defendant cannot plead a claim of newly
discovered evidence on postconviction review
without alleging that the specific evidence at

Criminal Law

Newly discovered evidence

To reach conclusion that newly discovered
evidence is of such a nature that it would
probably
produce
acquittal
at
trial,
postconviction court is required to consider all
newly discovered evidence which would be
admissible at trial and then evaluate the weight
of both the newly discovered evidence and the
evidence which was introduced at the trial. Fla.
R. Crim. P. 3.851(e)(1).

Defendant waived on appeal her argument that
postconviction court erred in failing to consider
witness’s testimony as newly discovered
evidence of alleged accomplice’s motive for and
role in victim’s murder, and accomplice’s
pattern of violent conduct against those with
whom her significant others “cheated,” where
defendant waited until her reply brief to
challenge postconviction court’s ruling on that
issue. Fla. R. Crim. P. 3.851(e)(1).

[28]

Newly discovered evidence

A claim of newly discovered evidence, as would
support postconviction relief, is governed by the
following two-part test: first, in order to be
considered “newly discovered,” the evidence
must have been unknown by the trial court, by
the party, or by counsel at the time of trial, and it
must appear that defendant or his counsel could
not have known of it by the use of diligence, and
second, the newly discovered evidence must be
of such nature that it would probably produce an
acquittal on retrial. Fla. R. Crim. P. 3.851(e)(1).

Appellate court may affirm a correct result
reached by a lower court for any reason that is
supported by the record, even if it is not the
reason the lower court articulated for its ruling.

[27]

Criminal Law

Criminal Law

Newly discovered evidence

Two-part test for analyzing postconviction claim
of newly discovered evidence applies not only to
the guilt phase of a first-degree murder trial, but
also to the penalty phase; when the penalty
phase is at issue, the second prong, namely, that
newly discovered evidence must be of such

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

App.007

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

nature that it would probably produce an
acquittal on retrial, requires a determination of
whether the newly discovered evidence would
probably yield a less severe sentence on
resentencing. Fla. R. Crim. P. 3.851(e)(1).

[32]

Criminal Law

Newly discovered evidence

Purported testimony of alleged accomplice’s
fellow inmates that, while in prison, accomplice
told one inmate, without remorse, that she
personally set victim on fire because victim was
sleeping with her ”baby’s dad,” and that
defendant and defendant’s daughter “did not do
anything,” and that accomplice told another
inmate that she killed someone and would do it
again because people involved in case were
sleeping with her husband, was newly
discovered evidence supporting defendant’s
claim for postconviction relief from capital
murder conviction; testimony amounted to
additional pieces of evidence that had been
discovered since trial and related to
circumstances that existed at time of trial. Fla.
R. Crim. P. 3.851(e)(1).

[33]

Criminal Law

Criminal Law

[35]

Criminal Law

Newly discovered evidence

When evaluating whether newly discovered
evidence on postconviction motion would
probably result in an acquittal or a lesser
sentence on retrial, court considers it in
conjunction with not only the evidence already
presented at trial but also any new evidence the
movant has developed in postconviction
proceedings that could be introduced at a new
trial, including evidence that has not been
considered on its own because it was the subject
of a procedurally barred claim. Fla. R. Crim. P.
3.851(e)(1).

Newly discovered evidence

Purported testimony of alleged accomplice’s
fellow inmate, that accomplice would fight
women her prison girlfriend cheated on her
with, was not newly discovered evidence that
would
support
defendant’s
claim
for
postconviction relief from capital murder
conviction; testimony pertained to distinct
criminal acts committed by accomplice after
trial that did not relate to circumstances existing
at time of trial. Fla. R. Crim. P. 3.851(e)(1).

[34]

Assessment of the second prong of two-part test
for analyzing postconviction claim of newly
discovered evidence, namely, that newly
discovered evidence must be of such nature that
it would probably produce acquittal on retrial,
includes consideration of whether the evidence
goes to the merits of the case or whether it
constitutes impeachment evidence, whether the
evidence is cumulative to other evidence in the
case, and the materiality and relevance of the
evidence and any inconsistencies in the newly
discovered evidence. Fla. R. Crim. P.
3.851(e)(1).

Newly discovered evidence

[36]

Criminal Law

Newly discovered evidence

In evaluating newly discovered evidence on a
motion for postconviction relief, court examines
the newly discovered evidence at issue in light
of a total picture of the case that could be
presented at a new trial. Fla. R. Crim. P.
3.851(e)(1).

[37]

Criminal Law

Newly discovered evidence

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

App.008

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

did not unanimously find existence of statutory
aggravating circumstance beyond reasonable
doubt was harmless; state argued at trial that
defendant was guilty of first-degree murder
under both premeditated and felony murder
theories and presented uncontroverted evidence
that capital felony was committed while
defendant was engaged, or was accomplice, in
commission of kidnapping, and any jury that
found, based on state’s presentation, that
defendant was guilty of first-degree murder
could not have logically concluded that she was
not also guilty of kidnapping, whether as
primary aggressor or accomplice. Fla. R. Crim.
P. 3.851.

Newly-discovered
testimony
of
alleged
accomplice’s fellow inmates that, while in
prison, accomplice told one inmate, without
remorse, that she personally set victim on fire
because victim was sleeping with her ”baby’s
dad,” and that defendant and defendant’s
daughter “did not do anything,” and that
accomplice told another inmate that she killed
someone and would do it again because people
involved in case were sleeping with her
husband, and she “set the girl on fire,” was not
of such nature that it would probably produce
acquittal on retrial of capital murder charges, as
required for postconviction relief; impeachment
of accomplice would do little, if anything, to
disturb evidence of felony murder. Fla. R. Crim.
P. 3.851(e)(1).

[40]

[38]

Criminal Law

Newly discovered evidence

It could not be said that newly-discovered
testimony of alleged accomplice’s fellow
inmates that, while in prison, accomplice told
one inmate, without remorse, that she personally
set victim on fire because victim was sleeping
with her ”baby’s dad,” and that defendant and
defendant’s daughter “did not do anything,”
would probably result in lesser sentence on
resentencing, in capital murder prosecution, as
required for postconviction relief; although there
would be more substantial question as to
whether defendant actually lit fire and acted as
primary aggressor, all evidence that murder
itself was heinous, atrocious, or cruel would still
stand, and new evidence would not carry any
significant probability of showing defendant to
have been minor participant. Fla. R. Crim. P.
3.851(e)(1).

In general, claims of ineffective assistance of
appellate counsel are properly presented in a
petition for writ of habeas corpus. U.S. Const.
Amend. 6.

[41]

Criminal Law

Post-conviction relief

Postconviction court’s error in summarily
denying defendant’s claim that she was entitled
to relief from her death sentence because jury

Criminal Law
appeal
Criminal Law
briefs

Preservation of error for
Raising issues on appeal;

Appellate counsel is not ineffective for failing to
raise meritless claims or issues on appeal that
were not properly raised in the trial court and are
not fundamental error. U.S. Const. Amend. 6.

[42]
[39]

Habeas Corpus Post-trial proceedings;
sentencing, appeal, etc

Criminal Law
General

Necessity of Objections in

Error is considered “fundamental” if it reaches
down into the validity of the trial itself to the
extent that a verdict of guilty could not have

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

App.009

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

been obtained without the assistance of the
alleged error.
[45]

[43]

Criminal Law Particular statements,
arguments, and comments
Criminal Law Preservation of error for
appeal

Appeals to Sympathy or

1 Cases that cite this headnote

[46]

Criminal Law
prejudice

Appeals to sympathy or

Prosecutor did not improperly belittle defense
counsel, during closing argument in capital
murder prosecution, by disparaging his
argument that defendant was not guilty of
first-degree murder, as would amount to
prosecutorial misconduct; rather, prosecutor
permissibly explained why defense counsel’s
arguments
seeking
a
conviction
of
second-degree murder were not supported by the
evidence adduced at trial.

Criminal Law Particular statements,
arguments, and comments
Criminal Law Preservation of error for
appeal
Even if prosecutor’s rhetorical question during
rebuttal closing argument in capital murder
prosecution, asking how state’s witness would
have learned information about victim’s murder
apart from gaining it from defendant, was
improper, statement was not so prejudicial as to
vitiate entire trial, as would amount to
fundamental error, and thus appellate counsel
was not ineffective in failing to raise
unpreserved prosecutorial misconduct claim;
although jury did not know witness had stated in
pretrial deposition, at which prosecutor was
present, that she had “heard on the news” that a
“girl” was “lit on fire,” prosecutor’s argument
could be viewed as properly directed at specific
information about murder witness testified at
trial to having learned from defendant, including
names of individuals involved. U.S. Const.
Amend. 6.

Inferences from and Effect of

Prosecutor’s statement during closing argument
in capital murder prosecution that defendant
“baited” victim “into the lion’s den by telling
her things were okay” did not cross line into
improper inflammatory argument; rather,
prosecutor asked jury to make permissible
inference based on evidence that defendant lured
victim into her home under false pretenses.

Prosecutor’s statement during rebuttal closing
argument in capital murder prosecution that
defendant was “cold-blooded murderer” did not
amount to fundamental error, and thus appellate
counsel was not ineffective in failing to raise
unpreserved prosecutorial misconduct claim on
direct appeal; although prosecutor likely crossed
line, statement was single occurrence. U.S.
Const. Amend. 6.

[44]

Criminal Law
Evidence
Criminal Law
Prejudice

1 Cases that cite this headnote

[47]

Criminal Law
witnesses

Comments on evidence or

Prosecutor did not improperly vouch for
credibility of state witnesses, during closing
argument in capital murder prosecution, by
asking what motive one witness had to make up
her testimony and what other witness had to
gain by testifying, as would amount to
prosecutorial misconduct; rather, prosecutor’s
arguments were proper response to defense

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

App.010

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

counsel’s credibility attacks on those witnesses
in light of evidence presented at trial.

jurisdiction. See art. V, § 3(b)(1), (9), Fla. Const. For the
reasons below, we affirm the circuit court’s denial of
postconviction relief and deny Brown’s habeas petition.

1 Cases that cite this headnote

I. BACKGROUND
[48]

Criminal Law
prejudice

Appeals to sympathy or

Prosecutor did not improperly demand justice
for victim or victim’s family during closing
argument in capital murder prosecution, as
would amount to prosecutorial misconduct;
rather, prosecutor’s reference to “justice” was
fairly read as response to defense counsel’s
explanation of jury’s role, and it was made in
context of addressing verdict that was required
when state met its burden to prove guilt beyond
a reasonable doubt.

*251 An Appeal from the Circuit Court in and for
Escambia County, Gary L. Bergosh, Judge - Case No.
172010CF001608XXXAXX And an Original Proceeding
– Habeas Corpus
Attorneys and Law Firms
Robert Friedman, Capital Collateral Regional Counsel,
Dawn B. Macready and Stacy R. Biggart, Assistant
Capital Collateral Regional Counsel, Northern Region,
Tallahassee, Florida, for Appellant/Petitioner
Ashley Moody, Attorney General, and Michael T.
Kennett, Assistant Attorney General, Tallahassee, Florida,
for Appellee/Respondent
Opinion
PER CURIAM.
Tina Lasonya Brown appeals the circuit court’s order
denying her motion to vacate her conviction of
first-degree murder and sentence of death filed under
Florida Rule of Criminal Procedure 3.851, and she also
petitions this Court for a writ of habeas corpus. We have

The facts of this case, including the overwhelming
evidence of Brown’s guilt, were set out in this Court’s
opinion on direct appeal. See Brown v. State, 143 So. 3d
392, 395-402 (Fla. 2014). There, we explained that the
evidence presented at trial established that Brown; her
daughter, Britnee Miller; and her neighbor Heather Lee
lived in the same mobile home park as the victim,
Audreanna Zimmerman. Id. at 395. In March 2010, Miller
and the victim had an altercation during which Miller
attempted to strike the victim and the victim defended
herself with a stun gun. Id. Thereafter,
on March 24, 2010, Brown invited Zimmerman to her
home under the guise of rekindling their friendship.
Before Zimmerman arrived, Brown, Miller, Lee, and
Miller’s thirteen-year-old friend, [M.A.,] were inside
the trailer. Brown and Lee were in the kitchen, where
Lee instructed Brown on the proper use of a stun gun.
Miller then pulled her friend aside and told her,
“[W]e’re fixing to kill Audreanna [Zimmerman].”
Shortly after 9 p.m., Zimmerman entered the trailer.
Brown waited several minutes and then used the stun
gun on Zimmerman multiple times. When Zimmerman
lost muscular control and fell to the floor, Brown
continued to use the stun gun on Zimmerman, who was
screaming and crying for help. Eventually, Brown
pulled Zimmerman across the trailer into the bathroom.
Zimmerman continued to scream and cry for help, so
Miller struck Zimmerman in the face and Lee stuffed a
sock into Zimmerman’s mouth. Zimmerman was then
forcibly escorted outside and forced into the trunk of
Brown’s vehicle.[n.2] Brown, Miller, and Lee then
entered the vehicle and drove away.
[N.2]. During trial, Lee disputed this summation of
what occurred in the trailer after Brown began to
attack Zimmerman. The veracity of Lee’s testimony
concerning her involvement in this crime, however,
was significantly challenged during trial, particularly
because Lee, who claimed that she was a victim and
was not involved in Zimmerman’s murder, pled
guilty to second-degree murder based on her
involvement in Zimmerman’s death.
Id. at 395-96.
The record shows that when M.A. was asked at trial why

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

App.011

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

she did not intervene as *252 Zimmerman was being
attacked at Brown’s trailer, M.A. testified that she was
afraid that “[i]f all three of them [were] going to do it,
they could do the same thing to [her].” M.A. further
testified that Brown was the primary aggressor based on
her observations at the trailer, although she said that Lee
participated by putting a sock in the victim’s mouth.
According to M.A.’s trial testimony, Brown used the stun
gun on the victim, held the victim’s hands behind her
back, led the victim to Brown’s car, and forced the victim
into the trunk. M.A. also testified that as Brown was
attacking the victim with a stun gun, Brown screamed,
“Did you call Crime Stoppers on me?”
Leaving M.A. behind at the trailer, Brown drove her car,
with Miller and Lee inside and the victim in the trunk, “to
a clearing in the woods about a mile and a half from the
trailer park.” Brown, 143 So. 3d at 396. According to
Lee’s trial testimony, the following events occurred once
the women arrived at the clearing in the woods:
Brown exited the car and pulled Zimmerman out of the
trunk. Zimmerman attempted to flee, but stumbled in
the darkness and was caught by Brown and Miller. The
two women wrestled Zimmerman to the ground and
simultaneously attacked her. Brown used the stun gun
again on Zimmerman as Miller beat her with a crowbar.
Brown and Miller then switched weapons and
continued to torture and beat Zimmerman. Miller
eventually dropped the stun gun and repeatedly
punched Zimmerman. Brown returned to the car,
retrieved a can of gasoline from the trunk, and walked
back toward the beaten and prone, but still conscious,
Zimmerman. Brown poured gasoline on Zimmerman,
retrieved a lighter from her pocket, set Zimmerman on
fire, and stood nearby to watch the screaming
Zimmerman burn. Lee testified that she was standing
beside Miller, who exuberantly jumped up and down
and screamed, “Burn, bitch! Burn!” After a few
minutes, the three women returned to the car and drove
away. During the ride home, Miller said, “Mom,
you’ve got to turn around. I left my shoes and the
taser.” Brown, however, refused to return to the
location of the event.
Id.

injured her hand striking Zimmerman, and that the
three women had set Zimmerman on fire. Miller and
[M.A.] then used Brown’s car to drive to the hospital to
get medical care for Miller.
Id.
Meanwhile, Zimmerman, who had not immediately
succumbed to her wounds, walked about one-third of a
mile to a neighboring home and asked for assistance. Id.
at 396.
At 9:24 p.m., an emergency medical technician (EMT)
arrived at the scene. When the EMT approached
Zimmerman, he observed her sitting on the porch,
rocking back and forth with her arms straight out. Due
to the extensive nature of Zimmerman’s burns, the
EMT testified that he could not initially identify
whether she was wearing clothing. The EMT noticed
that Zimmerman’s skin was falling off her body, and he
believed that over ninety percent of her body was
burned. She had severe head *253 trauma, and her jaw
was either broken or severely dislocated. The EMT
explained that the extent and severity of the burns
prevented him from providing Zimmerman medical
assistance. He testified that while he generally placed
sterile gauze and oxygen on burns, he did not have
enough gauze to cover her entire body. He attempted to
stabilize her neck, but her skin was charred to such an
extent that he could not touch Zimmerman without her
skin rubbing off onto his gloves.

After Brown, Lee, and Miller left the scene of the
burning, they returned to Brown’s trailer. Id. at 397.
There,

Despite her injuries, Zimmerman was conscious and
alert. She identified Brown and Lee as her attackers and
told the EMT that she was “drug out of the house,
tased, beaten in the head with a crowbar, and then set
on fire.” She also provided her address as well as the
addresses of her attackers, and asked the EMT to
protect her children. The ambulance arrived within a
few minutes and transported Zimmerman to the
hospital. Inside the ambulance, Zimmerman repeatedly
asked if she was going to recover. She told the
paramedic that Brown, Miller, and Lee poured gasoline
on her and set her on fire. She also stated that she
“thought they had made up.” Zimmerman was
stabilized at a local hospital and then transferred to the
Burn Center at the University of South Alabama
Hospital in Mobile, Alabama, where she died sixteen
days later.
Id. at 396-97.

Brown and Miller removed their bloodstained clothing
and placed it in a garbage bag. Lee removed her shoes,
which were also stained with blood, and placed them in
the bag. Miller informed her friend, [M.A.], who had
remained at the trailer during the attack, that she had

Based on the information provided by Zimmerman,
Brown and Lee were arrested the night of attack, and
Miller was arrested when she returned home from the
hospital the next day. Id. at 397. However, all three were
released while Zimmerman was still in the hospital. Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

App.012

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

During that time, Brown informed her friend Pamela
Valley that she, Miller, and Lee had beaten
Zimmerman, forced her into a car, driven her to an
open field and “lit her on fire and didn’t look back.” A
few days later, Brown informed Valley that
Zimmerman was still alive and requested Valley to
finish her off. Valley declined and later reported the
conversation to law enforcement.
Id.
On April 9, 2010, the day that Zimmerman died as a
result of multiple thermal injuries, Brown, Miller, and Lee
were rearrested. Id. The State charged Brown with
first-degree murder under both theories of premeditated
and felony murder with kidnapping as the underlying
felony.1
At trial, Brown’s jury heard that, while Brown was
awaiting trial in jail, she made statements to a fellow
inmate, Corie Doyle, that were indicative of her state of
mind following the altercation between her daughter and
Zimmerman. Id. at 395 n.1. Specifically, Doyle testified
at trial that Brown told her Zimmerman had used a stun
gun on her daughter, Miller, and that when Brown had
heard about it, she “informed Miller, ‘[D]on’t worry, I’ll
take care of it.’ ” Id. Doyle also testified that she and
Brown had a conversation early one morning during
which Brown confessed her involvement in the murder.
According to Doyle, at that time, Brown admitted that
“they picked up the victim and beat her up and tazed her
and set her on fire.” When asked who “they” were, Doyle
testified that it was “[Brown] and her daughter [Miller]”
and that Heather Lee was there but that “she didn’t have
anything to do with it.” When asked if she knew who Lee
was at the time of this conversation, Doyle answered,
“No. I have never laid eyes on her.” Doyle further
testified that she was *254 eventually transferred and
ended up housed with Lee.
In addition, Brown’s jury heard that law enforcement had
discovered physical evidence at the scene of the burning,
“including a pair of white shoes; a stun gun with blood on
the handle; paper stained with blood; an orange, gold, and
black hairweave [that matched a large section missing
from the back of Brown’s hair]; a crowbar; and a pool of
blood.” Id. at 397 (footnote omitted). The jury also heard
that blood discovered on the passenger seat headrest of
Brown’s vehicle matched Zimmerman’s DNA profile,
and that the blood on the stun gun matched Brown’s DNA
profile. Id.
Based on the evidence presented at trial, Brown’s jury
found her guilty of first-degree murder as charged. See id.
at 397.

The case then proceeded to the penalty phase, where
Brown presented evidence of mitigating circumstances
through several family members and her mental health
expert, Dr. Elaine Bailey. Id. at 397-400. Brown’s
penalty-phase presentation focused on how her traumatic
background affected her and shaped her actions on the
night of the murder. See id. This evidence included that
Brown had suffered a deprived childhood; physical and
sexual abuse, including being raped by her father and
prostituted by her stepmother; parental and other familial
abandonment; drug addiction; and exposure to her
father’s drug-related, violent criminal lifestyle as a child.
See id. It also included evidence that, as an adult, Brown
had experienced physically and sexually abusive
relationships, including domestic abuse; and that she had
struggled with addiction, particularly to crack cocaine, to
the point that she lost custody of two of her children. See
id. at 399.
Additionally, evidence regarding Lee’s role in the crime
factored into Brown’s penalty-phase argument. For
example, during the guilt phase, in addition to challenging
Lee’s denial of her role in the murder through
cross-examination, trial counsel called Wendy Moye, a
fellow inmate of Lee’s, who testified that Lee admitted to
her that she was the one who lit the victim on fire, that the
group had gotten the victim into the car by telling her that
they were going to the grocery store, and that the beating
started in the car. Although Brown relied on this and other
evidence to argue that Lee may have been more culpable
and yet was allowed to plead guilty to second-degree
murder, the jury heard from Dr. Bailey that “Brown did
not deny her involvement in the murder, and that Brown
felt remorseful for her actions.” Id. at 400. More
specifically, the penalty-phase record reveals that Dr.
Bailey testified that Brown had described Lee as “the
escalator” and further testified about “the impact of social
mediation,” telling the jury that if they “believe[d] that
[Lee] was more involved in [the crime]” than she claimed,
then “[t]here was social mediation going [o]n, social
influence, and group-mediated emotion” that “makes
more extreme behavior.” However, Dr. Bailey said that it
was not her opinion that Brown “acted under extreme
duress under Heather Lee” and testified that Brown did
“not deny being an aggressor, being involved, ... [or] what
she did” and that Brown “was very frank about her role”
in the victim’s murder during her evaluations.
The State’s expert, Dr. John Bingham, also evaluated
Brown and “found no evidence that Brown lacked the
capacity to conform her conduct to the requirements of
the law[ ] or that she exhibited diminished capacity in
understanding the criminality of her conduct.” Brown,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

App.013

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

143 So. 3d at 400. He also opined that Brown “was not
under extreme duress or experiencing an *255 emotional
disturbance at the time of the offense.” Id. Dr. Bingham
testified that “there was no indication” Brown’s feelings
of anger and rage “inhibited her ability to think clearly or
to recognize right from wrong,” that “Brown’s actions on
the night of the attack demonstrated preplanning,
direction, and were goal[-]oriented,” and that “while there
was substantial trauma in Brown’s life, there was no
cause and effect relationship connecting Brown’s past to
her actions in murdering Zimmerman.” Id.
Following the penalty-phase presentation, the jury
unanimously recommended a sentence of death. Id.
During the Spencer2 hearing, records and letters, including
a letter from one of Brown’s friends, were introduced into
evidence. Id. Brown “apologized to the victim’s family,”
stated that the victim “died a horrific death,” admitted that
she “was one of the ones who participated in taking [the
victim’s] life,” and said that the victim “didn’t deserve it
at all.” Id. Thereafter, the trial court followed the jury’s
recommendation and sentenced Brown to death, finding
that the aggravating circumstances outweighed the
mitigating circumstances. Id. at 400-02.
In so doing, the trial court found that the State had proven
beyond a reasonable doubt the existence of the following
aggravating factors and assigned them the noted weight:
“(1) the murder was committed in a cold, calculated, and
premeditated manner without any pretense of moral or
legal justification (CCP) (great weight); (2) the murder
was especially heinous, atrocious, or cruel (HAC) (great
weight); and (3) the murder was committed while Brown
was engaged in the commission of a kidnapping
(significant weight).” Id. at 401.
The trial court found one statutory mitigating
circumstance, “that Brown had no significant history of
prior criminal activity,” and assigned it minimal weight.
Id. The trial court considered but rejected the following
four statutory mitigating circumstances: “(1) the crime
was committed while Brown was experiencing an
extreme emotional disturbance; (2) Brown was an
accomplice in the crime and her participation was
relatively minor; (3) Brown acted under extreme duress;
and (4) the capacity of Brown to appreciate the
criminality of her conduct or to conform her conduct to
the requirements of law was significantly impaired.” Id. at
401 n.7.
The trial court also found twenty-seven nonstatutory
mitigating circumstances and assigned them the noted
weight:
Specifically, the [trial] court found that Brown: (1) was

the child of a teenage mother (minimal weight); (2) was
neglected by both parents (some weight); (3) lost her
childhood due to parental neglect (some weight); (4)
was abandoned by her mother (some weight); (5) had a
history of family violence (some weight); (6) was
exposed to drugs during her adolescence (some
weight); (7) suffered developmental damage due to her
parents’ use of and dependence on drugs (some
weight); (8) was subjected to sexual violence inflicted
by her father; (some weight); (9) was betrayed by a
trusted family member (i.e., her grandmother) (some
weight); (10) experienced corruptive community
influences and exposure to a criminal lifestyle (some
weight); (11) experienced chaotic moves and
transitions (little weight); (12) was a victim of domestic
violence during her adult life (some weight); (13)
witnessed a violent homicide and served as a State
witness in a murder trial (little weight); (14) lost her
family (her parental rights were terminated for her two
sons, and *256 she has no relationship with her mother
or father) (little weight); (15) suffered repeated trauma
throughout her life (little weight); (16) suffered from
drug addiction (little weight); (17) suffered from the
long term effects of chronic cocaine use on her brain
(some weight); (18) was a productive citizen during
periods of sobriety (little weight); (19) was living in
poverty at the time of the crime (minimal weight); (20)
behaved well in jail (little weight); (21) conducted a
[B]ible study program (little weight); (22) exhibited
good courtroom behavior (little weight); (23) has no
possibility of parole (little weight); (24) showed
remorse (some weight); (25) received a different
sentence than that of her codefendants (some
weight)[n.8]; (26) had no history of prior criminal
violence (moderate weight); and (27) was using
cocaine on the day of the crime (moderate weight).
[N.8] In finding th[e] mitigating circumstance [that
Brown received a different sentence than that of her
codefendants], the trial court noted that:
the three people involved in the murder of
Zimmerman are not similarly situated. Despite her
involvement in Zimmerman’s murder, Britnee
Miller cannot legally be sentenced to death as she
was less than 18 years of age when the murder
was committed. Heather Lee was convicted,
pursuant to a negotiated plea agreement with the
State, of second[-]degree murder. Heather Lee
cannot legally be sentenced to death.
(Citation omitted.)
Id. at 401 & n.8.
In sentencing Brown to death, the trial court “noted that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

App.014

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

this case, ‘particularly because of the heinous, atrocious,
[or] cruel nature of the murder of Audreanna Zimmerman,
falls into the class of murders for which the death penalty
is reserved.’ ” Id. at 402.
On direct appeal, this Court affirmed Brown’s conviction
and sentence of death. Id. at 408.3 Thereafter, the United
States Supreme Court denied Brown’s petition for a writ
of certiorari. Brown v. Florida, 574 U.S. 1034, 135 S.Ct.
726, 190 L.Ed.2d 453 (2014).
In 2015, Brown filed an initial motion for postconviction
relief, which was amended several times after being
stricken for noncompliance with rule 3.851, and, in 2017,
ultimately filed the third amended motion at issue in this
appeal.4 Following an evidentiary hearing, the circuit
court denied relief on all of Brown’s claims. Brown
appeals the circuit court’s denial of several of her claims,
and she also petitions this Court for a writ of habeas
corpus.

*257 II. POSTCONVICTION APPEAL

First, the claimant must identify particular acts or
omissions of the lawyer that are shown to be outside
the broad range of reasonably competent performance
under prevailing professional standards. Second, the
clear, substantial deficiency shown must further be
demonstrated to have so affected the fairness and
reliability of the proceeding that confidence in the
outcome is undermined.
Bolin v. State, 41 So. 3d 151, 155 (Fla. 2010) (quoting
Maxwell v. Wainwright, 490 So. 2d 927, 932 (Fla. 1986)).
[2] [3] [4]

Regarding Strickland’s deficiency prong, there is a
“strong presumption” that trial counsel’s performance
“falls within the wide range of reasonable professional
assistance.” Strickland, 466 U.S. at 689, 104 S.Ct. 2052.
Moreover, “[a] fair assessment of attorney performance
requires that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the
time.” Id. The defendant bears the burden to “overcome
the presumption that, under the circumstances, the
challenged action ‘might be considered sound trial
strategy.’ ” Id. (quoting Michel v. Louisiana, 350 U.S. 91,
101, 76 S.Ct. 158, 100 L.Ed. 83 (1955)).
Regarding the prejudice prong, “Strickland requires
defendants to show ‘there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. ... [A] ‘reasonable
probability’ is a ‘probability sufficient to undermine
confidence in the outcome.’ ” Henry v. State, 948 So. 2d
609, 621 (Fla. 2006) (quoting Strickland, 466 U.S. at 694,
104 S.Ct. 2052).
[5] [6]

A. Ineffective Assistance of Trial Counsel
Brown argues that trial counsel was ineffective in
numerous respects during the jury selection, guilt, and
penalty phases of her trial. Specifically, first, she argues
that trial counsel was ineffective during jury selection for
failing to strike juror Taylor for cause. Second, she claims
that trial counsel was ineffective during the guilt phase (a)
for failing to adequately challenge the State’s evidence
through cross-examination of witnesses Heather Lee and
Corie Doyle and (b) for failing to present witnesses
Darren Lee, Terrance Woods, and Nicole Henderson for
purposes of impeachment. Third, she argues that trial
counsel was ineffective during the penalty phase (a) for
failing to conduct a reasonably competent mitigation
investigation and present adequate mitigation and (b) for
failing to consult and present additional mental health
experts. Fourth, and last, she contends that the circuit
court erred by denying her claim that, cumulatively, trial
counsel’s deficient performance during the guilt and
penalty phases deprived her of a fundamentally fair trial.
[1]

To prevail on an ineffective assistance of counsel claim
following the United States Supreme Court’s decision in
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984), a defendant must satisfy two
requirements:

[7]

Because both prongs of Strickland present mixed
questions of law and fact, this Court employs a mixed
standard of review, deferring to the circuit court’s factual
findings that are supported by competent, substantial
evidence but reviewing the circuit court’s legal
conclusions de novo. See Sochor v. State, 883 So. 2d 766,
771-72 (Fla. 2004). “[W]hen a defendant fails to make a
showing as to one prong, it is not necessary to delve into
whether he has made a showing as to the other *258
prong.” Zakrzewski v. State, 866 So. 2d 688, 692 (Fla.
2003) (quoting Waterhouse v. State, 792 So. 2d 1176,
1182 (Fla. 2001)). “Where trial counsel is deficient in
more than one area, however, we must ‘consider the
impact of these errors cumulatively to determine whether
[the defendant] has established prejudice.’ ” Sparre v.
State, 289 So. 3d 839, 847 (Fla. 2019) (quoting Parker v.
State, 89 So. 3d 844, 867 (Fla. 2011)).
For the reasons below, we affirm the circuit court’s denial

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

App.015

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

of postconviction relief.

(1) Jury Selection
Brown argues that trial counsel was ineffective for failing
to strike juror Taylor for cause because juror Taylor’s voir
dire responses indicate that he would automatically vote
for the death penalty if Brown was convicted of
first-degree murder. We disagree.
[8] [9]

To establish the prejudice required by Strickland,
“where a postconviction motion alleges that trial counsel
was ineffective for failing to raise or preserve a cause
challenge, the defendant must demonstrate that a juror
was actually biased.” Carratelli v. State, 961 So. 2d 312,
324 (Fla. 2007). “Under the actual bias standard, the
defendant must demonstrate that the juror in question was
not impartial—i.e., that the juror was biased against the
defendant, and the evidence of bias must be plain on the
face of the record.” Id. Moreover, to establish actual bias,
the record must show “something more than mere doubt
about [the] juror’s impartiality.” Mosley v. State, 209 So.
3d 1248, 1265 (Fla. 2016).
[10]

When the record in this case is viewed as a whole,
Brown cannot make the requisite showing of actual bias.
Juror Taylor initially stated that he had an open mind as to
the appropriate penalty. Subsequently, juror Taylor was
asked if his response to defense counsel’s question as to
whether he could put aside his personal feelings, follow
the judge’s instructions, and consider the evidence before
imposing the death penalty was “the same” as that of
another prospective juror who had answered, “I could do
that.” Juror Taylor responded, “No,” and then he
explained his answer by stating that whether he would
vote to impose the death penalty would “depend[ ] on the
evidence” and that “[i]f it’s proven without a shadow of a
doubt, [he] would go with the death penalty.”
Although that response arguably supports Brown’s claim,
the remainder of the record is to the contrary. For
example, juror Taylor did not voice disagreement when
trial counsel later asked the entire panel, “Do each of you
agree that it’s not automatic that [Brown] get the death
penalty ... if [Brown] would be found guilty of
first-degree murder. ... It’s not automatic that she get the
death penalty?” Similarly, juror Taylor did not voice
disagreement with trial counsel’s subsequent follow-up
question to the entire panel as to whether there was
anyone on the panel who would not be able to “consider
the personal circumstances and background of the
Defendant when you’re making the decision as to whether

to recommend life or death.” Moreover, when trial
counsel specifically questioned juror Taylor regarding his
opinion of mental health professionals and the validity of
the profession, juror Taylor was not dismissive of this
type of mitigation and instead stated, “I would assume it’s
pretty valid.”
On this record, at best, one of juror Taylor’s voir dire
responses raised some doubt as to his impartiality—doubt
that is not enough to establish the requisite prejudice, see
Mosley, 209 So. 3d at 1265, and that, in any event, is
dispelled when the voir dire record is considered as a
whole. *259 Accordingly, because Brown cannot
establish the actual bias required to prove that she was
prejudiced by trial counsel’s failure to challenge juror
Taylor for cause, we affirm the circuit court’s denial of
relief. See Carratelli, 961 So. 2d at 324.

(2) Guilt Phase
Brown next argues that trial counsel was ineffective
during the guilt phase (a) for failing to adequately
challenge the State’s evidence through cross-examination
of witnesses Heather Lee and Corie Doyle and (b) for
failing to present witnesses Terrance Woods, Darren Lee,
and Nicole Henderson for purposes of impeachment.

(A) Cross-Examination of Witnesses

Heather Lee
Brown first argues that trial counsel’s cross-examination
of Heather Lee was ineffective because trial counsel
failed to impeach Lee in several respects.

Prior Convictions
[11]

First, Brown argues that trial counsel was ineffective in
cross-examining Lee because he failed to impeach Lee
with her prior convictions for two petit thefts and two
felony failures to appear. Brown argues that if Lee had
opened the door when questioned as to the existence and
number of her prior convictions, trial counsel could have
inquired further into the details underlying those
convictions and used that information to argue that the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

App.016

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

jury should not believe Lee’s testimony and should
instead believe that Lee was more culpable than Brown
for the victim’s murder due to Lee’s violent history.
As an initial matter, the record refutes Brown’s argument
that impeaching Lee with her prior convictions would
have opened the door to further inquiry about the
underlying details of those convictions. Lee was
questioned about her prior convictions at the evidentiary
hearing, and postconviction counsel did not attempt to
make such a record based on Lee’s responses. Moreover,
at best, Lee’s responses would have resulted in the
records of her convictions being introduced into evidence.
See Tilus v. State, 121 So. 3d 1145, 1149 (Fla. 4th DCA
2013) (“The proper method to impeach a witness who
provides inaccurate or misleading information regarding
prior convictions is to admit certified copies of the
convictions.”).
Nevertheless, although Lee’s prior convictions could not
have been used to the extent Brown argues, they
constitute available impeachment evidence that went
unused by trial counsel. See § 90.610(1), Fla. Stat. (2019).
However, we need not “delve into” whether Brown has
made a showing as to the deficiency prong because there
is no prejudice for the reasons explained below in our
cumulative prejudice analysis. Zakrzewski, 866 So. 2d at
692.

Prior Inconsistent Statements
[12]

Second, Brown argues that trial counsel was ineffective
in cross-examining Lee because he failed to impeach Lee
with four alleged prior inconsistent statements. First, she
argues that trial counsel should have impeached Lee’s
trial testimony regarding her whereabouts on the day of
the crime, namely that she went to Brown’s trailer at
approximately 9 p.m., with Lee’s prior statements that she
was around Brown’s trailer between 3:15 and 3:45 p.m.,
but then went home to cook and visit with multiple family
members. Second, Brown argues that trial counsel should
have impeached Lee’s trial testimony about who was
present in the vehicle used to transport the victim and in
the area where the victim was lit on fire—herself, Miller,
and Brown—with her prior statement that M.A. was also
present and that M.A. and Miller held her at the back of
the vehicle while Brown pulled the victim out of the
trunk. Third, Brown claims that trial counsel *260 should
have impeached Lee’s trial testimony that she had not
previously been to the area where the victim was lit on
fire, but she could see the entrance to the area and the
chains blocking it off, with her prior statement that she

knew the area but it is usually blocked with strings to
prevent people from entering. Fourth, and finally, Brown
argues that trial counsel should have impeached Lee’s
trial testimony that she “guess[ed]” her shoes were bloody
because she stepped in some blood while running with her
prior statement that she “guess[ed]” blood flew on her
when the victim was being attacked, although she was not
taking part in it. Brown contends that trial counsel’s
deficient cross-examination prejudiced her because her
jury did not hear additional evidence that it could have
used to conclude that Lee was a liar.
However, Lee was not questioned at the postconviction
evidentiary hearing about her alleged prior inconsistent
statements on any of these subjects. Therefore, “what
[she] would have said if questioned about [them] ... is
speculative and, thus, cannot support postconviction
relief.” Calhoun v. State, Nos. SC18-340 & SC18-1174,
––– So.3d ––––, ––––, 2019 WL 6204937, at *9 (Fla.
Nov. 21, 2019). Accordingly, we affirm the circuit court’s
denial of relief with respect to all of these claims.

Bias
[13]

Brown next argues that trial counsel was ineffective
during her cross-examination of Lee by failing to impeach
Lee through evidence of bias. See § 90.608(2).
Specifically, Brown argues Lee’s husband, Darren Lee,
admitted during his pretrial deposition that he was
sleeping with both the victim and Brown. She further
argues that Terrance Woods testified during his pretrial
deposition that Darren Lee was having an affair with the
victim and that Heather Lee found out about it and got
into a physical fight with the victim about it two days
before the victim’s murder. Brown argues that eliciting
Lee’s knowledge of her husband’s affairs with both the
victim and Brown during cross-examination would have
established bias, namely Lee’s motive to kill the victim
and blame Brown. We affirm the denial of relief because
Brown failed to present any evidence that would support
this claim. Heather Lee denied knowledge of her
husband’s affairs when questioned about them at the
postconviction evidentiary hearing. Trial counsel cannot
be ineffective for failing to elicit information from Lee on
cross-examination that Lee denies exists. However, we
recognize that in addition to challenging trial counsel’s
cross-examination of Heather Lee, Brown argues that trial
counsel was ineffective for failing to call Darren Lee and
Terrance Woods to impeach Lee about this and other
subjects, and we address those claims below.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

App.017

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

Lee’s Failure to Open the Door for Police
Brown further argues that trial counsel was ineffective in
cross-examining Lee by failing to use Darren Lee’s
pretrial deposition testimony to discredit Lee’s trial
testimony that she did not open the door for the police
because Brown told her not to. In his pretrial deposition,
Darren Lee testified that no one opened the door because
he was high. However, Brown cites no authority for her
argument that trial counsel could have admitted Darren
Lee’s deposition testimony to impeach Heather Lee’s trial
testimony about why she did not open the door for police.
To the extent Brown argues that trial counsel should have
called Darren Lee as a witness to attack Lee’s credibility
by showing that the facts as to why Lee failed to open the
door were not as Lee testified, see § 90.608(5), we
address the argument that trial counsel was ineffective for
failing to *261 call Darren Lee as a witness to impeach
Lee on this and other subjects below.

Corie Doyle
[14] [15]

Brown next argues that trial counsel was ineffective
during his cross-examination of Corie Doyle because he
failed to impeach Doyle with her prior convictions, jail
records, and deposition statements.5 However, Brown’s
argument regarding Doyle’s prior convictions was not
included in her postconviction motion and is therefore
procedurally barred. See Thompson v. State, 759 So. 2d
650, 667 n.12 (Fla. 2000) (holding claim “procedurally
barred because it was not alleged in the postconviction
motion filed in the trial court”). Regarding the jail
records, Brown claims that trial counsel could have used
them to impeach Doyle’s testimony that Brown confessed
to her before she had ever seen Lee. Brown explains that
the records would show that Doyle was housed with Lee
before she was housed with Brown and that this
information undermines Doyle’s claim never to have seen
Lee before when this information is considered along with
(a) Doyle’s testimony that she approached Brown because
Brown’s jumpsuit was an eyecatching color and (b) other
evidence that Lee’s jumpsuit was the same color as
Brown’s. Regarding Doyle’s pretrial deposition, Brown
claims that trial counsel failed to impeach Doyle with
statements that would have shown Doyle learned about
the murder from the news and embellished the details on
her own, including Doyle’s deposition testimony that
Brown told her Miller caught herself on fire. However,
because Doyle did not testify at the evidentiary hearing,
“what [Doyle] would have said if questioned” about the
jail records and statements made in her pretrial deposition
“is speculative and, thus, cannot support postconviction

relief.” Calhoun, ––– So.3d at ––––, 2019 WL 6204937,
at *9. Accordingly, we affirm the postconviction court’s
denials with respect to these claims.

(B) Failure to Present Impeachment Witnesses

Terrance Woods
[16]

Brown next argues that trial counsel was ineffective for
failing to call Terrance Woods. Specifically, she argues
that by calling Woods to impeach Heather Lee’s trial
testimony, trial counsel would have been able to lessen
Brown’s culpability, show that Heather Lee was the
ringleader, and corroborate similar powerful impeachment
evidence available from Darren Lee. We agree that trial
counsel was deficient for failing to call Woods.
At his pretrial deposition, Woods testified that Heather
Lee told him she had discovered that her husband, Darren
Lee, was having an affair with the victim, and that she
had gotten into a fight with the victim about it two days
prior to the murder. On the day of the fight, Woods heard
Heather Lee say, “I’m going to kill the bitch.” On a
separate occasion, after the victim’s murder, Woods
stated that Heather Lee admitted to him and Darren Lee
that “all three of them”—referring to herself, *262
Brown, and Miller—“got the girl, we took her, we beat
her up, set her on fire.” Woods further stated that Lee
admitted to pouring gas on the victim and to setting her
on fire.
At the postconviction evidentiary hearing, Woods
testified consistently with his deposition.6 Although trial
counsel generally testified that his strategy was to blame
Heather Lee as much as possible without losing
credibility with the jury by saying that Brown was not
involved, trial counsel would not take a position as to
whether calling Woods as a witness would have been
helpful to Brown’s case. When pressed, trial counsel
stated, “Unless I didn’t believe him,” but he did not testify
that he had actual knowledge that Woods was lying, or
even that he actually did not believe Woods. Like many
of the witnesses in this case, Woods was subject to
impeachment with prior felony convictions, and the
record shows that he was in prison at the time of Brown’s
trial and hoped to benefit from his testimony. However,
because the record shows that Woods’ testimony was
consistent with trial counsel’s stated strategy, and when
pressed on the issue, trial counsel could not articulate a
reasonable strategy for failing to call Woods, we hold that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

App.018

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

trial counsel was deficient for failing to do so. See
Schoenwetter v. State, 46 So. 3d 535, 554 (Fla. 2010)
(“Reasonable decisions regarding trial strategy, made
after deliberation by a claimant’s trial attorneys in which
available alternatives have been considered and rejected,
do not constitute deficient performance under
Strickland.”).
Because, as explained below, we find trial counsel
deficient in an additional respect, we address prejudice
cumulatively.

Darren Lee
[17]

Brown next argues that trial counsel was ineffective for
failing to call Darren Lee. Specifically, Brown argues
that, after Terrance Woods testified at his pretrial
deposition about incriminating statements Heather Lee
made to himself and Darren Lee before and after the
murder, no reasonable trial counsel would have failed to
re-depose Darren Lee and call him as a witness at trial to
impeach Heather Lee. Brown also argues that Darren Lee
could have impeached Heather Lee’s testimony as to why
she did not open the door for the police, further
discrediting Lee’s attempts to paint Brown as the
ringleader. We agree that trial counsel was deficient for
failing to call Darren Lee.
Trial counsel testified at the postconviction evidentiary
hearing that he could not see Darren Lee providing any
useful information. However, when Darren Lee testified
at the evidentiary hearing, he admitted to having affairs
with both Brown and the victim, and he also testified to
the statements that Heather Lee made to him in the
presence of Terrance Woods. Darren Lee’s testimony was
consistent with that of Terrance Woods. Specifically,
Darren Lee testified that before the victim’s murder, after
Heather Lee came home following a fight with the victim,
she told him that he “won’t be sleeping with that bitch.”
After the victim’s murder, according to Darren’s
testimony, Heather Lee described how the victim begged
for her life and claimed to have been the one who poured
gas on the victim and lit her on fire. Finally, although
Heather Lee testified during trial that she did not open the
door for police following the victim’s murder because
Brown told her not to, during his pretrial deposition,
Darren Lee stated *263 that no one opened the door for
the police because he was high.
[18]

Trial counsel testified at the postconviction evidentiary
hearing that he did not think it would have been helpful to
Brown’s case or to the impeachment of Heather Lee to

have Darren Lee testify, as Darren Lee had spoken to the
police three times and never told them that Heather Lee
confessed. Generally, “counsel is not ineffective for
deciding not to call a witness whose testimony will be
harmful to the defendant.” Diaz v. State, 132 So. 3d 93,
109 (Fla. 2013).
However, we fail to see—and the record is silent
regarding—how calling Darren Lee to testify at trial
would have been inconsistent with trial counsel’s stated
strategy to place as much blame on Heather Lee as
possible without having the jury think he was trying to
“scam” them by saying that Brown was not involved in
the victim’s murder. To the contrary, as Brown argues,
Darren Lee’s testimony about Heather Lee’s statements
would have impeached her trial testimony that she and the
victim were “real close friends” and other testimony in
which she attempted to minimize her role in the victim’s
murder and described Brown as the ringleader. Further,
Darren Lee’s admissions to having affairs with both
Brown and the victim could have been used to explain
Heather Lee’s motive for participating in the murder and
her bias for testifying and attempting to minimize her role
in comparison to Brown’s. Moreover, most of the
available impeachment testimony from Darren Lee would
have been corroborated by the available impeachment
testimony from Terrance Woods, which we have already
held that trial counsel was deficient for failing to present.
Cf. State v. Morrison, 236 So. 3d 204, 220 (Fla. 2017)
(ruling that there were sufficient facts to place trial
counsel “on notice” that further investigation of the
defendant’s mental health and social background was
required and that counsel’s failure to investigate such
defenses were “not reasonable under prevailing
professional norms”). We similarly hold that trial counsel
was deficient for failing to call Darren Lee, and in light of
our holding that trial counsel was also deficient for failing
to call Terrance Woods, we address prejudice
cumulatively below.

Nicole Henderson
In her last claim regarding trial counsel’s guilt-phase
representation, Brown argues that trial counsel was
ineffective for failing to investigate and call Lee’s fellow
inmate Nicole Henderson as a witness at trial. At the
postconviction evidentiary hearing, Henderson testified
that while she was in jail with Lee, she overheard Lee
talking to a third inmate about the victim’s murder.
According to Henderson, Lee told the other inmate that
the murder happened because Lee’s boyfriend had
impregnated another lady and that Lee planned to “get
[19]

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

App.019

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

off” by blaming the murder on Brown and Miller with the
help of two juveniles who were being housed with Miller.
On cross-examination, Henderson testified that it sounded
like Lee was bragging and that Lee had not said how she
planned to contact the two juveniles. Henderson also
testified that Lee had gotten into a fight with Henderson’s
sister because Lee’s boyfriend wanted to have sex with
her. Finally, Henderson testified to her observations of
Brown in jail, including that she did not see Brown awake
or out of her cell early in the mornings.
Brown argues that trial counsel was ineffective for failing
to discover and use Henderson’s testimony about the
conversation Henderson overheard to impeach Lee, for
failing to use Henderson’s testimony *264 regarding the
fight as reverse Williams7 rule evidence, and for failing to
use Henderson’s observations of Brown while they were
in jail together to refute Corie Doyle’s trial testimony that
Brown confessed to her early one morning. We affirm the
circuit court’s denial of relief.
As an initial matter, Brown failed to establish a fact
critical to all three of her arguments, namely that trial
counsel should have discovered the information available
from Henderson before trial. To the contrary, at the
postconviction evidentiary hearing, trial counsel denied
having knowledge that Lee had confessed to any inmate
while in jail, except Wendy Moye. Also, Henderson
testified at the evidentiary hearing that she did not tell
anyone about Lee’s confession when it occurred, and
Henderson was not asked whether she told anyone about
Lee’s fight with her sister or about her observations of
Brown.
However, even assuming that trial counsel should have
discovered this information from Henderson, trial counsel
testified at the evidentiary hearing that he generally does
not like to use “jailhouse snitches and rats” because
“[t]hey lie” and that he did not feel that having multiple
witnesses testify that Lee had confessed would have been
helpful for Brown’s case. In light of the testimony about
Lee’s confession that the jury heard through Moye, the
judgment call associated with presenting any witness,
particularly one who is incarcerated, and trial counsel’s
strategy not to present testimony from multiple witnesses
on the same topic, we cannot say that the record is devoid
of competent, substantial evidence supporting the circuit
court’s finding that trial counsel was not deficient for
failing to call Henderson to testify regarding Lee’s
statements to her. Cf. Whitfield v. State, 923 So. 2d 375,
380 (Fla. 2005) (explaining that “trial counsel have
significant leeway in determining how to present
[cumulative] evidence,” in the context of addressing the
claim that trial counsel was ineffective for failing to call

additional witnesses to corroborate the defendant’s
voluntary intoxication defense).
Moreover, Henderson’s testimony that Lee had gotten
into a fight with Henderson’s sister because Lee’s
boyfriend wanted to have sex with Henderson’s sister
would not have been admissible as reverse Williams rule
evidence, even assuming that Brown preserved this
argument, which she did not.8 The circumstances of Lee’s
fight with Henderson’s sister are not sufficiently similar
to the circumstances of the victim’s murder to constitute
reverse Williams rule evidence. See State v. Savino, 567
So. 2d 892, 894 (Fla. 1990) (explaining that under the
reverse Williams rule, a defendant may introduce
evidence that another person has committed a similar
crime if the evidence shows “a close similarity of facts, a
unique or ‘fingerprint’ type of information”).
[20]

Finally, competent, substantial evidence supports the
circuit court’s finding that trial counsel was not deficient
for failing to present Henderson’s testimony about her
observations of Brown because it did not refute Doyle’s
trial testimony that Brown confessed to her early one
morning. Although, at the postconviction evidentiary
hearing, Henderson testified that based on her
observations of Brown while they were in jail together,
Brown *265 was not an early riser, Henderson admitted
on cross-examination that it was possible Brown got up
early at times.
Accordingly, we affirm the circuit court’s denial.

(3) Penalty Phase
In her final claim of ineffective assistance of trial counsel,
Brown argues that trial counsel was ineffective during the
penalty phase in two respects, namely (a) for failing to
conduct a reasonably competent investigation and present
adequate mitigation and (b) for failing to consult and
present additional mental health experts.

(A) Mitigation
[21]

Brown first argues that trial counsel rendered deficient
performance in investigating and presenting mitigation.
After providing the necessary background about Brown’s
postconviction motion and the circuit court’s rulings, we
explain the procedural bar that applies to Brown’s appeal
of the denial of this claim and why, even without the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

App.020

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

procedural bar, we would nevertheless affirm.
[22]

Following the postconviction evidentiary hearing, the
circuit court ruled that portions of Brown’s claim were
facially insufficient. Specifically, the circuit court found
that the “blanket and non-detailed allegation” that trial
counsel “failed to speak with any of [Brown’s] cousins,
friends, ex-boyfriends, or ex-husbands” was “facially
insufficient” and denied it “with prejudice,” “to the extent
[it] can be considered a subclaim.” In so ruling, the circuit
court explained that Brown’s motion “fails to identify
with particularity the identity of these purported
witnesses, the content of their testimony, if [Brown] told
counsel about these people, if they were available to
testify, and most importantly, how their testimony would
have made a difference in [Brown’s] sentence.”
Similarly, Brown’s motion alleged that trial counsel failed
to fully explain Brown’s background “including but not
limited to: her extensive history of drug abuse, her
extensive history of physical and sexual abuse, her mental
illness, her family’s background, and how that
background affected Ms. Brown and her conduct during
the commission of the crime.” However, without
attributing any of the information to a specific source,
Brown’s motion devoted approximately four-and-a-half
pages to discussing the “wealth of mitigation” that she
claimed would have been available had trial counsel
“properly prepared and investigated.” In finding that this
portion of Brown’s claim was also “facially insufficient,”
the circuit court ruled that Brown “goes on for pages,
giving details of [her] life, but she does not link this
information to any particular witness or indicate through
which witnesses penalty-phase counsel should have
presented this information” and further “does not explain
specifically how any of this information would have made
a difference in [her] trial.” The circuit court also gave two
other reasons for denying this portion of Brown’s claim.
First, the circuit court alternatively ruled that even if this
portion of Brown’s claim were facially sufficient, “the
information alleged is cumulative to the lengthy
mitigation already presented by penalty-phase counsel.”
Second, the circuit court ruled that Brown “failed to
demonstrate how penalty-phase counsel did not ‘link’
[Brown’s] background to its effect on [Brown] during the
crime,” crediting trial counsel’s evidentiary hearing
testimony that she “thought” that Brown’s mental health
expert, Dr. Elaine Bailey, “covered [Brown’s] life history
from the beginning to the time of the crime, and linked
[Brown’s] life history to the crime itself,” and finding that
the record “supports this *266 conclusion.”9
In addition to the above rulings, the circuit court ruled
that Brown failed to substantiate the remaining portions of

her claim that related to named individuals. Specifically,
Brown’s motion named three family members she
claimed trial counsel was ineffective for failing to
adequately investigate and prepare for the penalty phase:
(1) her mother Lily Ramos; (2) her brother Willie
Coleman, Jr.; and (3) her paternal uncle Gerald Coleman.
The circuit court denied relief, finding that Brown “failed
to present any evidence to support her allegations that the
witnesses were ill-prepared.” In so ruling, the circuit court
cited trial counsel’s explanation at the evidentiary hearing
regarding why Brown’s mother was not called as a
penalty-phase witness, which included that Brown’s
mother “actually told [trial counsel] she believed [Brown]
should get the death penalty.” With respect to Willie
Coleman, Jr., and Gerald Coleman, the circuit court found
that although the documentary evidence showed defense
counsel’s trip to visit Brown’s family occurred weeks
before the trial, Brown “failed to present any testimonial
evidence to show that penalty-phase counsel did not
adequately prepare the witnesses who testified.”
Brown’s motion also identified three other individuals she
claimed trial counsel was ineffective for failing to
discover and present as penalty-phase witnesses: (1) her
cousin Trina Bell; (2) one of her ex-husbands and the
father of her three children, Gregory Miller, Sr.; and (3)
her friend Jennifer Malone. Brown’s motion alleged that
Bell “could have provided evidence of [her] history of
sexual abuse, drug use, and physical abuse by her
boyfriends,” that Miller “had firsthand knowledge of [her]
daily cocaine and heroin use, physical abuse from her
father, and episodes of domestic violence,” and that
Malone had sent a letter to the trial judge and had offered
to be of assistance but that trial counsel failed to follow
up. None of these individuals testified at the
postconviction evidentiary hearing. Just as it ruled
regarding the other named individuals, the circuit court
ruled that Brown failed to substantiate these claims (in
addition to providing alternate bases for denying relief
with respect to Miller and Malone).
More specifically, regarding Bell, the circuit court denied
relief because, despite being granted an evidentiary
hearing on this claim, Brown “failed to present Ms. Bell’s
testimony or any evidence to substantiate her allegations
regarding Trina Bell.”
Regarding both Miller and Malone, the circuit court ruled
that their failures to testify at the evidentiary hearing
precluded it from assessing their credibility and
determining whether their testimony would have made a
difference in Brown’s sentence. Alternatively, the circuit
court ruled that even if they had testified consistently with
what Brown’s postconviction expert, Dr. Faye Sultan,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

App.021

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

testified at the evidentiary hearing that they had told her,
the information was cumulative to that presented during
the penalty phase.10
*267 Brown now appeals the circuit court’s denial,
arguing that “the evidence presented at the evidentiary
hearing was far from cumulative.” As explained above,
the circuit court found that the entirety of Brown’s claim
was either facially insufficient or unsubstantiated, and
Brown fails to challenge those rulings on appeal. Instead,
she challenges only the circuit court’s alternative ruling
that even if her claim were facially sufficient, the
mitigation alleged in her postconviction motion was
cumulative to the mitigation already presented at the
penalty phase. In failing to challenge the circuit court’s
primary bases for denying relief, Brown has waived the
argument that they are in error. See Shelly v. State, No.
SC16-1195, 2019 WL 102481, at *1 (Fla. Jan. 4, 2019)
(“[A]n argument not raised in an initial brief is waived.”)
(quoting Tillery v. Fla. Dep’t of Juvenile Justice, 104 So.
3d 1253, 1255 (Fla. 1st DCA 2013)).
But, even if she had not, we would still affirm. The circuit
court correctly ruled that the portions of Brown’s motion
that failed to identify the witnesses trial counsel was
supposedly deficient for failing to discover, the specific
mitigation each would have provided, or how its absence
prejudiced her are facially insufficient. See State v. Lucas,
183 So. 3d 1027, 1032 (Fla. 2016) (“There is no question
that when the ineffective assistance claim alleges trial
counsel should have presented a fact witness, such
witness must be named and his or her availability attested
to.”); see also Booker v. State, 969 So. 2d 186, 196 (Fla.
2007) (“To establish a claim of ineffective assistance of
trial counsel for failing to call certain witnesses, a
defendant must allege in the motion ‘what testimony
defense counsel could have elicited from [the] witnesses
and how defense counsel’s failure to call, interview, or
present the witnesses who would have so testified
prejudiced the case.’ ” (quoting Nelson v. State, 875 So.
2d 579, 583 (Fla. 2004))).11 Regarding the remaining
portions of Brown’s claim related to the six named
individuals, because the record supports the circuit court’s
finding that Brown failed to substantiate those portions of
her claim, we would affirm.
Moreover, although as explained above, the procedural
bar and affirmance on the alternate bases of facial
insufficiency and failure to substantiate make it
unnecessary to address the circuit court’s alternative
ruling regarding the cumulative nature of *268 the
mitigation, we agree with the circuit court’s conclusion.12
Accordingly, we affirm the circuit court’s denial of relief.

(B) Mental Health Experts
[23]

Brown next argues that the circuit court erred in
denying her claim that trial counsel was ineffective during
the penalty phase for failing to consult and present
additional mental health experts to explain the combined
effects of polysubstance abuse, childhood trauma, and
mental illness on her brain. The circuit court ruled that
trial counsel was not deficient for failing to hire additional
mental health experts based on trial counsel’s testimony at
the evidentiary hearing that Brown’s penalty-phase
mental health expert, Dr. Bailey, did not recommend
doing so. Brown argues that “regardless of the court’s
finding that trial counsel was not deficient for relying
upon Dr. Bailey, trial counsel was ... deficient for failing
to recognize the[ ] red flags” of Brown’s longtime
struggles with drug addiction and her lifelong traumas.
She contends that these red flags would have led
reasonable trial counsel to investigate further and to retain
and present the testimony of an addiction specialist and a
neuropsychologist. We affirm because competent,
substantial evidence supports the circuit court’s finding
that trial counsel was not deficient.
This Court has long held that “defense counsel is entitled
to rely on the evaluations conducted by qualified mental
health experts, even if, in retrospect, those evaluations
may not have been as complete as others may desire.”
Darling v. State, 966 So. 2d 366, 377 (Fla. 2007) (finding
no deficiency where “[t]he testimony presented during the
postconviction evidentiary hearing may generally be
described as only a more detailed presentation of the
mitigation that was actually presented during the penalty
phase”).
Although Brown argues her case is similar to Ellerbee v.
State, 232 So. 3d 909 (Fla. 2017), where this Court held
that trial counsel was ineffective in the presentation of
mental health mitigation, it is not. In Ellerbee, the
penalty-phase jury heard “conflicting evidence and
unsubstantiated *269 claims that [the defendant] suffered
from various mental disorders,” id. at 928, and the
penalty-phase mental health expert “did not provide a
detailed explanation of the effect that abuse and drug use
can have on cognitive development.” Id. at 931. Instead,
pursuant to trial counsel’s direction, Ellerbee’s
penalty-phase mental health expert “focus[ed] on fetal
alcohol syndrome while simultaneously presenting
testimony directly contradicting its existence.” Id. Unlike
Ellerbee, where the “contradictory evidence would have
confused the jury at best and, at worst, raised suspicions

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21

App.022

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

of defense counsel’s honesty,” id. at 932, the theme of
Brown’s penalty phase was that her lifelong traumatic
experiences (including childhood physical and sexual
abuse) and her longtime struggles with addiction
(including multiple relapses and use of crack on the day
of the crime) affected her up through the time of the
crime.
Indeed, as explained above, the circuit court denied
Brown’s separate claim that trial counsel was ineffective
with respect to the mitigation investigation and
presentation, in part, because Brown “failed to
demonstrate how penalty-phase counsel did not ‘link’
[Brown’s] background to its effect on [her] during the
crime.” In so ruling, the circuit court found that the record
supports trial counsel’s testimony at the evidentiary
hearing that “she thought [the defense expert] Dr. Bailey
covered [Brown’s] life history from the beginning to the
time of the crime, and linked [Brown’s] life history to the
crime itself.” Competent, substantial evidence supports
the circuit court’s findings. For example, Dr. Bailey
testified during the penalty phase to the “stressors” that
would have affected Brown at the time of the crime,
including “repeated traumas, addictions, abusive
relationships, exposure to violence, a lot of sexual
victimization, both in childhood being prostituted and
adulthood[,] [and a] lot of community negative influence
and crime, and [she explained that] all of those things
c[a]me together.” Dr. Bailey also testified that Brown’s
childhood experiences would have affected her into
adulthood, that trauma affects brain development, and that
“[t]he bottom line is trauma is cumulative.” Moreover, as
demonstrated in this Court’s decision in Brown’s direct
appeal, trial counsel’s penalty-phase presentation resulted
in the trial court’s finding of numerous mitigating
circumstances related to Brown’s traumatic experiences
and struggles with addiction, including the long-term
effects of chronic cocaine use on her brain and that she
was using cocaine on the day of the crime. See Brown,
143 So. 3d at 401.
That new experts retained for postconviction would
render more favorable opinions based on essentially the
same information presented during the penalty phase does
not render trial counsel deficient for relying on the
opinions of Dr. Bailey. See Darling, 966 So. 2d at 377.
Accordingly, we affirm the circuit court’s denial.

(4) Cumulative Prejudice
[24]

Brown next argues that the circuit court erred in

denying her cumulative error claim because,
cumulatively, trial counsel’s deficient performance in the
guilt and penalty phases deprived her of a fundamentally
fair trial. As explained above, we conclude that the
available impeachment evidence of Heather Lee’s prior
convictions went unused by trial counsel, and we agree
with Brown that trial counsel was deficient for failing to
present Terrance Woods and Darren Lee to impeach
Heather Lee’s trial testimony and implicate her as the
ringleader. Assuming counsel was deficient for failing to
impeach Lee with her prior convictions and taking into
account *270 counsel’s deficiencies in failing to call
Woods and Darren Lee as witnesses, we must “consider
the impact of these errors cumulatively to determine
whether [the defendant] has established prejudice.”
Sparre, 289 So. 3d at 847 (quoting Parker, 89 So. 3d at
867).
They do not. All of trial counsel’s deficiencies center
around the failure to discredit Lee and her version of
events. The likelihood that the jury placed high value on
Lee’s testimony is suspect, at best, because the jury knew
that, despite describing herself as a victim and minimizing
her role in the victim’s murder, Lee had pleaded guilty to
the victim’s second-degree murder in exchange for
testifying against Brown. Nevertheless, it is true that but
for trial counsel’s deficiencies, the jury could have relied
on Heather Lee’s prior convictions and testimony from
Terrance Woods and Darren Lee to further discount Lee’s
testimony and conclude that her role in the crime was
more substantial than she admitted during the guilt phase.
However, there is no reasonable probability that but for
trial counsel’s deficiencies, individually or cumulatively,
the outcome would have been different.
Regarding the guilt phase, the evidence of Brown’s
involvement and culpability in the victim’s murder under
both theories of premeditated and felony murder is
overwhelming. For example, the victim named “Tina
[Brown], Heather [Lee], and Britnee [Miller]” as her
attackers and told a paramedic that “they poured gas on
her and set her on fire.” Although the paramedic
acknowledged on cross-examination by trial counsel that
the victim “didn’t actually breakdown what each one of
these people did to her,” the victim’s statement that
“they” did it, at a minimum, indicates that in her
experience her attackers were acting in concert.
Moreover, M.A. testified that Brown was the primary
aggressor based on her observations at the trailer where
the attack began. According to M.A., Brown attacked the
victim with a stun gun, held the victim’s hands behind her
back, forced the victim into the trunk, and screamed at the
victim about calling Crime Stoppers. Consistent with
M.A.’s testimony, Brown’s DNA was on the stun gun,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

22

App.023

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

Brown’s trailer and vehicle were used in the crime, and
Brown drove the victim to the area where she was lit on
fire. Additionally, both Brown and her daughter, Miller,
made incriminating statements: Miller told M.A. that they
were going to kill the victim right before the attack began,
and, within days of the crime, while the victim was still
alive in the hospital, Brown told Pamela Valley that she
wanted the victim “finish[ed] off.” Accordingly, there is
no reasonable probability of a different verdict.
Regarding the penalty phase, impeaching Lee with her
prior convictions and calling Terrance Woods and Darren
Lee to impeach Lee’s testimony and implicate her as the
ringleader during the guilt phase would not eliminate the
overwhelming evidence of Brown’s involvement and
culpability in the victim’s murder from the sources other
than Lee, such as those discussed above. Moreover,
during the penalty phase, the jury heard even more
evidence negating that Brown’s role in the crime was
minor, including testimony from Brown’s own mental
health expert that, despite describing Heather Lee as “the
escalator,” Brown “was very frank about her role” in the
victim’s murder, and “[did] not deny being an aggressor,
being involved, ... [or] what she did.” Nor would
counsel’s deficiencies with respect to Lee change the
application of the weighty evidence in aggravation to
Brown. Accordingly, there is no reasonable probability of
a different sentence.
*271 Because Brown has failed to show that trial
counsel’s deficiencies, individually or cumulatively,
establish the prejudice required by Strickland, we affirm
the circuit court’s denials of relief with respect to each of
the individual claims at issue and with respect to Brown’s
cumulative error claim.

allegations do involve newly discovered evidence, it is
not of such a nature that it would probably produce an
acquittal on retrial. Accordingly, we affirm the circuit
court’s denial of relief.

(1) The email from Heather Lee’s attorney is
inadmissible.
Brown argues that the circuit court erred in ruling
inadmissible an email from Heather Lee’s trial attorney to
Lee’s mitigation specialist. We disagree.
Below, Lee’s trial attorney joined a motion filed by the
State to exclude the email under section 90.502(2),
Florida Statutes (2019). Section 90.502(2) provides that
“[a] client has a privilege to refuse to disclose, and to
prevent any other person from disclosing, the contents of
confidential communications when such other person
learned of the communications because they were made in
the rendition of legal services to the client.” This privilege
may be asserted by a lawyer on behalf of the client. §
90.502(3)(e).
[25]

The circuit court found that section 90.502(2) applies to
require exclusion of the email, further finding that the
attorney-client privilege had not been waived and noting
that Brown had presented no evidence that Lee sought or
obtained her attorney’s services to enable her to commit a
crime or fraud so as to establish an exception to this rule
under section 90.502(4)(a). Indeed, Brown has not
identified any such evidence or identified any other
authority that would nevertheless allow the email to be
admitted. Consequently, she has failed to show error in
the circuit court’s ruling.
[26]

B. Newly Discovered Evidence
Brown next argues that the circuit court erred in denying
her claim of newly discovered evidence related to Heather
Lee’s credibility as a witness and Lee’s role in the
murder. Specifically, Brown points to an email from
Lee’s trial attorney, which was disclosed to Brown’s
counsel without authorization; posttrial confessions by
Lee to fellow inmates; and evidence of Lee’s pattern of
violence against individuals, like the victim, who engaged
in affairs with her significant others. Brown argues that
she is entitled to a new trial because this evidence would
probably result in her acquittal or a reduced sentence.
However, as explained below, portions of Brown’s claim
involve evidence that is inadmissible and allegations that
are procedurally barred. Although portions of Brown’s

Although Brown asks us to disregard section 90.502(2)
in the interests of due process and justice, her general
arguments to this effect—unsupported by any case law
addressing similar or analogous circumstances—are
insufficient to overcome this well-established evidentiary
rule, adopted in the broader interests of justice and in
furtherance of the crucial relationship of client and
counsel. See Horning-Keating v. State, 777 So. 2d 438,
445 (Fla. 5th DCA 2001) (“[One of t]he oldest and most
revered principles of Anglo[-]American law is the
attorney-client privilege .... The purpose of the privilege is
to encourage broad communication between a lawyer and
the client and thus promote the broader public interest in
the proper administration of justice.” (citing Upjohn Co.
v. United States, 449 U.S. 383, 101 S.Ct. 677, 66 L.Ed.2d
584 (1981)); see also R.L.R. v. State, 116 So. 3d 570, 573
n.3 (Fla. 3d DCA 2013) (noting that the attorney-client

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

23

App.024

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

privilege “is an interest traditionally *272 deemed worthy
of maximum legal protection”). Even if Brown could
overcome this evidentiary rule, the email is inadmissible
for an additional reason, which was raised by the state
below and has not been addressed by Brown on appeal:
the email is inadmissible hearsay. See §§ 90.801-.802,
Fla. Stat. (2019).13
Accordingly, we affirm the circuit court’s order excluding
the email.

(2) The circuit court properly refused to consider
Tajiri Jabali’s testimony as newly discovered evidence.

The evidence properly before the Court as alleged newly
discovered evidence is the following: (1) Jessica
Swindle’s testimony that, while in prison, Heather Lee
told her, without remorse, that she personally set the
victim on fire because the victim was sleeping with her
“baby’s dad” and that Brown and Miller “didn’t do
anything”; (2) Shayla Edmonson’s testimony that, while
in prison, Heather Lee told her that she “killed someone
and she would do it again because the people that were
involved in the case ... were sleeping with her husband ...
and she set the girl on fire”; and (3) Nicole Henderson’s
testimony that Heather Lee would fight the women her
prison girlfriend cheated on her with. When subjected to
cross-examination, Swindle and Edmonson agreed that it
seemed like Lee was trying to be tough.
[29] [30] [31]

[27]

Brown relies on testimony provided by Tajiri Jabali at
the postconviction evidentiary hearing as newly
discovered evidence of (1) Heather Lee’s motive for and
role in the victim’s murder and (2) Heather Lee’s pattern
of violent conduct against those with whom Lee’s
significant others “cheat.” However, the circuit court
refused to consider Jabali’s testimony as newly
discovered evidence on the ground that “there is no claim
regarding Tajiri Jabali alleged in [Brown’s] motion.”
Because Brown waited until her reply brief to challenge
the circuit court’s ruling on this issue, Brown has waived
any challenge to it. See Hoskins v. State, 75 So. 3d 250,
257 (Fla. 2011).
[28]

Moreover, even without the waiver, we would still
affirm on the record before us. By its plain language, rule
3.851(e)(1) provides that “[e]ach claim or subclaim shall
be separately pled” in the initial postconviction motion.
(Emphasis added). A defendant cannot plead a claim of
newly discovered evidence without alleging that the
specific evidence at issue could not have been discovered
at trial with due diligence and that the specific evidence at
issue is of such a nature that it would probably produce an
acquittal on retrial. See Jones v. State, 709 So. 2d 512,
521 (Fla. 1998). Brown’s motion did not plead a claim of
newly discovered evidence regarding Jabali, and there
was no argument raised below as to why the circuit court
should have nevertheless considered Jabali’s testimony
newly discovered evidence. Accordingly, we would not
reverse the circuit court’s ruling on this issue, even if it
were properly before us.

As we explained in Jones, 709 So. 2d at 521, a
claim of newly discovered evidence is governed by the
following two-part test:
First, in order to be considered newly discovered, the
evidence “must have been unknown by the trial court,
by the party, or by counsel at the time of trial, and it
must appear that defendant or his *273 counsel could
not have known [of it] by the use of diligence.”
Torres-Arboleda v. Dugger, 636 So. 2d 1321, 1324-25
(Fla. 1994).
Second, the newly discovered evidence must be of such
nature that it would probably produce an acquittal on
retrial. Jones [v. State], 591 So. 2d [911] at 911, 915
[(Fla. 1991)]. To reach this conclusion the trial court is
required to “consider all newly discovered evidence
which would be admissible” at trial and then evaluate
the “weight of both the newly discovered evidence and
the evidence which was introduced at the trial.” Id. at
916.
This test applies not only to the guilt phase of a
first-degree murder trial, but also to the penalty phase;
when the penalty phase is at issue, the second prong
requires a determination of whether the newly discovered
evidence “would probably yield a less severe sentence”
on resentencing. Swafford v. State, 125 So. 3d 760, 767
(Fla. 2013).

First Prong of Jones
[32]

(3) The evidence properly before the Court does not
warrant relief.

Brown argues that the circuit court erred in denying
relief based on its conclusion that the testimony provided
by Swindle, Edmonson, and Henderson fails the first
prong of the Jones test. We agree with Brown with
respect to the testimony of Swindle and Edmonson. Lee’s

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

24

App.025

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

confessions to these women could not have been
discovered with due diligence at the time of trial because
they did not yet exist.14 Although Brown and her counsel
knew that Lee had made a similar statement to another
person, Wendy Moye, and if Lee’s confessions are true,
Brown would have known that fact, the defense’s
knowledge of the substance of these statements does not
disqualify them from being considered newly discovered
evidence. See Archer v. State, 934 So. 2d 1187, 1194 (Fla.
2006) (explaining that a defendant’s knowledge at the
time of trial of the facts that would be presented by a
witness as newly discovered evidence does not invalidate
a claim of newly discovered evidence, as the “appropriate
question” is whether the defendant “was or should have
been aware of the existence of” the evidence offered to
prove those facts). They are additional pieces of evidence
that have been discovered since trial and relate to the
circumstances that existed at the time of trial and, as such,
constitute newly discovered evidence. See id. Also, they
add information not contained in Moye’s testimony: that
the reason Lee participated was that the victim was
sleeping with Lee’s husband, that Brown and Miller
“didn’t do anything,” that Lee was not remorseful and in
fact said she would do it again, and that Brown and Miller
were sleeping with her husband. Therefore, because Lee’s
confessions to Swindle and Edmonson satisfy the first
prong of Jones, the circuit court should have analyzed
them under the second prong.
[33]

The testimony of Nicole Henderson, however, is of a
different nature and does not satisfy the first prong of
Jones. This testimony pertains to distinct criminal acts
committed by Lee after trial that do not relate to the
circumstances existing at the time of trial and, contrary to
Brown’s argument, would not satisfy the reverse Williams
rule. We have previously held that unrelated posttrial
events do not qualify as newly discovered evidence. See
*274 Kearse v. State, 969 So. 2d 976, 987 (Fla. 2007)
(affirming the denial of a newly discovered evidence
claim where Kearse alleged that an expert’s conduct in a
subsequent, unrelated case demonstrated that expert’s
testimony in the Kearse’s case was biased); Porter v.
State, 653 So. 2d 374, 379-80 (Fla. 1995) (holding that
Porter’s good conduct in prison was not newly discovered
evidence), receded from on other grounds by Wyatt v.
State, 71 So. 3d 86, 99-100, 100 n.13 (Fla. 2011).
Notably, contrary to the allegations of Brown’s motion,
Henderson’s testimony does not include statements made
by Lee comparing a woman she attacked or threatened in
prison to the victim or admitting a larger role in the
victim’s murder than Lee claimed at trial. Therefore,
Henderson’s testimony about Lee’s conduct in prison is
simply evidence of unrelated posttrial events and does not
satisfy the first prong of Jones.

Accordingly, only the testimony of Swindle and
Edmonson is the newly discovered evidence that must be
considered under the second prong of Jones.

Second Prong of Jones
[34] [35] [36]

An assessment of the second prong of Jones
includes consideration of “whether the evidence goes to
the merits of the case or whether it constitutes
impeachment evidence,” “whether the evidence is
cumulative to other evidence in the case,” and “the
materiality and relevance of the evidence and any
inconsistencies in the newly discovered evidence.” Jones,
709 So. 2d at 521. When evaluating these factors to
determine whether the newly discovered evidence would
probably result in an acquittal or a lesser sentence on
retrial, see id.; Swafford, 125 So. 3d at 767, this Court
considers it in conjunction with not only the evidence
already presented at trial but also any new evidence the
movant has developed in postconviction proceedings that
could be introduced at a new trial, including evidence that
has not been considered on its own because it was the
subject of a procedurally barred claim. See Hildwin v.
State, 141 So. 3d 1178, 1181, 1184 (Fla. 2014). In other
words, this Court examines the newly discovered
evidence at issue in light of a “total picture” of the case
that could be presented at a new trial. See id. at 1184.
[37]

Brown argues that the testimony of Swindle and
Edmonson constitutes valuable impeachment evidence
that would probably result in an acquittal of first-degree
murder or a life sentence for Brown. More specifically,
Brown contends that Lee’s statements to Swindle and
Edmonson would impeach Lee because they are
inconsistent with her trial testimony and reveal her motive
for the murder. We agree with Brown that Swindle’s and
Edmonson’s testimony of Lee’s statements regarding her
motive for, role in, and feelings about the murder is
materially inconsistent with Lee’s trial testimony.
Specifically, it is inconsistent with Lee’s portrayal of
herself as an innocent bystander who tried to warn
Zimmerman—her “good friend[ ]” whom she would
never harm—of the impending attack as it began and who
tried to run away herself but was nevertheless forced to go
to the scene of the brutal beating and murder, where she
encouraged her friend to run and contemplated escaping
herself but was too afraid to make an attempt. Because
Swindle’s and Edmonson’s testimony of Lee’s posttrial
statements is materially inconsistent with this account, it
would be admissible as impeachment evidence under
section 90.608(1). Cf. Izquierdo v. State, 890 So. 2d 1263,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

25

App.026

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

1265-67 (Fla. 5th DCA 2005) (affirming a trial court’s
decision to admit testimony as to previous statements of a
witness that the defendant had been violent toward her
and others where she testified at trial that she had a good
relationship with him, that he was “lovable and tender”
*275 and “nice,” that he had never been controlling, and
that she had never been afraid of him); see also Pearce v.
State, 880 So. 2d 561, 569 (Fla. 2004) (explaining that
impeachment material under section 90.608(1) does not
have to “directly contradict” the witness’s testimony as
long as it is “materially different” from it).
In addition, we agree with Brown that the testimony that
Brown and Miller were sleeping with Lee’s husband
would be admissible for impeachment purposes.
Specifically, it would be admissible under section
90.608(2) to impeach Lee concerning her motive to place
the blame on them. Cf. Green v. State, 691 So. 2d 49, 50
(Fla. 4th DCA 1997) (holding that the defendant in a
sexual battery case should have been allowed to elicit
testimony that the alleged victim, a witness in the case,
had asked the defendant’s wife if she could think of a way
to “get rid of” the defendant so that the victim could move
in with the wife); see also Gibson v. State, 661 So. 2d
288, 291 (Fla. 1995) (“Our evidence code liberally
permits the introduction of evidence to show the bias or
motive of a witness [in testifying].”)15
At a retrial, the testimony of Edmonson and Swindle
would combine with the impeachment evidence already
presented at trial through the cross-examination of Lee
and the testimony of Wendy Moye. Moye’s trial
testimony revealed statements Lee made in jail that are
substantively similar to the statements she later made to
Edmonson and Swindle regarding the actions she took in
furtherance of the murder. As noted in our analysis of the
first prong of the Jones test, however, the new evidence
would also go further than Moye’s testimony. This new
evidence would challenge Lee’s credibility as to her
relationship with the victim and role in the events by
providing her stated reason for the dominant role she
denied at trial but subsequently claimed; indicate not only
that she was dominant but that, in her words, Brown and
Miller “didn’t do anything”; show her lack of remorse for
her participation in the brutal beating, burning, and killing
of Zimmerman, contrary to her trial claim that she would
not “harm a hair on [Zimmerman’s] head”; and suggest an
additional reason that she may want to blame Brown and
Miller.
The efficacy of the testimony of Swindle and Edmonson
would be enhanced by the testimony that could be
presented from Darren Lee and Terrance Woods that Lee
has made inconsistent statements about her involvement

in the murder and indeed stated a couple of days before
the murder that she intended to kill the victim for having
an affair with her husband—evidence Brown now relies
on as substantive proof of Lee’s role and motive.
Furthermore, Brown would be able to present
impeachment evidence similar to that of Swindle and
Edmonson from Jabali, including a confession by Lee that
she was the “ringleader”; comments by Lee, which Jabali
read in Lee’s journal, that she forced Brown and Miller,
who were scared, “[j]ust to do simple things,” and bribed
Brown with drugs, along with a statement that the victim
“got what she deserved”; and a threat by Lee to do to
other inmates what she had done to her “baby daddy’s
mistress” if they became involved with Jabali, who was in
a relationship with Lee at the time.
We recognize that, although the new evidence presented
through Swindle and Edmonson would be somewhat
cumulative to the impeachment evidence presented *276
through Moye, cf. Williamson v. Dugger, 651 So. 2d 84,
89 (Fla. 1994), it would likely have some effect, given the
importance of the issue on which Lee would be
impeached and the number and diversity of additional
witnesses—not only those who met Lee in prison but also
those who knew her before the crime—who could come
forward on the matter at a retrial. Thus, at a new trial
where Swindle and Edmonson’s testimony was presented,
Lee would have even less credibility than she had at
Brown’s original trial, and it would be more difficult for
the State to rely on the position it took at trial that Brown
was the one with motive and the one who poured gasoline
on the victim and lit her on fire, while Lee’s involvement
was comparatively minimal.
Nevertheless, the newly discovered evidence must be
considered in light of the other evidence presented at trial
and available for any retrial bearing on Brown’s
involvement and culpability in the victim’s murder.
When the victim first emerged from scene of the burning,
she named two people as the perpetrators—Tina Brown
and “Heather”—and said that they dragged her out of the
house, “tased” her, beat her in the head with a crowbar,
and then set her on fire. She repeated those two names
several times and told where those individuals lived.
Similarly, the victim told a paramedic that “Tina, Heather,
and Britnee” poured gasoline on her and set her on fire.
The victim did not distinguish among the perpetrators in
terms of who did what, which suggests that in her
experience, they were all acting in concert.
M.A., on the other hand, testified that from her
observations at the trailer, Brown was the primary
aggressor, although Lee also participated by putting a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

26

App.027

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

sock in the victim’s mouth. Brown is the one whose
trailer and vehicle were used in the crime, and she is the
one M.A. heard screaming at the victim about calling
Crime Stoppers. She is the one who, according to M.A.,
operated the stun gun, held the victim’s hands behind her
back, and forced the victim into the trunk. Consistent with
M.A.’s testimony, Brown’s DNA was on the stun gun.
In addition to M.A.’s testimony and the forensic evidence,
there were incriminating statements by Brown and her
daughter. Just before the crime started, Brown’s daughter,
Miller, told M.A. that they were going to kill the victim.
And Pamela Valley testified, albeit not without
impeachment, that, days after the crime was complete,
Brown wanted the victim “finish[ed] off.” Further, in any
retrial, Brown’s new jury would hear compelling evidence
against her that her original jury did not: Brown admitted
at the Spencer hearing that she “was one of the ones who
participated in taking [Zimmerman’s] life” and
commented that “[Zimmerman] didn’t deserve it at all.”
In consideration of the foregoing evidence that is
independent of Lee’s testimony, when considered
cumulatively with all of the evidence that would be
admissible in a new trial, the newly discovered evidence
from Edmonson and Swindle fails the second Jones prong
as to the guilt phase, as the evidence is not of such a
nature that it would probably produce an acquittal on
retrial. In fact, the impeachment of Lee would do little, if
anything, to disturb the evidence of felony murder. While
Swindle did testify that Lee said that the other two
codefendants “didn’t do anything,” significant evidence
belies that claim.

a, if not the, primary aggressor, at least at the trailer.
Considering the attention given to the facts that Brown
was the one who lit the victim on fire and was the main
aggressor—both as points supporting the death penalty
and as an explanation for the different treatment of
Lee—we believe the additional impeachment of Lee
might result in a lesser sentence at a retrial. However, it
cannot be said that it would probably result in a lesser
sentence. In delivering that additional impeachment
testimony, Swindle and Edmonson would also testify that
Lee seemed to be trying to act tough, as would Jabali in
delivering her corroborating impeachment testimony
concerning Lee’s verbal statements to her. At the same
time, Lee’s posttrial claim that Brown and Miller “didn’t
do anything” would be obliterated by the forensic
evidence, the victim’s dying declaration, and the
eyewitness testimony of M.A. concerning Brown’s role in
the events at her trailer. Although there would be a more
substantial question as to whether Brown actually lit the
fire and acted as the primary aggressor, especially once
the testimony of Darren Lee and Terrance Woods was
added, all the evidence that the murder itself was heinous,
atrocious, or cruel—a weighty aggravating factor—would
still stand, and the new evidence would not carry any
significant probability of showing Brown to have been a
minor participant. The subjective assessment of the jurors,
and perhaps the trial court, as to whether Brown should
receive a death sentence might change, but the possibility
that it would change does not meet the standard required
for a new trial, which is a showing that it would probably
change. See Swafford, 125 So. 3d at 767.
Accordingly, we affirm the circuit court’s denial of relief.

[38]

The newly discovered evidence fails the second Jones
prong as to the sentencing question as well. In reaching
this conclusion, we recognize that the testimony of
Swindle and Edmonson, along *277 with corroborating
evidence, would impeach Lee on a major point the State
relied on in support of the death penalty: that Brown was
the “main aggressor” and the one who lit the fire. Indeed,
the trial court relied on this point in its sentencing order,
concluding in its discussion of the HAC aggravator that,
“[o]f all [Brown’s] flagitious acts, ... the cruelest were her
actions in dousing Audreanna Zimmerman with gasoline
and setting her on fire.” The trial court also reiterated this
point in its discussion of whether Brown was a minor
participant in the crime, stating, “The evidence introduced
at trial proves [Brown] was the leader of the efforts to
murder Audreanna Zimmerman. It is clear [Brown]
poured gasoline on Zimmerman and set [her] on fire.”
Notably, Lee’s testimony was the only evidence that
unambiguously singled out Brown as the person who lit
the victim on fire, but not the only evidence that she was

C. Hurst
In the final issue raised on appeal, Brown argues that the
circuit court erred in summarily denying her claim that
she is entitled to relief from her death sentence under
Hurst v. Florida, 577 U.S. 92, 136 S. Ct. 616, 193
L.Ed.2d 504 (2016), and Hurst v. State, 202 So. 3d 40
(Fla. 2016). After the circuit court denied relief, we
“recede[d] from Hurst v. State except to the extent it
requires a jury unanimously to find the existence of a
statutory aggravating circumstance beyond a reasonable
doubt.” State v. Poole, 297 So.3d 487, 507 (Fla. 2020),
clarified, 45 Fla. L. Weekly S121 (Fla. Apr. 2, 2020).
Although the required jury finding does not exist in
Brown’s case, we agree with the circuit court that the
error is harmless beyond a reasonable doubt.16

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

27

App.028

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

*278 [39]At trial, the State argued that Brown was guilty of
first-degree murder under both premeditated and felony
murder theories and presented uncontroverted evidence
that the capital felony was committed while Brown was
engaged, or was an accomplice, in the commission of a
kidnapping. Any jury that found, based on the State’s
presentation, that Brown was guilty of first-degree murder
could not have logically concluded that Brown was not
also guilty of kidnapping, whether as the primary
aggressor or an accomplice. Accordingly, we hold that,
under the circumstances of this case, there is no
reasonable doubt that a “rational jury,” properly
instructed, would have found beyond a reasonable doubt
the existence of the statutory aggravating circumstance
that the capital murder was committed while Brown was
engaged in the commission of a kidnapping. Galindez v.
State, 955 So. 2d 517, 522 (Fla. 2007) (quoting Neder v.
United States, 527 U.S. 1, 19, 119 S.Ct. 1827, 144
L.Ed.2d 35 (1999)); see also State v. DiGuilio, 491 So. 2d
1129, 1138 (Fla. 1986). Because the existence of a single
statutory aggravating circumstance would render Brown
eligible for imposition of the death penalty, see Poole,
297 So.3d at 501-03, it is unnecessary to address any of
the other statutory aggravators found by the trial court to
conclude that the sentencing error in Brown’s case is
harmless. Accordingly, we affirm the circuit court’s
denial.

III. HABEAS PETITION
In her habeas petition, Brown argues that appellate
counsel was ineffective on direct appeal for failing to
raise claims of fundamental error based on several
statements made by the prosecutor during the State’s
rebuttal closing argument at trial that Brown now
contends amount to prosecutorial misconduct. Because
we disagree with Brown that these statements individually
or cumulatively amount to fundamental error, we deny
her habeas petition.
[40]

[41]

In general, claims of ineffective assistance of
appellate counsel are properly presented in a petition for
writ of habeas corpus, Baker v. State, 214 So. 3d 530, 536
(Fla. 2017); Wickham v. State, 124 So. 3d 841, 863 (Fla.
2013), and this Court has explained the applicable
standard of review as follows:
“The standard of review for ineffective appellate
counsel claims mirrors the Strickland standard for
ineffective assistance of trial counsel.” [Wickham, 124
So. 3d at 863]. Specifically, to be entitled to habeas
relief on the basis of ineffective assistance of appellate

counsel, the defendant must establish
[first, that] the alleged omissions are of such
magnitude as to constitute a serious error or
substantial deficiency falling measurably outside the
range of professionally acceptable performance and,
second, [that] the deficiency in performance
compromised the appellate process to such a degree
as to undermine confidence in the correctness of the
result.
Bradley v. State, 33 So. 3d 664, 684 (Fla. 2010)
(quoting Pope v. Wainwright, 496 So. 2d 798, 800 (Fla.
1986)).
England v. State, 151 So. 3d 1132, 1140 (Fla. 2014).
Further, appellate counsel is *279 not ineffective for
failing to raise meritless claims or issues on appeal that
were not properly raised in the trial court and are not
fundamental error. Valle v. Moore, 837 So. 2d 905,
907-08 (Fla. 2002).
An error is considered fundamental if it “reaches down
into the validity of the trial itself to the extent that a
verdict of guilty could not have been obtained without the
assistance of the alleged error.” Boyd v. State, 200 So. 3d
685, 708 (Fla. 2015) (plurality opinion) (quoting
Rodriguez v. State, 919 So. 2d 1252, 1282 (Fla. 2005));
see Doty v. State, 170 So. 3d 731, 743 (Fla. 2015)
(explaining that the standard for fundamental error with
respect to the sentence is “one that ‘reaches down into the
validity of the trial itself’ and that a sentence of death
‘could not have been obtained without the assistance of
the alleged error’ ” (quoting Snelgrove v. State, 107 So.
3d 242, 257 (Fla. 2012))); see also Chandler v. State, 702
So. 2d 186, 191 n.5 (Fla. 1997) (describing fundamental
error as error that is “so prejudicial as to vitiate the entire
trial”).
[42]

Brown’s habeas petition references two statements by
the prosecutor that were arguably improper. First, the
prosecutor likely crossed the line in referring to Brown,
once, as a “cold-blooded murderer.” See Morris v. State,
233 So. 3d 438, 447, 449 (Fla. 2018) (holding that the
prosecutor’s statements referring to the defendant as
“cold-blooded,” “stone cold,” and “ruthless” may have
crossed the line). However, this statement was a single
occurrence, and we have declined to find fundamental
error based on comparable statements. See id.; see also
Davis v. State, 928 So. 2d 1089, 1127 (Fla. 2005)
(holding prosecutor’s references to the defendant as “a
cagey little murderer” and a “[l]ittle robber, cagey little
thief” did not constitute fundamental error).
[43]

[44]

Second, and presenting a closer call as to whether the
statement is even improper, is the prosecutor’s rhetorical

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28

App.029

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

question asking how Doyle, who was the State’s witness,
would have learned information about the victim’s
murder apart from gaining it from Brown. On the one
hand, this argument could be viewed as improper because
the jury did not know Doyle had stated in a pretrial
deposition—at which the prosecutor was present—that
she had heard on the news that “there was a girl that was
lit on fire and that she was taken by helicopter and that
before she died she said the ... names [of her killers].” See
Craig v. State, 685 So. 2d 1224, 1229-30 (Fla. 1996)
(recognizing that prosecutors have a duty not to present
false or misleading arguments to the judge or jury);
Thompson v. State, 273 So. 3d 1069, 1077 (Fla. 1st DCA
2019) (“Improper prosecutorial ‘vouching’ for the
credibility of a witness occurs where a prosecutor
suggests that she has reasons to believe a witness that
were not presented to the jury, or, stated differently,
where the prosecutor implicitly refers to information
outside the record.” (quoting Jackson v. State, 89 So. 3d
1011, 1018 (Fla. 4th DCA 2012))). On the other hand, this
argument could be viewed as properly directed at the
specific information about the murder Doyle testified at
trial to having learned from Brown, including the names
of the individuals involved and details of the crime, such
as that the victim was beaten and attacked with a stun
gun. Regardless, the record establishes that Doyle’s
testimony contained details of the victim’s murder that
were not among the general information that Doyle
attributed to the news report during her deposition.
Specifically, Doyle testified in her pretrial deposition that
all she heard on the news was that a “girl” was lit on fire
and that before she died she said “the girls’ names,”
noting that the news report did not release the names. At
*280 trial, Doyle testified that Brown told her about
details of the victim’s murder, namely that Brown and her
daughter beat the victim with a tire iron, “tazed” the
victim, and caught the victim on fire, and that Miller
accidentally set herself on fire during the crime. Although
there is no indication in the record that Miller caught
herself on fire during the crime, the other details Doyle
testified to regarding the victim’s murder indicate that
Doyle learned of the details of the murder from Brown
and not the news. Accordingly, even if improper, the
prosecutor’s statement was not so prejudicial as to vitiate
the entire trial. See Chandler, 702 So. 2d at 191 n.5.
Moreover, even assuming that both of the prosecutor’s
statements were improper, when “viewed cumulatively in
light of the record in this case,” they do not “reach[ ] the
critical mass of fundamental error” that is so prejudicial
as to vitiate the entire trial. Brooks v. State, 762 So. 2d
879, 899 (Fla. 2000) (quoting Cochran v. State, 711 So.
2d 1159, 1163 (Fla. 4th DCA 1998)); Chandler, 702 So.
2d at 191 n.5.

[45] [46] [47] [48]

Accordingly, because appellate counsel was
not ineffective for failing to challenge on direct appeal
unpreserved issues that do not amount to fundamental
error, see Valle, 837 So. 2d at 908, we deny Brown’s
habeas petition.17

IV. CONCLUSION
For the foregoing reasons, we affirm the circuit court’s
order denying postconviction relief and deny Brown’s
habeas petition.
It is so ordered.

POLSTON, LAWSON, MUÑIZ, and COURIEL, JJ.,
concur.
CANADY, C.J., concurs in result with an opinion.
LABARGA, J., concurs in result.

CANADY, C.J., concurring in result.
I agree with the per curiam opinion except for the analysis
of the Hurst issue. Although I agree that the Hurst error
here is harmless, I also adhere to the view that “[t]he new
rule articulated in Hurst v. Florida—which simply
requires that the jury find an aggravator—is an
evolutionary refinement in the law that does not *281 cast
doubt on the veracity or integrity of penalty phase
proceedings resulting in death sentences that are now
final” and that the new rule therefore should not be given
retroactive effect. Mosley v. State, 209 So. 3d 1248, 1291
(Fla. 2016) (Canady, J., concurring in part and dissenting
in part).
Poole—which corrected this Court’s misinterpretation of
Hurst v. Florida—dismantled the foundation for the
majority’s analysis in Mosley. After Poole, Mosley is the
ghost of a precedent. The retroactivity issue presented by
this case therefore should be determined in light of Poole.
And Poole makes clear that Hurst v. Florida was an
evolutionary refinement in the law that should not be
applied retroactively.
All Citations

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

29

App.030

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229

304 So.3d 243, 45 Fla. L. Weekly S229
Footnotes
1

Brown was also indicted for kidnapping, but for reasons not explained in the record, the State entered a nolle prosequi as to the
kidnapping charge as trial began.

2

Spencer v. State, 615 So. 2d 688 (Fla. 1993).

3

In her direct appeal, Brown raised the following claims: (1) the trial court erred in finding the CCP aggravating circumstance; (2)
her death sentence was disproportionate; and (3) Florida’s death penalty statute violates the United States Supreme Court’s
decision in Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002). Brown, 143 So. 3d at 402-08. Although Brown
did not contest her guilt, this Court found the evidence sufficient to support her conviction. Id. at 407.

4

During this period, Brown filed three petitions in this Court: a petition seeking review of a nonfinal order denying Brown’s motion
to reconsider the order striking her initial postconviction motion (with leave to amend) for noncompliance with rule 3.851(e)(1),
which this Court denied without prejudice, Brown v. State, No. SC16-358, 2016 WL 3474843, at *1 (Fla. June 24, 2016); and two
petitions for writ of prohibition seeking to prohibit the trial judge from further participation in her case, both of which this Court
denied, Brown v. State, No. SC16-397, 2016 WL 3459727, at *1 (Fla. June 24, 2016), and Brown v. State, No. SC17-2166, 2017 WL
6493249, at *1 (Fla. Dec. 19, 2017).

5

Brown also argues that trial counsel was ineffective for failing to discover and use the testimony of another inmate, Nicole
Henderson, that, in Henderson’s observation, Brown was not an early riser. She argues that Henderson’s testimony would
impeach Doyle’s trial testimony that Brown confessed to her early one morning. As explained below, Brown raises other
ineffective assistance of counsel claims related to Henderson, which, like this claim, turn on whether trial counsel should have
discovered the information available from Henderson prior to trial. Therefore, we address all of Brown’s ineffective assistance of
counsel claims related to trial counsel’s failure to call Henderson as a witness below.

6

Prior to trial, Woods also wrote six letters to the State Attorney consistent with his pretrial deposition and evidentiary hearing
testimony.

7

Williams v. State, 110 So. 2d 654 (Fla. 1959); see also State v. Savino, 567 So. 2d 892, 894 (Fla. 1990).

8

This argument is not preserved because Brown raised it for the first time in her initial brief. See Thompson, 759 So. 2d at 667
n.12. Below, Brown claimed the same evidence showed Lee’s reputation for violence.

9

Indeed, it does. For example, Dr. Bailey testified during the penalty phase to the “stressors” that would have affected Brown at
the time of the crime, including “repeated traumas, addictions, abusive relationships, exposure to violence, a lot of sexual
victimization, both in childhood being prostituted and adulthood[,] [and a] lot of community negative influence and crime, and
[she explained that] all of those things c[a]me together.” Dr. Bailey also testified that Brown’s childhood experiences would have
affected her into adulthood, that trauma affects brain development, and that “[t]he bottom line is trauma is cumulative.”

10

In its alternative ruling about the cumulative nature of the mitigation, the circuit court identified one exception regarding
Malone. Specifically, the judge who presided over Brown’s trial received an email from Jennifer Malone on the morning of the
Spencer hearing that stated Brown “did A LOT for [Malone] when [she] had no one else” and that “the Tina [Malone] knew was a
wonderful friend and person that would do anything to help anyone.” Although the circuit court ruled that Dr. Sultan’s testimony
about her interview with Malone revealed “additional details regarding [Brown’s] influence in Ms. Malone’s life,” it found that
the information “would not have changed [Brown’s] sentence.” Moreover, the circuit court ruled that Brown provided no
evidence to support her claim that penalty phase counsel should have known of Malone’s existence in time to present her
testimony to the penalty phase jury, and that “[c]ounsel cannot be found deficient for failing to investigate a person she did not
know existed.”

11

We note that Brown’s noncompliance with rule 3.851 was a recurring theme below that delayed this case for years. Brown
amended her postconviction motion multiple times after the circuit court struck the prior version for failing to comply with rule
3.851. The order on appeal constitutes the denial of Brown’s third amended motion. Even still, the circuit court’s order notes the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

30

App.031

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229
“disorganized” nature of the motion and finds that “to the extent that this court may have failed to address any claims, this Court
considers those claims, subclaims, and/or arguments waived based on [Brown’s] failure to comply with the pleading
requirements of rule 3.851.” Brown does not appeal this ruling.
12

Brown’s focus in the penalty phase was on how her traumatic background affected her and shaped her actions on the night of
the murder. The background information presented at the penalty phase included Brown’s (1) suffering physical and sexual
abuse (namely being raped by her father and prostituted by her stepmother), parental and other familial abandonment, drug
addiction, and exposure to her father’s drug-related, violent criminal lifestyle as a child and (2) experiencing domestic abuse and
struggles with addiction as an adult, to the point that she lost custody of two of her children. Along with presenting this evidence,
Brown argued that Heather Lee may have been more culpable and yet was allowed to plead guilty to second-degree murder.
Indeed, of the twenty-seven nonstatutory mitigating circumstances found by the trial court, nineteen relate to Brown’s traumatic
experiences and struggles with addiction. See Brown, 143 So. 3d at 401 (nonstatutory mitigating circumstances 1-17, 19, and 27).
Similarly, Brown’s postconviction motion describes her deprived childhood; her struggles with drug addiction that began in
childhood, particularly to crack cocaine; and her traumatic experiences, including that her childhood home was filled with
violence and used in a drug operation, that she was neglected and emotionally, physically, and sexually abused (including being
raped by her father and prostituted for drugs and money by her stepmother with her father’s approval) as a child, and that she
was abused by ex-husbands and ex-boyfriends as an adult. Although Brown’s initial brief improperly references additional
mitigation that was not included in her postconviction motion and that was obtained from sources who were not identified in her
motion and who did not testify at the evidentiary hearing, even that mitigation falls within the scope of trial counsel’s penalty
phase presentation.

13

An appellate court may affirm a correct result reached by a lower court for any reason that is supported by the record, even if it
is not the reason the lower court articulated for its ruling. Robertson v. State, 829 So. 2d 901, 906 (Fla. 2002).

14

The circuit court ruled that none of this evidence was newly discovered precisely because it did not exist at the time of trial. This
ruling is rooted in language we used in Porter v. State, 653 So. 2d 374, 380 (Fla. 1995), from which we have since receded, Wyatt
v. State, 71 So. 3d 86, 100 (Fla. 2011).

15

To the extent Brown is suggesting that the testimony of Swindle and Edmonson could be admitted as substantive evidence of
Lee’s motive to kill the victim, she has not explained why the testimony would not constitute inadmissible hearsay if offered for
that purpose.

16

In Mosley v. State, 209 So. 3d 1248, 1283 (Fla. 2016), we held that Hurst v. Florida and Hurst v. State retroactively apply to
sentences of death that became final after the United States Supreme Court decided Ring v. Arizona, 536 U.S. 584, 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002). In a footnote in its answer brief, the State takes issue with Mosley, which applies to Brown because
her sentence of death became final after Ring. However, we decline to revisit precedent based on assertions in a footnote. Cf.
Simkins Indus., Inc. v. Lexington Ins. Co., 714 So. 2d 1092, 1093 (Fla. 3d DCA 1998) (explaining that referencing a matter in a
footnote “does not elevate the matter to a point on appeal”).

17

The other statements that Brown references in her habeas petition were not improper and therefore could not have supported a
claim of fundamental error. Specifically, first, the prosecutor’s statement that Brown “baited” the victim “into the lion’s den by
telling her things were okay” does not cross the line into an improper inflammatory argument on the facts of this case. Rather,
the prosecutor asked the jury to make a permissible inference based on the evidence that Brown “lured [the victim] into her
home under false pretenses.” Brown, 143 So. 3d at 407. Second, the prosecutor did not improperly belittle defense counsel by
disparaging his argument that Brown was not guilty of first-degree murder. Rather, the prosecutor permissibly explained why
defense counsel’s arguments seeking a conviction of second-degree murder were not supported by the evidence adduced at
trial. Third, the prosecutor did not improperly vouch for the credibility of State witnesses Valley and Doyle by asking what motive
Valley had to make up her testimony and what Doyle had to gain by testifying. Rather, the prosecutor’s arguments were proper
responses to defense counsel’s credibility attacks on these witnesses in light of the evidence presented at trial. Finally, the
prosecutor did not improperly demand justice for the victim or the victim’s family. Rather, the prosecutor’s reference to “justice”
is fairly read as a response to defense counsel’s explanation of the jury’s role, and it was made in the context of addressing the
verdict that is required when the State meets its burden to prove guilt beyond a reasonable doubt.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

31

App.032

Brown v. State, 304 So.3d 243 (2020)
45 Fla. L. Weekly S229
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

32

App.033

Exhibit 2

App.034

Brown State Brown v. Inch, Not Reported in So. Rptr. (2020)

Lower Tribunal No(s).: 172010CF001608XXXAXX

2020 WL 6609420
Only the Westlaw citation is currently available.
Supreme Court of Florida.

Opinion

Tina Lasonya BROWN
v.
STATE of Florida
Tina Lasonya BROWN,
Appellant/Petitioner
v.
Mark S. INCH, etc., Appellee/Respondent
CASE NO.: SC19-704
|
SC19-1419
|
NOVEMBER 12, 2020
End of Document

*1 Appellant/Petitioner’s Motion for Rehearing is hereby
denied.

CANADY, C.J., and POLSTON, LABARGA, LAWSON,
MUÑIZ, and COURIEL, JJ., concur.
GROSSHANS, J., did not participate.
All Citations
Not Reported in So. Rptr., 2020 WL 6609420

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

App.035

Exhibit 3

App.036

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

IN THE CIRCUIT COURT OF THE FIRST JUDICIAL CIRCUIT
IN AND FOR ESCAMBIA COUNTY, FLORIDA
STATE OF FLORIDA,
Case No.:
Division:

vs.

2010-CF-1608A
"N"

TINA LASONYA BROWN,
Defendant.

ORDER DENYING DEFENDANT'S THIRD AMENDED MOTION TO VACATE
JUDGMENTS OF CONVICTION AND SENTENCE

THIS CAUSE comes before the Court upon Defendant's "Third Amended Motion to

Vacate Judgments of Conviction and Sentence with Special Request for Leave to Amend," filed
March l, 2017. After due consideration of the instant motion, the State's answer to the motion,
evidence adduced at evidentiary hearing, written arguments submitted by Defendant and the

--

State, the record, and relevant legal authority, the Court finds that Defendant is not entitled to
-ri:i:,,.

r=-o
,...,.,,

relief.

c:,n,

PROCEDURAL HISTORY

Ro)>
I
:::0 u,

fTlc:,

~

,,

rnr

~~
1>:,:::~

~

;g if,~~
f

c.n

;,,)G

n ~ :!:
c:>nr-

Defendant filed her original postconviction motion on November 24, 20a5~0n 1) ~§~
;::o.... :::0
c:,~
'ff ~gU)
December 16, 2015, this motion was stricken with leave to amend for failure to~re ~he;!!~
s::

....

numbering requirements delineated in rule 3.85l(e), Florida Rules of Criminal Procedure. On
January 13, 2016, Defendant filed her first amended postconviction motion. On February 29,
2016, because Defendant's amended motion still did not comply with the numbering
requirements of rule 3.85l(e), the amended motion was stricken with leave to amend. On

Page 1 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5204

App.037

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

December 14, 2016, Defendant filed her second amended postconviction motion. On March 13,
2017, the second amended motion was stricken with leave to amend for lack of facial
sufficiency. The Court also indicated at the time of this strike that Defendant's second amended
motion still did not comply with the numbering requirements of rule 3.851(e). On May 1, 2017,
Defendant filed her third amended postconviction motion.
On September 14, 2017, the Court conducted a case management conference ("Huff1
hearing") regarding Defendant's third amended motion. On October 23, 2017, the Court entered
its Order on the case management conference, granting an evidentiary hearing on the following
claims: 2A, 2B, 2C, 2E, 2F, 2G, 2H, 3A, 3B, 3C, 3D (regarding impeachment evidence of
witness Sturdivant only), 7, and 8. The Court found that Defendant's remaining claims could be
determined as a matter of law and were therefore inappropriate for evidentiary hearing.
The Court conducted a limited evidentiary hearing on May 14 through May 18, 2018, and
January 29, 2019. Defendant was present and represented by counsel. Upon approval by the
Court, the parties filed written closing arguments.

BACKGROUND
The relevant facts regarding the murder of Audreanna Zimmerman and the trial of
Defendant Tina Brown appear in the Supreme Court of Florida's opinion Brown v. State, 143 So.
3d 392, 395-403 (Fla. 2014), and are provided as follows:2
In March 2010, Tina Brown, Brown's sixteen-year-old daughter
Britnee Miller, Heather Lee, and Audreanna Zimmerman lived in
neighboring trailers in an Escambia County mobile home park.
The four women were initially good friends, but their
1

Huff v. State, 622 So. 2d 982 (Fla. 1993).

2

Footnotes and internal page numbers have been omitted in the block quote.

Page2of!JO

Tina Lasonya Brown. Case No. 2010-CF-!608A

I
f

5205

App.038

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

II
l

relationships-particularly
between Miller,
Brown,
and
Zimmerman-were volatile and often escalated to violence.
Brown had previously accused Zimmerman of slashing her tires.
Zimmerman had accused Brown of shattering a window in her car,
having her boyfriend arrested, and reporting to the Florida
Department of Children and Families that she was providing
inadequate care to her children. Lee testified that she had
intervened on multiple occasions to stop physical altercations
between Miller and Zimmerman. On one occasion, Miller, who
had recently discovered that Zimmerman was sexually involved
with her boyfriend, attempted to strike Zimmerman. Zimmerman,
however, defended herself by attempting to disable Miller with a
stun gun. Later that day, Lee informed Brown that Zimmerman
had used a stun gun on Brown's daughter, to which Brown
responded that she was "going to get" Zimmerman.
Several days later, on March 24, 20 I 0, Brown invited Zimmerman
to her home under the guise of rekindling their friendship. Before
Zimmerman arrived, Brown, Miller, Lee, and Miller's thirteenyear-old friend, were inside the trailer. Brown and Lee were in the
kitchen, where Lee instructed Brown on the proper use of a stun
gun. Miller then pulled her friend aside and told her, "we're fixing
to kill Audreanna [Zimmerman]."
Shortly after 9 p.m.,
Zimmerman entered the trailer. Brown waited several minutes and
then used the stun gun on Zimmerman multiple times. When
Zimmerman lost muscular control and fell to the floor, Brown
continued to use the stun gun on Zimmerman, who was screaming
and crying for help. Eventually, Brown pulled Zimmerman across
the trailer into the bathroom. Zimmerman continued to scream and
cry for help, so Miller struck Zimmerman in the face and Lee
stuffed a sock into Zimmerman's mouth. Zimmerman was then
forcibly escorted outside and forced into the trunk of Brown's
vehicle. Brown, Miller, and Lee then entered the vehicle and
drove away.

t

f

t

,l
i
f

r

t

f

l
f
f

!

I

I

The women drove to a clearing in the woods about a mile and a
half from the trailer park. Brown exited the car and pulled
Zimmerman out of the trunk. Zimmerman attempted to flee, but
stumbled in the darkness and was caught by Brown and Miller.
The two women wrestled Zimmerman to the ground and
simultaneously attacked her. Brown used the stun gun again on
Page] of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

I

I
I
5206

App.039

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Zimmerman as Miller beat her with a crowbar. Brown and Miller
then switched weapons and continued to torture and beat
Zimmerman.
Miller eventually dropped the stun gun and
repeatedly punched Zimmerman. Brown returned to the car,
retrieved a can of gasoline from the trunk, and walked back toward
the beaten and prone, but still conscious, Zimmerman. Brown
poured gasoline on Zimmerman, retrieved a lighter from her
pocket, set Zimmerman on fire, and stood nearby to watch the
screaming Zimmerman bum. Lee testified that she was standing
beside Miller, who exuberantly jumped up and down and
screamed, "Bum, bitch! Bum!" After a few minutes, the three
women returned to the car and drove away. During the ride home,
Miller said, "Mom, you've got to tum around. I left my shoes and
the taser." Brown, however, refused to return to the location of the
event.
Shortly thereafter, Terrance Hendrick was outside his home which
was located approximately one third of a mile away from the
location of the attack. Hendrick heard a faint female voice asking
for help, but he could not see anyone in the darkness. Eventually,
Hendrick saw Zimmerman walking slowly toward his house.
When Zimmerman reached Hendrick's house, she asked for
assistance and sat on the front steps. As he waited on the porch
with Zimmerman, Hendrick noticed that she had suffered a
significant head injury, did not appear to be wearing clothes, and
had a strong odor of gasoline. He testified that her skin was black
and he could not identify her race.
At 9:24 p.m., an emergency medical technician (EMT) arrived at
the scene. When the EMT approached Zimmerman, he observed
her sitting on the porch, rocking back and forth with her arms
straight out. Due to the extensive nature of Zimmerman's bums,
the EMT testified that he could not initially identify whether she
was wearing clothing. The EMT noticed that Zimmerman's skin
was falling off her body, and he believed that over ninety percent
of her body was burned. She had severe head trauma, and her jaw
was either broken or severely dislocated. The EMT explained that
the extent and severity of the bums prevented him from providing
Zimmerman medical assistance.
He testified that while he
generally placed sterile gauze and oxygen on bums, he did not
have enough gauze to cover her entire body. He attempted to
Page 4 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

ir
t

I

li
t

'
f

!

5207

App.040

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

stabilize her neck, but her skin was charred to such an extent that
he could not touch Zimmerman without her skin rubbing off onto
his gloves.
Despite her injuries, Zimmerman was conscious and alert. She
identified Brown and Lee as her attackers and told the EMT that
she was "'drug out of the house, tased, beaten in the head with a
crowbar, and then set on fire." She also provided her address as
well as the addresses of her attackers, and asked the EMT to
protect her children. The ambulance arrived within a few minutes
and transported Zimmerman to the hospital. Inside the ambulance,
Zimmerman repeatedly asked if she was going to recover. She told
the paramedic that Brown, Miller, and Lee poured gasoline on her
and set her on fire. She also stated that she "thought they had
made up." Zimmerman was stabilized at a local hospital and then
transferred to the Bum Center at the University of South Alabama
Hospital in Mobile, Alabama, where she died sixteen days later.
When Brown, Miller, and Lee returned to Brown's trailer, Brown
and Miller removed their bloodstained clothing and placed it in a
garbage bag. Lee removed her shoes, which were also stained with
blood, and placed them in the bag. Miller informed her friend,
who had remained at the trailer during the attack, that she had
injured her hand striking Zimmerman, and that the three women
had set Zimmerman on fire. Miller and her friend then used
Brown's car to drive to the hospital to get medical care for Miller.
Before returning from the hospital early the next morning, Miller
discarded the bag of bloodstained clothing in a dumpster and
attempted to remove the bloodstains from the inside of Brown's
car.
With the information provided by Zimmerman, law enforcement
officers apprehended Brown and Lee shortly after the attack and
Miller was arrested after she returned from the hospital the next
day. The three women were, however, released while Zimmerman
was in the hospital. During that time, Brown informed her friend
Pamela Valley that she, Miller, and Lee had beaten Zimmerman,
forced her into a car, driven her to an open field and "lit her on fire
and didn't look back." A few days later, Brown informed Valley
that Zimmerman was still alive and requested Valley to finish her
off. Valley declined and later reported the conversation to law
Page 5 of lJO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5208

App.041

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

enforcement. Brown, Miller, and Lee were re-arrested on April 9,
2010, the date of Zimmerman's death.
At the scene of the burning, law enforcement officers discovered
several pieces of evidence including a pair of white shoes; a stun
gun with blood on the handle; paper stained with blood; an orange,
gold, and black hairweave; a crowbar; and a pool of blood.
Additional blood was discovered on the passenger seat headrest in
Brown's vehicle. During trial, a DNA expert testified that the
blood on the headrest matched the known DNA profile of
Zimmerman. Another DNA expert testified that the blood on the
stun gun matched the known DNA profile of Brown. Finally, the
medical examiner testified that the cause of Zimmerman's death
was multiple thermal injuries, and the manner of death was
homicide.
On June 21, 2012, a jury convicted Brown of the first-degree
murder of Audreanna Zimmerman. During the penalty phase, the
defense presented the testimony of several family members,
including Brown's two sons, her brother, her aunt, and two of her
uncles. The defense also presented the testimony of Dr. Elaine
Bailey, a psychologist, and introduced several family photos. The
State presented one witness, Dr. John Bingham, a licensed mental
health counselor, and also entered a photograph of Zimmerman
into evidence.
The testimony presented during the penalty phase established that
Brown's parents, Willie Coleman, Sr., and Lily, were teenagers
when they married. Brown was born in North Chicago shortly
after her parents were married, and her brother, Willie Coleman,
Jr., was born eleven months later. Although many family members
described Brown's parents as hard workers, they were also
described as "partiers" who went to clubs at night and on the
weekends where they would consume alcohol and use drugs. This
lifestyle prevented Brown's parents from spending a significant
amount of time with their children. Often Brown and Willie, Jr.,
were either left at home alone or taken to the homes of different
family members for extended stays. Brown's uncle testified that
Willie, Sr., would bring Brown and her brother to his house on
Friday nights and would not return until Sunday evening to retrieve
them. As a result, Brown was forced into a parenting role for her
Page 6 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5209

App.042

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

brother at a very early age. She would prepare meals for Willie,
Jr., dress him, assist him with homework, and walk him to and
from school. Willie, Jr., testified that he spent ninety percent of his
time with his sister, and that his sister and his aunts, uncles, and
grandparents raised him.
Shortly before Brown's twelfth birthday, Willie, Sr., beat her
mother. In response, Brown's mother moved out, and Brown's
parents divorced shortly thereafter. Brown's mother was later
charged with child abandonment, so Willie, Sr., who frequently
used and sold drugs from his home, retained custody of Brown and
Willie, Jr. After her mother moved out, Brown's father began
sexually abusing Brown. Brown's uncle testified that he suspected
Brown was being sexually abused by her father because she was
visibly uncomfortable around Willie, Sr., and Willie, Sr., interacted
with her as if he were her boyfriend and not her father. When
Brown attempted to discuss the abuse with her paternal
grandmother, the grandmother grew enraged with Brown for
accusing her son of sexually abusing his child, kicked Brown out
of the house, and told her never to return.
Willie, Sr., stopped sexually abusing Brown when he met his
second wife, Melinda. However, the living situation in their
household did not improve. In fact, Willie, Jr., testified that after
Melinda moved in, the family became "very dysfunctional."
Brown's uncles testified that on several occasions they attempted to
persuade Willie, Sr., to end his relationship with Melinda because
they believed she was sexually promiscuous, physically
aggressive, a heavy drinker, and a drug user. Willie, Sr., and
Melinda would often lock themselves in the bedroom with drugs
and alcohol for hours without leaving. On those nights, Brown and
Willie, Jr., would wander the streets in an area known for gangs
and violence while Willie, Sr., and Melinda used drugs and
alcohol. Willie, Jr., testified that Melinda drank every day, and
when she drank she became verbally abusive. Further, while
Melinda and Brown initially enjoyed each other's company, their
relationship quickly deteriorated. Melinda introduced Brown to
drugs and forced Brown to engage in sexual intercourse with men
for money. Willie, Jr., testified that their father would physically
abuse them when he was high, and that Brown eventually moved
out because of this abuse. In addition, when Brown was between
Page 7 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5210

App.043

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

the ages of fourteen and twenty, her father ran a gang-related drug
operation out of their house. Brown's uncle testified that Willie,
Sr., was the enforcer for the organization. Willie, Sr., was
eventually investigated by the FBI, arrested, and served a year in
prison for his involvement in the organization.
Brown moved in with her mother for a short period of time, but
had trouble adjusting to her mother's rules and a structured living
environment. Her mother eventually ordered Brown out of the
house. She moved from there to her aunt's house. During this
transitional period, Brown attended four different schools in four
years. She dropped out of high school for a year, but later returned
and received her high school diploma. Eventually, Brown moved
into a drug house where she met Greg Miller, who is the father of
her three children. During this relationship, both Brown and Miller
abused drugs and alcohol, and Brown reported incidents of
domestic violence. Brown's first child was born cocaine positive.
After her second child was born, Brown quickly became pregnant
again. During the third pregnancy, Brown ended her relationship
with Miller and entered a substance abuse treatment facility. Her
third child, Britnee Miller, was born while Brown was in that
facility. As part of her treatment plan, Brown agreed to allow her
mother to adopt her two sons.
After she left the treatment facility, Brown was drug free for four
years. She spent that time raising Britnee. She also met another
man that she married. However, shortly after they married,
Brown's husband was convicted of selling drugs. Brown was then
hired as a bartender, which is where she met a third man, who was
also a drug dealer. Brown and this boyfriend dated for two years.
Although Brown was drug free during the relationship, she
reported incidents of domestic violence. When Brown's boyfriend
was arrested for selling drugs, Brown fell into financial disarray.
As a result, Brown accrued multiple speeding tickets that she was
unable to pay, and her driver's license was suspended. She was
also criminally charged with writing worthless checks. Brown
became an exotic dancer to pay the bills, and relapsed to depend on
alcohol and cocaine.
Brown's relapse lasted for approximately nine years. During this
time, Brown was broke, homeless, and prostituted herself for
Page 8 of JJ0

Tina Lasonya Brown. Case No. 2010-CF-1608A

5211

App.044

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

money to facilitate her drug addiction. She wrote additional
worthless checks and was ordered to participate in a court-ordered
treatment program. Brown graduated from the program at age
thirty-five, and was hired as an assistant manager at a catering
company. She was promoted to manager, and was stable in this
job for approximately four years. She started dating a fourth man.
Brown's family members testified that at this time in her life she
was doing very well, her relationship with her boyfriend was good,
and her two sons visited her often. However, a few months later,
Brown discovered that her boyfriend was cheating on her with her
brother's girlfriend and terminated the relationship. The emotional
trauma Brown suffered as a result of the breakup was substantial.
Brown left her job, wrote more worthless checks, and experienced
another relapse. This relapse, however, lasted only about a month.
During the summer of 2009, Brown enrolled in online college
classes, moved to Pensacola, Florida, and started working at
Waffle House. By Thanksgiving, however, Brown was struggling
financially, had relapsed again and quit her job. Brown obtained
drugs by engaging in sex for drugs with Heather Lee's husband. On
the day of the attack, Brown told Dr. Bailey she had used "several
hundred dollars" worth of cocaine.
Dr. Bailey testified that she interviewed Brown, Brown's mother,
Brown's aunt, Brown's two uncles, Brown's brother, and Brown's
two sons. Dr. Bailey also testified that she reviewed Brown's
medical, legal, and academic records; Brown's psychological
testing; the offense report; the supplemental investigative report;
the autopsy report; and the statements of witnesses and
codefendants. Based on her evaluation, Dr. Bailey concluded
Brown suffered from repeated traumas, addictions, physically and
sexually abusive relationships, negative community influences, and
exposures to violence both in her childhood and adult life. Dr.
Bailey testified that Brown's parents were neglectful and provided
an inadequate and unhealthy foundation, which negatively
impacted Brown's development. Dr. Bailey concluded that the
repercussions from the repeated traumas in Brown's childhood
extended for decades into her adolescence and adulthood.
However, Dr. Bailey concluded that Brown was logical, and was
able to think linearly and rationally. Nothing in Brown's past
demonstrated a propensity for violence, or that she was suffering
Page 9 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5212

App.045

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

from bipolar disorder, any mood disorders, or schizophrenia.
While Brown did exhibit some psychotic symptoms, Dr. Bailey
testified that Brown was not under extreme emotional distress at
the time of the murder. Dr. Bailey would not diagnose Brown with
any condition other than dependence on crack cocaine, which was
in remission due to her incarceration. Finally, Dr. Bailey testified
that Brown did not deny her involvement in the murder, and that
Brown felt remorseful for her actions.
Dr. Bingham, the State's expert, testified that he conducted a
mental status evaluation of Brown and concluded that she did not
exhibit signs of psychosis and possessed an intelligence level in the
low-average range. He further testified that while Brown exhibited
anger and rage, there was no indication that those feelings
inhibited her ability to think clearly or to recognize right from
wrong. He concluded that Brown's actions on the night of the
attack demonstrated preplanning, direction, and were goal oriented.
Dr. Bingham found no evidence that Brown lacked the capacity to
conform her conduct to the requirements of the law, or that she
exhibited diminished capacity in understanding the criminality of
her conduct. He concluded that she was not under extreme duress
or experiencing an emotional disturbance at the time of the
offense. Finally, Dr. Bingham concluded that while there was
substantial trauma in Brown's life, there was no cause and effect
relationship connecting Brown's past to her actions in murdering
Zimmerman.
On June 26, 2012, the jury recommended a death sentence by a
unanimous vote. During the Spencer3 hearing, the State presented a
letter from the mother of the victim. The defense presented several
records from the Illinois Department of Children and Family
Services and a letter from one of Brown's friends. Brown then
apologized to the victim's family and stated that Zimmerman "died
a horrific death, and I was one of the ones who participated in
taking her life. She didn't deserve it at all."
On September 28, 2012, the trial court sentenced Brown to death
for the murder of Audreanna Zimmerman. In pronouncing
Brown's sentence, the trial court found that the State had proven
3

Spencer v. State, 615 So. 2d 688 (Fla. I 993).

Page JO of JJO

Tina Lasonya Brown. Case No. 20/0-CF-!608A

5213

App.046

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

beyond a reasonable doubt the existence of three statutory
aggravating circumstances: (1) the murder was committed in a
cold, calculated, and premeditated manner without any pretense of
moral or legal justification (CCP) (great weight); (2) the murder
was especially heinous, atrocious, or cruel (HAC) (great weight);
and (3) the murder was committed while Brown was engaged in
the commission of a kidnapping (significant weight). See §§
921.141(5)(d), (h), (i), Fla. Stat. (2010).
The trial court found that one statutory mitigating circumstance,
that Brown had no significant history of prior criminal activity,
was established and gave it minimal weight. The trial court found
twenty-seven nonstatutory mitigating circumstances. Specifically,
the court found that Brown: (1) was the child of a teenage mother
(minimal weight); (2) was neglected by both parents (some
weight); (3) lost her childhood due to parental neglect (some
weight); (4) was abandoned by her mother (some weight); (5) had
a history of family violence (some weight); (6) was exposed to
drugs during her adolescence (some weight); (7) suffered
developmental damage due to her parents' use of and dependence
on drugs (some weight); (8) was subjected to sexual violence
inflicted by her father; (some weight); (9) was betrayed by a
trusted family member (i.e., her grandmother) (some weight); (10)
experienced corruptive community influences and exposure to a
criminal lifestyle (some weight); (11) experienced chaotic moves
and transitions (little weight); (12) was a victim of domestic
violence during her adult life (some weight); (13) witnessed a
violent homicide and served as a State witness in a murder trial
(little weight); (14) lost her family (her parental rights were
terminated for her two sons, and she has no relationship with her
mother or father) (little weight); (15) suffered repeated trauma
throughout her life (little weight); (16) suffered from drug
addiction (little weight); (17) suffered from the long term effects of
chronic cocaine use on her brain (some weight); (18) was a
productive citizen during periods of sobriety (little weight); (19)
was living in poverty at the time of the crime (minimal weight);
(20) behaved well in jail (little weight); (21) conducted a bible
study program (little weight); (22) exhibited good courtroom
behavior (little weight); (23) has no possibility of parole (little
weight); (24) showed remorse (some weight); (25) received a
different sentence than that of her co-defendants (some weight);
Page 1l of JJO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5214

App.047

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

(26) had no history of prior criminal violence (moderate weight);
and (27) was using cocaine on the day of the crime (moderate
weight).
The trial court concluded that the aggravating circumstances
outweighed the mitigating circumstances and noted that this case,
"particularly because of the heinous, atrocious, [or] cruel nature of
the murder of Audreanna Zimmerman, falls into the class of
murders for which the death penalty is reserved." Accordingly, the
court imposed upon Brown the sentence of death.
STANDARDS TO BE APPLIED

With regard to Defendant's claims of ineffective assistance of counsel, Defendant must
meet the requirements outlined in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052
( 1984) in order to be entitled to relief. The Florida Supreme Court, in Cherry v. State, 659 So.
2d 1069, 1072 (Fla. 1995), set forth the Strickland standard as follows:
Under Strickland, a defendant must establish two components in
order to demonstrate that counsel was ineffective: (1) counsel's
performance was deficient and (2) counsel's deficient performance
prejudiced the defense. As to the first prong, the defendant must
establish that "counsel made errors so serious that counsel was not
functioning as the "counsel' guaranteed the defendant by the Sixth
Amendment." Id. at 686, 104 S. Ct. at 2063. As to the second
prong, the defendant must establish that "counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose
result is reliable." Id. "[U]nless a defendant makes both showings,
it cannot be said that the conviction or death sentence resulted
from a breakdown in the adversary process that renders the result
unreliable." Id.

l

I
f

Defendant also raises claims based on alleged Giglio 4 violations by the prosecution.
To establish a claim under Giglio, the defendant must demonstrate
that ( 1) the prosecutor presented or failed to correct false
testimony; (2) the prosecutor knew the testimony was false; and (3)
4

Giglio v. U.S., 405 U.S. 150, 92 S. Ct. 763 (1972).

Page 12 of 110

Tina Lasonya Brown. Case No. 2010-CF-/608A

5215

App.048

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

the evidence was material. Once the first two prongs are
established, the false evidence is deemed material if there is any
reasonable possibility that it could have affected the jury's verdict.
Jones v. State, 998 So. 2d 573, 579-80 (Fla. 2008) (citations omitted).
FACIAL SUFFICIENCY STANDARDS

Pursuant to rule 3.85l(e)(l), Florida Rules of Procedure:
Each claim or subclaim [of the postconviction motion] should be
separately pled and shall be sequentially numbered beginning with
claim 1. If upon motion or upon the court's own motion, a judge
determines that this portion of the rule has not been followed, the
judge shall give the movant 30 days to amend. If no amended
motion is filed, the judge shall deem the noncompliant claim,
subclaim, and/or argument waived.
Additionally, the motion shall include "the nature of the relief sought," "a detailed allegation of
the factual basis for any claim for which an evidentiary hearing is sought," and "a detailed
allegation as to the basis for any purely legal or constitutional claim for which an evidentiary
hearing is not required ...." Fla. R. Crim. P. 3.85l(e)(l)(C), (e)(l)(D), (e)(l)(E). See also
Hunter v. State, 29 So. 3d 256,261 (Fla. 2008). The Florida Supreme Court requires attorneys
who represent capital defendants to meet the minimal pleading requirements to allege a claim of
ineffective assistance of trial counsel:
In Downs v. State, 453 So. 2d 1102, 1104-05 (Fla. 1984), [The
Supreme Court of Florida] explained that a defendant who seeks to
present such a claim must ( 1) identify a specific omission or overt
act upon which the claim is based, (2) demonstrate that the
omission or act was a substantial deficiency which fell measurably
below that of competent counsel, and (3) demonstrate that the
deficiency probably affected the outcome of the proceedings. If a
capital defendant fails to plead in accordance with these criteria,
the claim will not meet the threshold of facial sufficiency.
Doorbal v. State, 983 So. 2d 464, 482-483 (Fla. 2008).

Page 13 o/110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5216

App.049

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

To be entitled to an evidentiary hearing on a claim of ineffective
assistance, the defendant must allege specific facts that are not
conclusively rebutted by the record and which demonstrate a
deficiency in performance that prejudiced the defendant. Mere
conclusory allegations are insufficient to warrant an evidentiary
hearing. The defendant bears the burden of establishing a prima
facie case based on a legally valid claim. The burden is also on the
defendant, not the State, to show a reasonable probability that the
result would have been different but for counsel's error. Summary
denial is proper where the defendant fails to sufficiently allege
both prongs of the Strickland standard.
Anderson v. State, 220 So. 3d 1133, 1142-43 (Fla. 2017) (citations omitted, punctuation
omitted).
"A summary or conclusory allegation is insufficient to allow the trial court to examine the
specific allegations against the record." Tanzi v. State, 94 So. 3d 482,493 (Fla. 2012) (citations
omitted; punctuation omitted). When a capital postconviction motion fails to comply with the
pleading requirements of the rule and the trial court intends to deny the claim based on the
omissions, the proper procedure is for the trial court to strike the motion with leave to amend so
that the defective pleading can be completed and amended in good faith. See Davis v. State, 26
So. 3d 519,527 (Fla. 2009) (citing Spera v. State, 971 So. 2d 754, 761 (Fla. 2007), extending the
holding of Bryant v. State, 901 So. 2d 810 (Fla. 2005)). If the claim or subclaim remains facially
insufficient, then the trial court may properly deny the claim with prejudice. See Tanzi, 94 So.
3d at 494 (after opportunity to amend, claim was properly denied when the defendant failed to
allege specific facts explaining how the outcome would have been different if counsel acted
otherwise).
In the instant case, despite being given three opportunities to amend, the third amended
motion still does not comply with the numbering requirements of rule 3.85l(e)(l), Florida Rules
of Criminal Procedure. If Defendant had not filed an amended motion, this Court would without
Page 14 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5217

App.050

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

question be justified in deeming the noncompliant claims, subclaims, and/or arguments waived.
However, Defendant did file amended motions, albeit motions that still do not comply with the
numbering requirements. As the rule does not speak to the current situation, this Court has
attempted to address all of Defendant's claims and subclaims. However, the motion is
disorganized, and to the extent this Court may have failed to address any claims, this Court
considers those claims, subclaims, and/or arguments waived based on Defendant's failure to
comply with the pleading requirements of rule 3.851. For ease of reference, this Court, to the
best of its ability, has organized the subclaims.
This Court also observes that because each claim was not numbered separately, many of
the claims and subclaims remain facially insufficient. The Court will address this situation on a
claim-by-claim basis.

DEFENDANT'S CLAIMS
CLAIM 1: TRIAL COUNSEL PROVIDED INEFFECTIVE ASSISTANCE OF
COUNSEL DURING THE JURY SELECTION PHASE OF DEFENDANT'S CAPITAL
TRIAL
Defendant alleges that trial counsel was ineffective during the jury selection phase of
Defendant's trial by A) failing to conduct a meaningful death qualification; B) failing to inquire
about pre-trial publicity; C) failing to inquire about racial bias; D) failing to strike Juror
Goodwin; E) failing to strike Juror Taylor; F) failing to strike Juror Courtney; G) failing to
educate the jury on the penalty phase process; and H) failing to conduct any voir dire of certain
jurors.
This claim is facially insufficient in its entirety. Defendant fails to allege specific details
to support her contentions. Reaves v. State, 826 So. 2d 932, 939 (Fla. 2002) (claim regarding
Page 15 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5218

App.051

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

jury selection legally insufficient because defendant failed to assert how alleged deficiencies
caused prejudice); Johnson v. State, 921 So. 2d 490, 504 (Fla. 2005) (summary denial proper
when defendant failed to allege how counsel could have rehabilitated juror). Additionally, each
of the subclaims are facially insufficient for failing to allege actual juror bias. See State v.
Caratelli, 961 So. 2d 312,324 (Fla. 2007); Boyd v. State, 200 So. 3d 685, 697-98 (Fla. 2015);
King v. State, 211 So. 3d 866,887 (Fla. 2017) ("[A] defendant must show that a biased juror
served during the defendant's trial to satisfy Strickland's requirement of showing a reasonable
probability of a more favorable result"). Because Defendant has been given multiple
opportunities to amend her motion and this claim remains facially insufficient, claim 1 is denied
with prejudice. See Tanzi v. State, 94 So. 3d 482,493 (Fla. 2012); Davis v. State, 26 So. 3d 519,
527 (Fla. 2009).
CLAIM 2: TRIAL COUNSEL PROVIDED INEFFECTIVE ASSISTANCE OF
COUNSEL DURING THE GUILT PHASE OF DEFENDANT'S CAPITAL TRIAL BY
FAILING TO ADEQUATELY INVESTIGATE AND PREPARE A DEFENSE OR
CHALLENGE TO THE STATE'S CASE

Defendant alleges that trial counsel's representation during the guilt phase of her capital
trial fell below acceptable professional standards and but for counsel's errors, there is a
reasonable probability the result of her trial would have been different.
Claim 2A: Counsel Failed to Conduct an Adequate Investigation and Prepare for
Trial
Defendant alleges that trial counsel, Attorney John Gontarek, 5 was ineffective by

failing to conduct "any sort of independent investigation into critical witnesses [namely
Heather Lee, Mallory Azriel, Pamela Valley, and Corie Doyle], their relationship with
5

Gontarek is now a circuit court judge. However, because Gontarek obviously was not a judge at the time he
represented Defendant, this Court will not refer to him as Judge in the context of this Order.
Page 16 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5219

App.052

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Ms. Brown, and their motives for testifying." 6 Defendant alleges if counsel had

'

investigated and prepared, he would have uncovered information to impeach these
witnesses. Defendant also alleges that trial counsel exhibited an "utter lack of
preparation" and that he provided "erroneous advice" to Defendant.
1. Heather Lee

Heather Lee was also charged with first-degree murder in this case and initially faced the
death penalty. Ultimately, Ms. Lee pied guilty to second-degree murder in exchange for her
testimony against Defendant. The State's theory at trial was based upon Ms. Lee's version of
events.
Defendant alleges that counsel was ineffective for failing to investigate Ms. Lee's
background and her "volatile" relationship with Defendant and the victim. Defendant contends
that trial counsel should have discovered five witnesses who could cast doubt on Ms. Lee's trial
testimony; specifically, a) Robert Cook, b) Catherine Booker, c) Darren Lee, d) Terrance Woods,
and e) Nicole Henderson. Defendant further alleges that if counsel had properly investigated he
would have found f) that each of the weapons used in the commission of the crime (the taser,
crowbar, and gas can) came from Heather Lee's home; and g) Heather Lee and her family had a
history of tampering with witnesses.

6

To the extent that Defendant alleges counsel was ineffective for failing to attend or take the depositions of Deputy
Caleb Lukkar, Terrance Hedrick, Solange Garcia, and Willie Bradley, the Court finds that Defendant has failed to
specifically allege how she was prejudiced by counsel's failure to do so. Defendant's allegation lacks the specific,
factual prejudice as to each witness that is required by Strickland. Consequently, this portion of Defendant's claim
is deemed facially insufficient and is summarily denied with prejudice. See Tanzi v. State, 94 So. 3d 482, 493 (Fla.
2012).
Page 17 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5220

App.053

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Even though each of the subclaims alleged are facially insufficient for failure to allege
specific factual prejudice, the entirety of this claim was scheduled for evidentiary hearing
without objection from the State.
a. Robert Cook and b. Catherine Booker

Defendant alleges that if trial counsel had investigated he could have presented evidence
showing Ms. Lee had a strained relationship with the victim, and not Defendant. Specifically,
Defendant alleges that counsel could have discovered Robert Cook, Defendant's ex-husband,
who had witnessed tension between Ms. Lee and the victim, Audreanna Zimmerman.
Defendant further asserts that counsel could have discovered Catherine Booker, who is the
secretary for the landlord of the trailer park where Defendant, her co-defendants, and the victim
lived. Defendant contends that shortly before the incident, the victim told Ms. Booker that
something had happened between her and Ms. Lee.
Defendant failed to present the testimony of either Mr. Cook or Ms. Booker to support
her claim that counsel could have discovered evidence of Ms. Lee's "volatile" relationship with
Defendant and the victim. Consequently, as no evidence was presented, these portions of the
claim are deemed waived and denied. Ferrell v. State, 29 So. 3d 959, 977 (Fla. 2010) (capital
postconviction claim must fail when Defendant does not present evidence at evidentiary hearing
to support claim).

c. Darren Lee and d. Terrance Woods
Defendant further alleges that counsel never found any evidence to disprove Ms. Lee's
version of events even though this evidence was available. Specifically, Defendant alleges that
counsel failed to investigate Darren Lee and Terrance Woods. Defendant contends that mere

Page 18 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5221

App.054

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

days before the fatal attack, Ms. Lee told both Darren Lee (her husband) and Terrance Woods
that Darren Lee would not be sleeping with "that bitch" anymore. Further, a few days after the
attack, Ms. Lee confessed to both Darren Lee and Terrance Woods that she had murdered the
victim. Defendant asserts that if counsel had investigated and prepared for trial, trial counsel
would have surely called Darren Lee and Terrance Woods as witnesses at trial.
These allegations are refuted by the record. Pretrial depositions were taken of both
Darren Lee 7 and Terrance Woods. Sharon Wilson, Defendant's penalty phase counsel, was
present for Darren Lee's deposition. Even though Mr. Gontarek was not present at the
deposition, Mr. Gontarek credibly testified at evidentiary hearing that he reviewed all of the
depositions before trial. 8 Both Ms. Wilson and Mr. Gontarek were present for the deposition of
Terrance Woods. Consequently, as the record shows that trial counsel investigated both Darren
Lee and Terrance Woods, this claim is denied.
e. Nicole Henderson
Defendant also alleges that trial counsel was aware of a rumor that Ms. Lee had
confessed to planning and carrying out the murder, but he failed to present this evidence at trial.
Defendant claims that Nicole Henderson, a jail inmate familiar with Ms. Lee's "reputation for
violence since 2009," had witnessed Ms. Lee's violent behavior "first hand." Defendant further
alleges that Ms. Henderson had also heard Ms. Lee make incriminating statements regarding the
murder.

7

Contrary to Defendant's allegations, Darren Lee's deposition shows that he did not testify at deposition
about what Heather Lee told him about the incident. Heather Lee's attorney objected to such questioning
based on spousal privilege and Darren Lee was instructed by Heather Lee's attorney not to answer those
questions. See Defendant's Evidentiary Hearing Exhibit #5, p. 31. Darren Lee testified for the first time at
evidentiary hearing that Heather Lee told him she had poured the gasoline on the victim and lit her on fire.
8

See Transcript, Evidentiary Hearing, pp. 49-50; 53-54.

Page 19 of 110

Tina Lasonya Brown, Case No. 2010-CF-1608A

5222

App.055

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant presented Nicole Henderson's testimony at evidentiary hearing. In regard to
this allegation, Nicole Henderson testified that she had known Ms. Lee from the "free world"
since 2009. 9 Ms. Henderson further testified that she first had contact with Ms. Lee when Ms.
Lee got into an altercation with Ms. Henderson's teenage sister. 10 According to Ms. Henderson,
Ms. Lee tried to have a physical fight with Ms. Henderson's sister because Ms. Lee's boyfriend

l
l

at the time wanted to have sex with the sister.

f

11

Ms. Henderson also testified that at one point she and Ms. Lee were housed in the same
correctional facility. 12 During that time, Nicole Henderson overheard conversations Ms. Lee was
having with another woman named Miracle Sanders. In these conversations, Ms. Lee told Ms.
Sanders that she was going to be "going home" because she was blaming Britnee Miller and
Defendant for the murder. According to Ms. Henderson's evidentiary hearing testimony, Ms.
Lee said the reason the murder happened was because "her boyfriend had got another young lady
pregnant." Ms. Lee further indicated that she was going to get two other juvenile girls that had
been housed with Ms. Miller to get on the stand and say what Ms. Lee wanted them to say, so
Ms. Lee would "be able to get off." 13 On cross-examination, Ms. Henderson admitted that it
sounded like Ms. Lee was bragging, 14 and that Ms. Lee did not say how she was going to contact
the juveniles at the juvenile detention center to get them to say what she wanted. 15

9

'°

See Transcript, Evidentiary Hearing, pp. IO 1-102.
See Transcript, Evidentiary Hearing, p. I 02.

11

See Transcript, Evidentiary Hearing, p. I 02.

12

See Transcript, Evidentiary Hearing, p. 104.

13

See Transcript, Evidentiary Hearing, p. 104.

14

See Transcript, Evidentiary Hearing, p. 107.

15

See Transcript, Evidentiary Hearing, p. I 08.

Page 20 of 110

Tina Lasonya Brown. Case No. 2010-CF-l608A

5223

App.056

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

After reviewing the evidence regarding this claim, the Court finds that Defendant is not
entitled to relief. Defendant has not shown that Ms. Henderson's testimony regarding Ms. Lee's
reputation for violence would have been admissible at trial. Additionally, it is doubtful that Ms.
Henderson's testimony would have been admissible regarding the conversation she overheard
between Ms. Lee and Ms. Sanders. Even if it were admissible as an exception to hearsay, it
would not have made a difference at trial. Ms. Henderson herself admits that Ms. Lee was
bragging. There is no indication that Ms. Lee even had the ability to contact the juveniles at the
facility to do her bidding. Additionally, if Ms. Zimmerman had been pregnant at the time of the
murder, this information would have been presented at trial through the medical examiner's
testimony. No such evidence was presented at trial. Further, and most importantly, trial counsel
actually did present Wendy Moye at trial, who testified that Ms. Lee told her directly that she
was the person who poured the gas and lit the victim on fire. Although admitted as impeachment
evidence, this information was already before the jury. Defendant has failed to show that trial
counsel was deficient for failing to call Nicole Henderson as a witness at trial, or that Ms.
Henderson's testimony would have changed the outcome of this case. She is not entitled to relief
as to this claim.

f.

Weapons Used in the Crime

Defendant also contends that if counsel had properly investigated, he would have
discovered that all of the weapons used in the commission of the crime (taser, crowbar, and gas
can) came from Ms. Lee's home. Defendant failed to present any evidence at evidentiary
hearing to support the validity of this claim, and therefore Defendant is not entitled to relief.

Page21 o/110

Tina Lasonya Brown. Case No. 20J0-CF-J608A

5224

App.057

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

g. History of Tampering with Witnesses

Defendant also asserts that if counsel had investigated, he would have discovered that
Ms. Lee and her family had a history of tampering with witnesses. According to the motion, Ms.
Lee previously asked Defendant to beat up a witness to Ms. Lee's brother's criminal case in late
2009. Defendant has failed to submit any evidence in support of this claim, and Defendant is not
entitled to relief on this basis.
2. Mallory Azriel

Mallory Azriel was present when the attack of the victim first began and later helped
dispose of evidence of the crime. Defendant contends that counsel's failure to depose or
investigate Ms. Azriel left counsel unacquainted with Defendant's case and unprepared to crossexamine her at trial.
Defendant failed to present any evidence at the hearing to support this claim. Ferrell v.
State, 29 So. 3d 959, 977 (Fla. 2010) (capital postconviction claim must fail when Defendant
fails to present evidence at evidentiary hearing to support claim). The Court further notes that
this claim is legally insufficient. Defendant has merely alleged that counsel failed to adequately
cross-examine Ms. Azriel without indicating what favorable information could have been elicited
or how Defendant was prejudiced. See Anderson v. State, 220 So. 3d 1133, 1144 (Fla. 2017)
(citing Reaves v. State, 826 So. 2d 932, 939-40 (Fla. 2002)). Consequently, this claim is
summarily denied.

Page 22 of 110

Tina Lasonya Brown. Case No. 2010-CF-J608A

5225

App.058

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

3. Pamela Valley
Pamela Valley had at one time been a close friend of Defendant's. At trial, Ms. Valley
testified that Defendant had confessed to her involvement in the murder. Ms. Valley also
testified that Defendant had asked her to "finish off' the victim when she was still in the hospital.
Defendant alleges that counsel failed to question Ms. Valley as to why her initial
statement to law enforcement did not include the information about Defendant asking her to
"finish off' the victim. Defendant also asserts that if counsel had investigated the relationship
between Defendant and Ms. Valley, he would have found that Defendant was "no longer
welcome" in Ms. Valley's home after Defendant "spurned" Ms. Valley's sexual advances.
Defendant further asserts that if counsel had investigated he would have discovered that Ms.
Valley's child, Raygine Robinson, and Defendant's child, Britnee Miller, were co-defendants in
another criminal case that was pending at the time of the murder. Finally, Defendant claims that
if counsel had investigated, he would have discovered that Ms. Valley had a reputation
(according to two people) of"doing or saying anything for money, even lying."
Defendant failed to present any evidence regarding Ms. Valley and Defendant's troubled
relationship. Defendant further failed to present any evidence regarding Ms. Robinson and Ms.
Miller being codefendants in another criminal case and how such information might have been
used to cast doubt on Ms. Valley's trial testimony. Consequently, as no evidence was presented,
these portions of the claim are deemed waived and denied. Ferrell v. State, 29 So. 3d 959, 977
(Fla. 2010).

Page 23 of I 10

Tina Lasonya Brown. Case No. 2010-CF-1608A

5226

App.059

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

At evidentiary hearing, Mr. Gontarek was asked about his investigations into Pamela
Valley's background. 16 Mr. Gontarek testified he did not feel like it was important to have an
investigator travel "up north" (where Ms. Valley used to live) to investigate her background,
because the facts in this case were so "horrific" that information about Ms. Valley's background
would not have made a difference in Defendant's trial. 17 While Mr. Gontarek conceded that ifhe
had information regarding Ms. Valley's reputation for dishonesty he probably would have tried
to use it at trial, 18 he also confirmed his understanding that evidence of reputation would have
had to come from a community and not just from one or two people who knew Ms. Valley. 19
Defendant's allegation regarding Ms. Valley's "reputation" is based upon a statement by Jennifer
Malone, who did not testify at the evidentiary hearing at all, and Darren Lee, who did not testify
at evidentiary hearing regarding Ms. Valley and her reputation. 20 The evidence submitted at
hearing does not show that counsel was deficient for failing to investigate and discover
"reputation" evidence that would not have been admissible at trial. Defendant is not entitled to
relief as to this portion of the claim.
Even though counsel did not impeach Ms. Valley directly with her previous statement, a
review of the trial transcript shows that counsel did, in fact, delve into Ms. Valley's evolving
statements that added the detail about "finishing off' the victim:
Q.

[BY MR. GONTAREK] And then you said that after you
went to Crime Stoppers, called Crime Stoppers, you went
back to the police and said, oh, well, Tina told me to go to

16

See Transcript, Evidentiary Hearing, p. 33.

17

See Transcript, Evidentiary Hearing, p. 33.

18

See Transcript, Evidentiary Hearing, p. 33.

19

See Transcript, Evidentiary Hearing, p. 53.

20

See Transcript, Evidentiary Hearing, pp. 85-95.

Page 24 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5227

App.060

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

the hospital and finish her off, is that what you said? Is that
what you testified to?

A.

[BY PAMELA VALLEY] Yes, something like that.

Q.

You didn't tell the police that right off, it was after you
went to Crime Stoppers, wasn't it?

A.

Because it wasn't right off. It wasn't right off.

Q.

It was after you went to Crime Stoppers and the second
time you went to the police isn't it?

A.

I'm not sure. I'm not sure exactly. I don't know.

Q.

You are not sure?

A.

But I remember telling somebody something yes, I did.

Q.

And everything is vague and ambiguous, isn't that right?

A.

Yes. 21

Defendant has failed to show how impeaching Ms. Valley with the actual previous statement
would have been more effective than the approach employed by counsel. As counsel addressed
Ms. Valley's differing accounts during her trial testimony, the Court finds that Defendant has
failed to show that counsel was deficient. She is not entitled to relief as to this claim.

4. Corie Doyle
Corie Doyle was a fellow inmate of Defendant's at the Escambia County Jail after
Defendant's arrest in this case. At trial, Ms. Doyle testified that one early morning Defendant
confessed to her the details of Defendant's participation in the murder. Defendant alleges that if
counsel had investigated, he would have discovered Nicole Henderson, another fellow inmate,
who would have provided testimony to refute Ms. Doyle's trial testimony. Specifically,
21

See Attachment I, Transcript, Trial, pp. 574-575.

Page 25 of 110

Tina Lasonya Brown. Case No. 20IO-CF-1608A

5228

App.061

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant alleges that Ms. Henderson would have testified that Defendant was heavily sedated,
slept a lot, and she had never seen Defendant alone in the early morning hours drinking coffee,
as Ms. Doyle indicated in her trial testimony.
An evidentiary hearing was conducted regarding this claim. At evidentiary hearing, Ms.
Henderson testified consistently with the motion: Defendant was heavily sedated, slept a lot, and
the guards had to wake her up for both breakfast and lunch. 22 Ms. Henderson further testified
that she had never seen Defendant alone in the common area, drinking coffee, early in the
morning. However, upon cross-examination, Ms. Henderson confirmed that even though she
had never seen Defendant in the common area early in the morning, it was "possible" Defendant
got up early at times. 23 This Court finds that Ms. Henderson's testimony does nothing to refute
Ms. Doyle's trial testimony. Counsel was not deficient and Defendant was not prejudiced by
counsel's failure to present Ms. Henderson's testimony on this topic. Defendant is not entitled to
relief regarding this claim.
5. "Utter Lack of Preparation"

Defendant asserts that trial counsel exhibited an "utter lack of preparation" when
defending this case. Specifically, Defendant alleges that trial counsel: a) asked the State
via email for a list of the State's witnesses so he could avoid reviewing all of the
depositions; b) was not present for Darren Lee's deposition; and c) did not have an
opening statement prepared on the first day of trial.

22

See Transcript, Evidentiary Hearing, p. 105.

23

See Transcript, Evidentiary Hearing, p. 107.

Page 26 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5229

App.062

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

a. The Email about Witnesses
Defendant alleges that one week before trial, counsel requested the State to send
him a list of the witnesses it would be calling at trial so counsel could "save the time and
expense [of] not having to read every deposition."
Mr. Gontarek explained at evidentiary hearing that in a different capital case, Mr.
Molchan, another Assistant State Attorney who assisted Ms. Jensen on this case, had
provided a list of his witnesses via email for each day of the trial. 24 Mr. Gontarek said he
had never had an attorney provide this information before, and because Ms. Jensen was
working with Mr. Molchan on this case, he was hoping that Ms. Jensen would follow Mr.
Molchan's previous course of conduct. 25 Mr. Gontarek testified that Ms. Jensen chose
not to answer his email and did not provide the witness list for each day of trial. 26 Mr.
Gontarek confirmed that his question did not mean he had not reviewed the depositions;
in fact, he had read all of the depositions before trial. 27 He just thought it was amusing
that the State had provided the witnesses in the other case and was trying to see if he
could "take advantage." 28 The Court finds trial counsel's testimony credible on this
topic. Defendant has failed to show that trial counsel acted deficiently or that she was
prejudiced. She is not entitled to relief as to this claim.

24

See Transcript, Evidentiary Hearing, pp. 34-35; 53.

25

See Transcript, Evidentiary Hearing, p. 53.

26

See Transcript, Evidentiary Hearing, p. 54.

27

See Transcript, Evidentiary Hearing, pp. 49-50; 53-54.

28

See Transcript, Evidentiary Hearing, pp. 53-54.

Page 27 of 110

Tina Lasonya Brown. Case No. 20/0-CF-1608A

5230

App.063

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

b. Trial Counsel's Absence from Darren Lee's Deposition

Defendant further contends that Mr. Gontarek was not present for Darren Lee's
deposition. Defendant alleges she was prejudiced by trial counsel's absence at this
deposition because Darren Lee's deposition testimony contradicted Ms. Lee's version of
events, and trial counsel failed "to subject the State's evidence to the adversarial testing
the Constitution requires."
This subclaim is facially insufficient. Defendant fails to specify what the
contradictions were between Darren Lee's deposition testimony and Ms. Lee's trial
testimony, 29 and what information counsel should have used to challenge the "State's
evidence." Regardless, Mr. Gontarek testified credibly that he read all of the depositions
in the case to prepare for trial. 30 Defendant has failed to show that trial counsel's absence
from Darren Lee's deposition was deficient or she was prejudiced. She is not entitled to
relief as to this subclaim.

c. Opening Statement
Defendant also cites to the trial transcript, in which trial counsel stated, "I don't
know what my opening is going to be yet,judge." Defendant alleges "[t]his concession
reveals the depth of counsel's apathy towards Ms. Brown and her case."
This claim is facially insufficient as Defendant fails to allege specific, factual
prejudice. Regardless, Mr. Gontarek testified at evidentiary hearing regarding this claim.
He indicated that when he prepares for trial, he does not sit down and write out pages for
29

If Defendant is trying to imply that Darren Lee claimed Heather Lee had admitted to pouring the gasoline and
lighting the victim on fire, contrary to Heather Lee's trial testimony, a review of Darren Lee's deposition testimony
shows that this issue was never discussed during his deposition. See Defendant's Evidentiary Hearing Exhibit #5.
30

See Transcript, Evidentiary Hearing, pp. 49-50; 53-54.

Page 28 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5231

App.064

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

his opening statement. 31 Instead, he mentally prepares for what he wants to present
during his opening statement. 32 The Court finds trial counsel's testimony credible on this
topic. Defendant has failed to demonstrate that Mr. Gontarek was deficient or that his
preparation methods prejudiced Defendant. She is not entitled to relief as to this claim.
6. "Erroneous Advice" of Counsel

Defendant also alleges that she relied on the "erroneous advice" of counsel when she
"chose not to testify, not to take a plea deal, not to cooperate with the State, and in essence, not
to bring her story to light." Defendant further asserts that trial counsel advised her that by
"keeping quiet," she could "save" her daughter, Britnee Miller. Defendant alleges that following
this advice put her at a "grave" disadvantage as Ms. Lee testified to events that had "no factual
backing."
This claim is facially insufficient for lack of specific, factual prejudice. Defendant's
claim of "erroneous advice" is also conclusory and speculative, without any facts offered in
support of this allegation.
Even though the entirety of claim 2A was scheduled for evidentiary hearing, the only
evidence presented that remotely relates to this claim is that the State refused to offer a plea in
Defendant's case, despite both trial counsel and penalty phase counsel trying to persuade the
State otherwise. 33 Consequently, the evidence shows that trial counsel did not erroneously
advise Defendant not to enter a plea, as no plea offer was available. In regard to the other issues
raised in this subclaim, because Defendant failed to present any evidence on these topics at the
31

See Transcript, Evidentiary Hearing, p. 54.

32

See Transcript, Evidentiary Hearing, p. 54.

33

See Transcript, Evidentiary Hearing, pp. 37-38; 50-51; 278-279; 394-396; see also State's Evidentiary Hearing
Exhibit #1.
Page 29 of 110

Tina Lasonya Brown. Case No. 20/0-CF-1608A

5232

App.065

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

hearing, the Court finds the remaining issues are abandoned and denied. See Ferrell v. State, 29
So. 3d 959, 977 (Fla. 2010) (capital postconviction claim must fail when Defendant fails to
present evidence at evidentiary hearing to support claim).

Claim 2B: Counsel Failed to Adequately Challenge the State's Evidence through
Cross-Examination of Witnesses
Defendant next alleges that trial counsel failed to adequately cross-examine witnesses
Heather Lee, Corie Doyle, and Pamela Valley regarding their previous inconsistent statements.
1. Heather Lee

Defendant alleges that trial counsel failed to impeach Heather Lee with the following: a)
Ms. Lee's prior criminal record; b) Ms. Lee's deposition testimony regarding her whereabouts on
the day of the incident; c) Ms. Lee's deposition testimony regarding cleaning blood off of her
shoes; d) Ms. Lee's deposition testimony about how the blood got on her shoes; e) Ms. Lee's
recorded statement to law enforcement about where she, the victim, and the other participants
were sitting in Defendant's vehicle on the night of the incident; f) Ms. Lee's recorded statement
to law enforcement about her knowledge of the wooded area where the crime took place; g)
Darren Lee's deposition testimony on the topic of whether Ms. Lee was alone with Darren Lee at
the home the day of the incident; and h) Darren Lee's deposition testimony regarding the reason
no one opened the door when the police came to the Lees' residence. Defendant further alleges
that counsel failed to ask Ms. Lee about the following: i) Darren Lee's affair with Defendant as
motive for testifying against Defendant; j) Darren Lee's affair with the victim; k) whether the gas
can and crowbar used during the crime came from her home; and 1) Ms. Lee's return to the
scene of the crime with Defendant. In general, Defendant alleges that none of Ms. Lee's given
statements were consistent.
Page 30 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5233

App.066

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

a. Heather Lee's Prior Criminal Record
Defendant claims that counsel was ineffective for failing to impeach Heather Lee with
her prior criminal record: two felony convictions and two crimes of dishonesty. At evidentiary
hearing, Mr. Gontarek testified that he did not believe it would make a difference in this case if
he impeached Ms. Lee with her prior criminal record. 34 Instead, counsel felt that the fact Ms.
Lee pled to second-degree murder and was getting a benefit as a result of her plea "was
everything."35 The record shows that trial counsel made the jury aware that Ms. Lee had been
charged with first-degree murder in this case and was still convicted of second-degree murder
after she entered into a plea in exchange for her testimony against Defendant. 36 Ms. Lee's
previous criminal record is insignificant under these circumstances. Defendant has further failed
to demonstrate that the results of Defendant's trial would have been different if counsel had used
Ms. Lee's prior criminal record to impeach her trial testimony. Consequently, Defendant is not
entitled to relief as to this subclaim.

b. Heather Lee's Deposition - Whereabouts Dav ofthe Incident
Defendant alleges that counsel was ineffective for failing to impeach Heather Lee
regarding her whereabouts on the day of the incident. Specifically, Defendant alleges that Ms.
Lee testified at trial that she was at home all afternoon with her husband on the day of the
incident. However, Defendant alleges that Ms. Lee testified at deposition and in her recorded
interview of April 7, 2011, that she was at Defendant's house around 3:45 p.m., and then went to
her own home to cook fish, during which several family members dropped by her home.
34

See Transcript, Evidentiary Hearing, pp. 39-40.

35

See Transcript, Evidentiary Hearing, p. 56.

36

See Attachment 1, Transcript, Trial, pp. 511; 535-536.

Page 31 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5234

App.067

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant did introduce into evidence Ms. Lee's deposition and the
recorded interview from April 7, 2011, Defendant failed to address the topic of these
inconsistencies with trial counsel or any other witnesses called at the evidentiary hearing.
Defendant has also failed to present any evidence to demonstrate how this inconsistency on such
a tangential issue would have changed the results of Defendant's trial. Defendant is not entitled
to relief as to this subclaim.

c. Heather Lee's Deposition - Cleaning Blood off Shoes
Defendant next alleges that counsel was ineffective for failing to impeach Heather Lee
regarding cleaning the blood off her shoes. At trial, Ms. Lee testified that after she returned from
the field to Defendant's trailer, she was not trying to clean the blood off her shoes. However,
during Ms. Lee's deposition testimony, she stated that she tried to get the blood off her shoes.
Defendant contends that counsel did not question Ms. Lee about this inconsistency even though a
previous witness at trial, Mallory Azriel, testified she saw Ms. Lee try to clean her shoes.
Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant did introduce into evidence Ms. Lee's deposition,
Defendant failed to address the topic of this inconsistency with trial counsel or any other
witnesses called at the evidentiary hearing. The record also shows that trial counsel did highlight
in his cross-examination that Mallory Azriel, arguably a much more credible witness, had

Page 32 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5235

App.068

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

testified that Ms. Lee had tried to clean the blood off her shoes. 37 Further, Defendant has failed
to present any evidence that demonstrates how this inconsistency in testimony on such a
tangential issue would have changed the results of Defendant's trial. Defendant is not entitled to
relief as to this claim.

d. Heather Lee's Deposition - How Blood Got on Shoes
Defendant also alleges that counsel was ineffective for failing to impeach Heather Lee
regarding how the blood got on her shoes. Defendant alleges that at trial, Ms. Lee stated that she
got blood on her shoes because "I stepped in some." However, during deposition Ms. Lee stated
that the blood "flew" on her while the victim was being hit.
Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant did introduce into evidence Ms. Lee's deposition,
Defendant failed to approach the topic of this inconsistency with trial counsel or any other
witnesses called at the evidentiary hearing.
A review of the record shows that Defendant mischaracterizes Ms. Lee's testimony on
this topic. Ms. Lee was not positive about how the blood got on her shoes. At trial, the
following testimony was elicited regarding the shoes:
Q.

A.

Q.

37

[By ASA Bridgette Jensen]: Why did she [Defendant]
make you take your shoes off?
[By Heather Lee]: Cause it had a little bit of blood on it.
How did you get blood on your shoes?

See Attachment I, Transcript, Trial, p. 540.

Page 33of110

Tina Lasonya Brown. Case No. 20/0-CF-1608A

5236

App.069

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

A.

I guess when I ran, I stepped in some. Because her
[Audreanna Zimmerman's] head was bleeding when Tina
took the pillow case off. 38

During Ms. Lee's deposition, she testified as follows:
Q.

[By Attorney Sharon Wilson]: Why did your shoes have
blood all over them?

A.

[By Heather Lee]: I guess the blood had flew on me when
they was hitting her; but I don't know how it got on me
because I didn't- I wasn't taking no part of it. 39

Considering this was Ms. Lee's testimony on the topic, it is doubtful if counsel had tried to
impeach her with her deposition testimony that it would have made a difference at trial. Indeed,
Defendant fails to even attempt to explain how this minor difference in testimony would have
changed the results of Defendant's trial, especially since it appears Ms. Lee was merely guessing
in both statements. Defendant is not entitled to relief as to this claim.
e. Heather Lee's Recorded Statement - Persons Present in the Vehicle and in the
Woods

Defendant also alleges that counsel was ineffective for never questioning Heather Lee
about her change in testimony regarding who was present in the vehicle at the time the victim
was transported into the woods. At trial, Ms. Lee stated that she was in the middle of the
backseat of the vehicle; Britnee Miller was in the front passenger seat; and Tina Brown was in
the driver's seat. Ms. Lee indicated at trial that Mallory Azriel did not get in the vehicle and was
not present in the woods. However, according to Defendant's allegation, Ms. Lee indicated in
her April 2011 recorded statement that she was located in the middle of the backseat, with

38

See Attachment 1, Transcript, Trial, p. 530 (emphasis added).

39

See Defendant's Evidentiary Hearing Exhibit #8, p. 22 (emphasis added).

Page 34 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5237

App.070

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Britnee Miller and Mallory Azriel sitting on either side of her in the vehicle. Ms. Lee further
indicated in this statement that both Britnee Miller and Mallory Azriel held Ms. Lee by the
vehicle while Defendant pulled the victim out of the trunk.
Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant did introduce into evidence Ms. Lee's April 7, 2011
recorded statement, Defendant failed to address the topic of these inconsistencies with trial
counsel or any other witnesses called at the evidentiary hearing. A review of the recorded
statement and Ms. Lee's trial testimony shows that Defendant's allegations are true that during
the recorded statement Ms. Lee placed Mallory Azriel in the vehicle and also at the wooded
crime scene. However, even if counsel had presented this impeachment evidence, it is doubtful
it would have made a difference. Mallory Azriel, even by Ms. Lee's statement, has never been
depicted as a key player in the murder of the victim. Whether Mallory Azriel was or was not
present during the burning of the victim in the woods does not change the underlying facts
testified to by Ms. Lee or the other evidence presented at trial. In fact, if counsel had introduced
the impeachment evidence regarding Mallory Azriel' s possible presence in the woods, it might
have caused the jury to give Mallory Azriel' s testimony more credence. Even though Mallory
Azriel testified at trial that she did not get into the vehicle and was not present in the woods, if
the jury believed that Mallory Azriel was actually present for these events, her testimony
regarding Defendant being the main aggressor could have been even more compelling.
Defendant has failed to demonstrate that she is entitled to relief as to this claim.

Page 35 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5238

App.071

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

f. Heather Lee's Recorded Statement -Knowledge of Crime Scene
Defendant next alleges that counsel failed to effectively cross-examine Heather Lee
regarding the inconsistencies in her testimony about the crime scene. Specifically, Defendant
alleges that at trial, Ms. Lee testified that she had never been to the wooded area before.
However, during her recorded interview of April 7, 2011, Ms. Lee stated that she knew the
neighborhood because her grandmother lived there.
Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this allegation. While Defendant did introduce the recorded statement, Defendant
failed to address this inconsistency with trial counsel or any other witnesses called at the
evidentiary hearing.
Regardless, Ms. Lee's recorded statement would not have impeached Ms. Lee's trial
testimony on this topic. The trial transcript shows that Ms. Lee testified to the following:
Q.

[By ASA Bridgette Jensen]: Where did you guys go?

A

[By Heather Lee]: We went down Detroit up Ashland to
where it was two openings. There was a big chain and a
small chain. Tina got out and took the big chain off and
drove down in the area.

Q.

Had you been to that area before?

A

No, ma'am. You could see the area as you go up Ashland
though. You could see the chains. 40

During Ms. Lee's April 7, 2011 recorded statement, she testified to the following:

40

See Attachment 1, Transcript, Trial, p. 522.

Page 36 of JJO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5239

App.072

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

DEFENDANT LEE: We ended up leaving out of the trailer park,
turning right on Detroit. We went up Detroit, and I know the
streets, we turned on Ashland.
And when we turned on Ashland, it's dark up in that area. But I
know that area as we're going up in there because I stayed in that
neighborhood for a while.
ATTORNEY JENSEN: Do you have a grandma that lives in
there?
DEFENDANT LEE: My grandmother stays on Boaz Street
(phonetics).
ATTORNEY JENSEN: Okay. Go ahead.
DEFENDANT LEE: We went up Ashland, and we turned off to
the side where it was blocked off at.
Tina got out, and she unhooked the strings that was - they usually
have strings blocking off where you can't go down in that little
area. And Tina got out, she unhooked it, and got back in the Jeep,
and we pulled down in there. And she turned the lights out. 41

When reviewing the statements in context, the word "area" in Ms. Lee's trial testimony and
recorded statement are referring to separate things. The "area" referenced in Ms. Lee's trial
testimony is the blocked off wooded area where the offense took place. The "area" referenced in
Heather's Lee's recorded statement is the neighborhood in which the blocked off wooded area is
located. All the recorded statement shows is that Ms. Lee was familiar with the existence of the
wooded area, not that she had ever been there before. Consequently, Ms. Lee's recorded
statement would not have been effective in impeaching her trial testimony on this topic.
Defendant is not entitled to relief as to this subclaim.

41

See Defendant's Evidentiary Hearing Exhibit# 13B, pp. 41-42.

Page 37of110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5240

App.073

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

g. Darren Lee's Deposition Testimony-Fish Fry
Defendant further alleges that trial counsel failed to impeach Heather Lee's testimony by
calling Darren Lee, Heather's husband, as a witness at trial. Defendant claims that during
deposition, Darren Lee testified that in the late afternoon or early evening of March 24, 2010,
Defendant and Ms. Lee were at their shared home cooking fish together. Darren Lee further
indicated that various people stopped by that evening. Defendant asserts that this testimony
contradicts Ms. Lee's trial testimony that she was home alone with her husband that evening.
Defendant's claim is facially insufficient for failure to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant introduced Darren Lee's deposition into evidence, and
Darren Lee, Heather Lee, and Defendant's trial counsel testified at the evidentiary hearing,
Defendant failed to address the topic of this supposed inconsistency with trial counsel or any
other witnesses called at the evidentiary hearing.
Regardless, a review of the trial transcript shows that Darren Lee's deposition testimony
on this topic would not have contradicted Ms. Lee's trial testimony. A review of Ms. Lee's trial
testimony shows the following:

Page 38 of 110

Q.

[By Bridgette Jensen, ASA]: I'm going to direct your
attention specifically to March 24th of 2010; do you
remember that particular night?

A.

[By Heather Lee]: Yes, ma'am.

Q.

Where were you during the afternoon?

A.

I was at home.

Q.

Was anyone with you at home?

Tina Lasonya Brown. Case No. 2010-CF-1608A

5241

App.074

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

A.

My husband, Darren. 42

Ms. Lee never denied that anyone else came by her home that day, but simply stated she
was home with her husband during the afternoon. Additionally, during cross-examination, trial
counsel questioned Ms. Lee about her previous statement that she did not know about the
incident because she was with her husband at the time, cooking fish and french fries. Ms. Lee
admitted at trial that her previous statement that she did not know anything about the victim's
death was a lie. 43 Whether people came by Ms. Lee's home earlier in the day is an ancillary
issue that has no bearing on the incident itself. Counsel elicited the testimony from Ms. Lee that
she lied about her knowledge of the crime. This was a much more pivotal issue than whether
people had or had not come by her home that evening. Defendant has failed to show how
counsel was deficient by failing to use Darren Lee's deposition testimony on an issue that was
far from crucial, especially when the testimony would not have even served to impeach Ms. Lee.
Defendant is not entitled to relief on this portion of the claim.
h. Darren Lee's Deposition Testimony- Failure to Open Door for Law Enforcement

Defendant next alleges that counsel failed to cross-examine Heather Lee and failed to call
Darren Lee as a witness to impeach Ms. Lee's trial testimony regarding law enforcement
knocking on their door. Specifically, Defendant alleges that at trial Ms. Lee testified Defendant
followed her back to her home after the incident. Ms. Lee stated she was crying and Darren Lee
kept asking her what was wrong. Ms. Lee testified that when the police knocked on her door,
Defendant told her "(s]he better not open the door." However, Darren Lee testified during his
deposition that he was home watching a movie with Ms. Lee and Defendant right before the
42

See Attachment I, Transcript, Trial, p. 514.

43

See Attachment I, Transcript, Trial, p. 537.

Page 39of110

Tina Lasonya Brown. Case No. 2010-CF-/608A

5242

App.075

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

police arrived. Darren Lee testified that the reason no one answered the door when the police
knocked was because he was "high."
Defendant's claim is facially insufficient for failing to allege proper prejudice. Although
this claim was set for evidentiary hearing, Defendant failed to present any testimonial evidence
to support this claim. While Defendant introduced Darren Lee's deposition into evidence, and
Darren Lee, Ms. Lee, and trial counsel testified at the evidentiary hearing, Defendant failed to
address the topic of these supposed inconsistencies with trial counsel or any other witnesses
called at the evidentiary hearing. Regardless, even if Darren Lee had testified at trial consistent
with his deposition testimony, his proposed testimony does not necessarily contradict Ms. Lee's
testimony: Ms. Lee might not have answered the door because Darren Lee was high and
Defendant told her not to open the door. Defendant has not shown that these events were
mutually exclusive. Defendant has failed to show that counsel was deficient or that Defendant
was prejudiced because counsel failed to use Darren Lee's deposition testimony to impeach on a
minor issue, especially when the proposed testimony does not even necessarily contradict Ms.
Lee's trial testimony. Defendant is not entitled to relief as to this subclaim.
i. Darren Lee's Affair with Defendant

Defendant next alleges that, prior to the murder, Heather Lee accused Defendant of
having an affair with her husband Darren Lee, but counsel failed to cross-examine Ms. Lee on
this issue. Defendant alleges that Ms. Lee admitted during her deposition that she had heard
rumors Defendant was sleeping with her husband. Additionally, Darren Lee admitted during his
deposition testimony that he was sleeping with Defendant. Yet, trial counsel never questioned
Ms. Lee about this being a possible motive to testify against Defendant.

Page 40 of 110

Tina Lasonya Brown. Case No. 20J0-CF-1608A

5243

App.076

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

An evidentiary hearing was scheduled regarding this claim. Even though trial counsel
testified at evidentiary hearing, he was never questioned on this specific topic. Ms. Lee was
asked at evidentiary hearing whether Darren Lee was cheating on her with Defendant; Ms. Lee's
responded "No, he was not." 44 Ms. Lee was not questioned further at evidentiary hearing
regarding this issue. Darren Lee also testified at evidentiary hearing, but was not asked whether
he was sleeping with Defendant at the time of the incident, or whether Ms. Lee suspected that he
was.
By stipulation of the parties, Ms. Lee's and Darren Lee's depositions were entered into
evidence, even though none of the witnesses at evidentiary hearing were questioned regarding
the deposition testimony on this topic. Ms. Lee's deposition shows that she had heard from
"somebody" that Defendant "liked" her husband Darren Lee, so she asked Defendant if she was
sleeping with him. Ms. Lee specifically denied that she accused Defendant of sleeping with
Darren Lee. Ms. Lee told Defendant that if it was true, Defendant needed to stay away from Ms.
Lee and her family. Defendant told her it was not true. Ms. Lee confirmed during deposition
that she and Defendant "got along okay after that. " 45
A review of Darren Lee's deposition shows that he admitted to sleeping with Defendant,
but, to his knowledge, Ms. Lee was not aware of his sexual relationship with Defendant. Darren
Lee further testified that Ms. Lee did not suspect he had a sexual relationship with Defendant,
Ms. Lee had never said anything to him about it, and nobody else had ever said anything to him
about his sexual relationship with Defendant. 46
44

See Transcript, Evidentiary Hearing, p. 74.

45

See Defendant's Evidentiary Hearing Exhibit #8, pp. 8-9.

46

See Defendant's Evidentiary Hearing Exhibit #5, pp. 8-9.

Page 41 of 110

Tina Lasorrva Brown. Case No. 2010-CF-1608A

5244

App.077

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

The evidence submitted leads the Court to conclude that if Ms. Lee had been asked at
trial whether Defendant was having an affair with her husband, her response would have been
"No, he was not." Ms. Lee's evidentiary hearing testimony is consistent with the depositions in
that Ms. Lee did not know Defendant was sleeping with Darren Lee.
Even had trial counsel somehow been able to introduce the information that Darren Lee
was sleeping with Defendant to call into question Ms. Lee's motive for testifying, there is no
reasonable probability that the outcome of this case would have been different. As the Florida
Supreme Court has previously found, "[t]he record provides more than sufficient evidence to
support Brown's conviction for the first-degree murder of Audreanna Zimmerman."47 The
evidence at trial showed that Defendant lured the victim to her home under false pretenses, and
with the assistance of Heather Lee and Britnee Miller, Defendant stunned, beat, and kidnapped
the victim, and then transported her to a clearing in the woods where Defendant and Miller
continued to beat and stun the victim. Eventually, the victim was doused with a canister of
gasoline and she was set on fire. Before she died, the victim walked to a local residence and
identified Defendant, Britnee Miller, and Heather Lee as her attackers. 48 It is undisputed that
Defendant's DNA was found on the handle of the stun gun used in the crime; the victim's blood
was found on the headrest in Defendant's vehicle, and an orange, gold, and black hairweave that
matched Defendant's hair the night of the incident was found in the clearing. It appeared to be
the missing section of Defendant's hairweave from the back of her head. 49 With this convincing
evidence, there is no reasonable probability that Defendant would not have been convicted of
47

See Brown v. State, 143 So. 3d 392,407 (2014).

48

See Brown v. State, 143 So. 3d 392,407 (2014).

49

See Brown v. State, 143 So. 3d 392, 397 (2014).

Page 42 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5245

App.078

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

first-degree murder if trial counsel had questioned Ms. Lee about her husband sleeping with
Defendant. Defendant is not entitled to relief as to this claim.

i. Darren Lee's Affair with the Victim
Defendant next alleges that trial counsel was ineffective in failing to cross-examine
Heather Lee about the "true nature" of her relationship with the victim. During trial, Ms. Lee
testified that she and the victim were "real close friends." Defendant alleges that this testimony
could have been impeached by two facts: 1) Heather Lee accused the victim of having an affair
with her husband, Darren Lee, and 2) Darren Lee admitted in his deposition testimony he was,
indeed, sleeping with the victim. Defendant alleges that, according to Terrance Woods'
deposition testimony, Ms. Lee and the victim got into a physical fight because two days before
the incident Ms. Lee confronted the victim about sleeping with her husband. Defendant contends
that Ms. Lee was never challenged with "the fact that her statements were not credible in light of
the antagonistic relationship between herself and the victim."
An evidentiary hearing was held regarding this claim. At evidentiary hearing, trial

counsel indicated he was aware that '"Ms. Heather Lee had some type of issue with Ms.
Zimmerman having a relationship with her husband." 50 Darren Lee and Terrance Woods both
testified that Darren Lee was sleeping with the victim, Ms. Lee found out about it, and as a
result, she got into a physical fight with the victim a couple of days before the incident. 51
However, even if counsel had called Darren Lee and Terrance Woods to testify at trial regarding
the affair and the physical altercation, this testimony would have done little to impeach Ms.
Lee's trial testimony about Ms. Lee and the victim being "real close friends." As Defendant has
50

See Transcript, Evidentiary Hearing, p. 28.

51

See Transcript, Evidentiary Hearing, pp. 87-88; 404-406.

Page 43 of 110

Tina lasonva Brown. Case No. 2010-CF-1608A

5246

App.079

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

failed to show that counsel was deficient or Defendant was prejudiced by counsel's failure to
attempt to impeach Ms. Lee's testimony regarding the "true nature" of her relationship with the
victim, Defendant is not entitled to relief as to this portion of the claim.

k. Darren Lee's Deposition Testimony- Gas Can and Crowbar
Defendant next alleges Darren Lee made several statements incriminating Heather Lee in
the victim's murder, but counsel failed to question Ms. Lee regarding these topics. Specifically,
Defendant alleges that Darren Lee testified at deposition that the crowbar and gas can used in the
crime belonged to him. In support of this claim, Defendant references Darren Lee's purported
confirmation that the police found "male fingerprints" on the crowbar and that the fingerprints
were his. Defendant claims that because counsel did not question Ms. Lee about this evidence,
the jury never heard that the murder weapon came directly from Ms. Lee's house.
Defendant's claim is facially insufficient for failing to allege proper, specific prejudice.
Regardless, an evidentiary hearing was scheduled for this claim. Although both Heather Lee and
Mr. Gontarek testified at evidentiary hearing, neither witness was asked questions regarding this
subclaim. As to Darren Lee, he testified as follows on the topic of the gas used in the crime:

Page 44 of 110

Q.

[By Postconviction Defense Counsel]: Okay. Did she say
anything - did Heather Lee say anything at that time in
regards to where the gas came from?

A.

[By Darren Lee]: No, not really. I know that- I know
that it came from the gas station.

Q.

The gas station?

A.

Uh-huh.

Q.

Did she say when she got it at the gas station?

A.

Before they went to the curve, I guess.
Tina Lasonya Brown. Case No. 2010-CF-1608A

5247

App.080

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Q.

Before they went to the-the woods?

A.

Yeah.

52

Darren Lee's evidentiary hearing testimony that Heather Lee did not tell him where the
gas came from, but he guessed it came from a gas station before they went to the woods is hardly
a revelation. Darren Lee was not asked about the gas can or the crowbar at evidentiary hearing.
Additionally, Defendant's claim is refuted by Darren Lee's deposition itself. Contrary to
Defendant's allegations, Darren Lee never stated the crowbar and gas can came from his and
Heather Lee's home. In regard to the crowbar, the evidence does not even show that the
fingerprints in question were Darren Lee's. The deposition provides that the officers found some
"male fingerprints" on the crowbar, the officers questioned Darren Lee and took his fingerprints,
and then Darren Lee never heard anything more about the crowbar.

53

Darren Lee was asked

during deposition, "So you assume that those fingerprints didn't match yours?" To which
Darren Lee responded, "I know they didn't match mine. I was asleep." 54
In regard to the gas can, Darren Lee admitted that there were two gas cans on his porch;55
however, this testimony does nothing to establish that one of those gas cans was actually used in
the crime. According to Darren Lee's deposition, before the gas cans were confiscated by the
police, Darren Lee never noticed them being missing; he affirmatively testified '"they was right
there. " 56 Defendant is not entitled to relief as to this claim.

52

See Transcript, Evidentiary Hearing, p. 90 (emphasis added).

53

See Defendant's Evidentiary Hearing Exhibit #5, pp. 7-8; 23.

54

See Defendant's Evidentiary Hearing Exhibit #5, p. 8.

55

See Defendant's Evidentiary Hearing Exhibit #5, p. 34.

56

See Defendant's Evidentiary Hearing Exhibit #5, p. 42.

Page 45 of Il0

Tina Lasonya Brown. Case No. 2010-CF-1608A

5248

App.081

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

I. Returning to Scene ofthe Crime
Defendant next alleges that counsel failed to cross-examine Ms. Lee about "returning to
the scene of the crime" with Defendant. Specifically, Defendant alleges that during Ms. Lee's
deposition she testified that she went with Defendant to the house where the victim went
immediately after being burned. Defendant asserts that counsel never questioned Ms. Lee about
why she went to the house and what she said to Terrance Hedrick, the person who found the
victim. Defendant contends that counsel also failed to ask about Terrance Hedrick's friendship
with Heather Lee's cousin, Eric, to whom Hedrick allegedly divulged facts about the crime.
This claim is facially insufficient for failure to allege specific, proper prejudice.
Although this claim was set for evidentiary hearing, Defendant failed to present any testimonial
evidence to support this claim. While Defendant did introduce into evidence Ms. Lee's
deposition, Defendant has failed to address this issue with trial counsel or any other witnesses
called at the evidentiary hearing. At deposition, Ms. Lee stated that it was Defendant who
wanted to question Terrance Hedrick about what the victim told him about the crime. 57 The
Court notes that questioning Ms. Lee regarding this issue might have served to further
incriminate Defendant. Defendant has failed to show or allege how counsel was deficient or how
Defendant was prejudiced by not introducing this evidence during the cross-examination of Ms.
Lee. Defendant is not entitled to relief as to this claim.
2. Corie Doyle
Defendant also alleges that counsel failed to cross-examine Ms. Doyle about a) the "lime
green jumpsuit" conversation with Defendant; b) televised news reports about the murder; c) Ms.

57

See Defendant's Evidentiary Hearing Exhibit #8, pp. 41-42.

Page 46 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5249

App.082

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Doyle's trial testimony that she had "never laid eyes on" Ms. Lee before her conversation with
Defendant; d) whether Ms. Lee and Defendant had the same color jumpsuit while housed at the
Escambia County Jail; e) her friendship with Ms. Lee; and t) her statement that Defendant told
her Britnee Miller caught herself on fire during the incident.
a. Corie Dovie - Lime Green Jumpsuit
Defendant alleges that counsel should have cross-examined Corie Doyle regarding her
"lime green jumpsuit" conversation with Defendant. At trial, Corie Doyle testified that she first
noticed Defendant because she was wearing a "lime green" jumpsuit as opposed to a "dark
green" jumpsuit like the other inmates. Corie Doyle testified at trial that she asked Defendant
why her jumpsuit was a different color. 58 However, Defendant asserts that Corie Doyle's taped
statement shows Corie Doyle already knew what the lime green jumpsuit meant because she told
the investigator Defendant was wearing a different colored jumpsuit because "she had done
something bad." Defendant contends that counsel should have questioned Corie Doyle regarding
this inconsistency.
This subclaim is facially insufficient for failing to allege specific, proper prejudice.
However, an evidentiary hearing was scheduled regarding this claim. Defendant did not present
any testimonial evidence to substantiate these allegations. Additionally, Defendant failed to
submit into evidence Corie Doyle's taped statement. Consequently, the Court finds that this
claim is abandoned and summarily denied ..Ferrell v. State, 29 So. 3d 959, 977 (Fla. 2010)
(capital postconviction claim must fail when Defendant fails to present evidence at evidentiary
hearing to support claim).

58

See Attachment l, Transcript, Trial, p. 606.

Page 47 of I JO

Tina Lasonya Brown. Case No. 20!0-CF-!608A

5250

App.083

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

b. Corie Doyle -Viewing News Reports regarding Murder
Defendant next alleges that even though Corie Doyle admitted during her June 6, 2012
deposition to seeing televised news reports regarding the murder, trial counsel never questioned
her about this fact.
This subclaim is facially insufficient for failing to allege specific, proper prejudice. The
entirety of this claim was scheduled for evidentiary hearing. Defendant failed to present any
testimonial evidence to support this claim. Defendant did not even call Corie Doyle as a witness
at the evidentiary hearing.
While Defendant did submit into evidence Corie Doyle's deposition transcript showing
that she had seen something on the news about the incident, Defendant has failed to allege or
demonstrate that this information would have made any difference at trial. A review of the
deposition shows that all Corie Doyle saw on the news was "there was a girl that was lit on fire
and that she was taken by helicopter and that before she died she said the girls' names." 59 Corie
Doyle elaborated further that she never heard the names of the people; the names were not

°

released. 6 Corie Doyle's deposition testimony on this topic only seems to support a conclusion
that she learned the details of the murder from Defendant and not the news. 61 Defendant has
failed to show that counsel was deficient or that Defendant was prejudiced by counsel's failure to
highlight this information for the jury. Defendant is not entitled to relief regarding this subclaim.

59

See Defendant's Evidentiary Hearing Exhibit #6, p. 29.

60

See Defendant's Evidentiary Hearing Exhibit #6, p. 30.

61

See Defendant's Evidentiary Hearing Exhibit #6, pp. 13-15; 29-30.

Page 48 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5251

App.084

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

c. Corie Doyle-"Never Laid Eyes" on Heather Lee
Defendant next alleges that counsel should have questioned Corie Doyle about her
statement that, prior to her conversation with Defendant, she had "never laid eyes" on Heather
Lee. Defendant contends that jail movement records from the Escambia County Jail show that
for a period of time in July 2011, Corie Doyle was housed in the same dorm as Heather Lee.
Corie Doyle was not moved to Defendant's dorm until October 2011.
This subclaim is facially insufficient for failing to allege specific, proper prejudice.
Regardless, the entirety of this claim was scheduled for evidentiary hearing. At evidentiary
hearing, trial counsel testified that he "guess[ed]" jail records that reflected Corie Doyle was
housed with Heather Lee before she was housed with Tina Brown might have been helpful in
attacking Corie Doyle's credibility. 62 Corie Doyle was not called as a witness at the evidentiary
hearing.
Even if Defendant's claim were facially sufficient, this claim would still fail. The
Escambia County Jail movement records show that, near the beginning of her incarceration,
Corie Doyle was housed in the same dorm as Heather Lee for a total of five days before Doyle
was moved to a different dorm. 63 According to Corie Doyle's deposition testimony, there are
approximately 90 women housed in each dorm. 64 Based on this information, it is more than
probable that in those few days, Corie Doyle might not have known who Heather Lee was or
have noticed her before being transported. Without Corie Doyle's evidentiary hearing testimony,

62

See Transcript, Evidentiary Hearing, pp. 30-31.

63

Corie Doyle was housed in 4 West at the same time as Heather Lee from July 18, 2011, through July 22, 2011.
See Defendant's Evidentiary Hearing Exhibit #18B, pp. 1-2 of"Doyle, Corie Kendall Movement Record" and p. 8
of"Lee, Heather Trinee Movement Record."
64

See Defendant's Evidentiary Hearing Exhibit #6, pp. 6-7.

Page 49 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5252

App.085

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

this Court can only speculate as to whether Corie Doyle's trial testimony might have been
impeached regarding her having "never laid eyes" on Heather Lee before she met Tina Brown.
Defendant has failed to submit the necessary evidence to support her claim. As such, Defendant
has failed to show or allege how counsel was deficient or Defendant was prejudiced by counsel's
failure to further question Corie Doyle about knowing Heather Lee. This claim is summarily
denied.
d. Corie Doyle - More than One Lime Green Jumpsuit

Defendant next alleges that trial counsel failed to question Corie Doyle about a
"contradiction" in her deposition and trial testimony regarding the lime green jumpsuits.
Defendant asserts that during Corie Doyle's deposition and trial testimony she was adamant that
the only reason she initiated any contact with Defendant was because Defendant's jumpsuit was
"lime green," a different color than that worn by the rest of the inmates. However, during Corie
Doyle's deposition, she also indicated that Heather Lee was wearing a "lime green" jumpsuit.
Defendant claims that if Defendant's lime green jumpsuit was so "eye-catching and distinct,"
then Heather Lee's lime green jumpsuit should have stood out to Corie Doyle in July 2011, prior
to her ever meeting Defendant.
This subclaim is facially insufficient for failing to allege specific, proper prejudice. The
entirety of this claim was scheduled for evidentiary hearing. Defendant failed to present any
testimonial evidence in support of this claim. While the Defendant did submit into evidence
Corie Doyle's deposition testimony, Defendant failed to question trial counsel or any other
witnesses about this subclaim. Defendant's allegation is based on pure speculation that Corie
Doyle must have noticed Heather Lee's lime green jumpsuit in the short time span in which she

Page 50 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5253

App.086

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

was housed in the same dorm as Heather Lee. The evidence before this Court shows that Corie
Doyle first become incarcerated at the Escambia County Jail on July 14, 2011, and was in the
same dorm as Ms. Lee for only five days before being moved to another dorm. 65 Defendant has
failed to submit any evidence in support of her conclusory and speculative claim that Corie
Doyle had to have noticed Heather Lee in a lime green jumpsuit before she noticed Defendant in
October 2011. Additionally, Defendant has failed to allege how, even if Corie Doyle had noticed
Heather Lee previously, this fact would have made a difference at Defendant's trial. Defendant
is not entitled to relief as to this claim.

e. Corie Doyle -Friendship with Heather Lee
Defendant further alleges that counsel failed to adequately cross-examine Corie Doyle
regarding her friendship with Heather Lee. In support of this allegation, Defendant references a
single statement in Corie Doyle's deposition in which Corie Doyle called Heather Lee by her
nickname, "Hetty." Defendant surmises that "[o ]ne does not usually refer to another by their
nickname unless they are acquainted with each other." Defendant asserts that "[c]ounsel failed
to bring out this relationship between Lee and Doyle as a means of cross-examination into the
veracity of Doyle's testimony."
This subclaim is facially insufficient, as it is conclusory and has no evidentiary support.
The entirety of this claim was set for evidentiary hearing; however, Defendant has presented no
testimonial evidence to support this subclaim. While Defendant introduced into evidence Corie
Doyle's deposition transcript, the transcript does nothing to substantiate Defendant's speculative
claim.
65

See Defendant's Evidentiary Hearing Exhibit #6, p. 6; and Defendant's Evidentiary Hearing Exhibit #18B, p. 1
of"Doyle, Corie Kendall Movement Record."
Page 51 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5254

App.087

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

During deposition, Corie Doyle testified as follows regarding who Defendant told her
was present during the incident:
Q.

[By Attorney Gontarek]: Anyone else?

A.

[By Corie Doyle]: And she [Defendant] said- I asked her,
I said, Well, what does this other girl have to do with it?
And she was like, Well, she was there, but she didn't have
anything to do with it. She didn't have a choice but to be
there.

Q

Now you are talking about -

A.

- Heather Lee.

Q.

-Heather Lee? You're saying Heather Lee didn't have a
choice to be there?

A.

She said Heather Lee- she said Hetty, Heather Lee, was
there but didn't have anything to do with it. She didn't
have a choice but to be there.

Q.

Did you know Heather Lee before you met Tina?

A.

I never met Heather Lee until I moved to 4 West, and I
went to 4 East before I went to 4 West.

Q.

Okay. So you didn't know who Heather Lee was before
you talked to Tina Brown?

A.

Uh-uh. But when I walked over there, I saw her in lime
green. I knew it was her. It's a different color jumpsuit.

Q.

Was she the only one there with lime green?

A.

Uh-huh. 66

If anything, the transcript could just as easily be interpreted as Defendant calling Heather Lee

"Hetty" when relaying the events to Corie Doyle. Even if Corie Doyle had actually called

66

See Defendant's Evidentiary Hearing Exhibit #6, pp. 13-14 (emphasis added).

Page 52 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5255

App.088

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Heather Lee "Hetty" at one point during her deposition, this does nothing to establish that Corie
Doyle had a friendship with Heather Lee. As admitted by Corie Doyle, she was eventually
housed with Heather Lee before giving this deposition. At most, the deposition could suggest
that Corie Doyle became acquainted with Heather Lee and her nickname while she was
incarcerated at the Escambia County Jail, not that she had a friendship with Heather Lee.

67

This

claim is summarily denied.

f.

Corie Doyle - Britnee Miller on Fire

Defendant also alleges that counsel should have cross-examined Corie Doyle regarding
her deposition testimony that Britnee Miller accidently set herself on fire during the incident.
Specifically, Corie Doyle testified during her deposition:
A.

[By Corie Doyle]: And she [Defendant] didn't give me
drastic details, but she did tell me that her daughter was so
screwed up that she caught herself on fire.

Q.

[By Attorney Gontarek]: She told you that her daughter
was so screwed up that she caught herself on fire?

A.

Yeah. When she caught that girl on fire, she said that - she
giggled about it, and she was like, As funny as it sounds,
my daughter was so screwed up, that she accidently caught
herself on fire.

Q.

Did she say anything about how her daughter was injured?

A.

No.

Q.

Okay. Did she say what she did in any way?

A.

That they beat the girl with a tire iron and tased her and
caught her on fire.

67

The Court notes that several witnesses testified at the evidentiary hearing that Heather Lee's nickname in prison
was "Cocoa."

Page 53of110

Tina Lasonya Brown Case No. 2010-CF-1608A

5256

App.089

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Q.

Now, who is "they"?

A.

Her and her daughter. 68

Defendant claims that if counsel had "bothered" to cross-examine Corie Doyle at trial on
this topic, he would have been able to argue in closing argument that Corie Doyle's testimony
was unreliable because there was no physical evidence to support the claim that Britnee Miller
caught herself on fire. Defendant further asserts that counsel would have also been able to argue
that Corie Doyle "concocted" this detail based on the information she had seen on the news
about the murder.
Initially, this subclaim is facially insufficient for failing to allege specific, proper
prejudice. Even though this claim was scheduled for evidentiary hearing, Defendant did not
present any testimonial evidence regarding this subclaim. Defendant did submit Corie Doyle's
deposition into evidence at the hearing by stipulation, but none of the witnesses, including trial
counsel, were questioned regarding the substance of the deposition testimony.
While trial counsel could have argued that Corie Doyle's testimony was unreliable based
on this information, Defendant has failed to show that the results of her trial would have been
any different considering the strong evidence of guilt presented in this case. Additionally,
Defendant's claim that trial counsel could have argued Corie Doyle had "concocted" this detail
based on what she heard on the news is not supported by the evidence. According to Corie
Doyle's deposition testimony, the news reports she saw only detailed that the victim had been set
on fire, not who did it or any of the other details of the crime. Defendant has presented no other
evidence to indicate the news reports viewed by Corie Doyle gave any further details of the

68

See Defendant's Evidentiary Hearing Exhibit #6, p. 13.

Page 54 of I JO

Tina Lasonya Brown Case No. 2010-CF-/608A

5257

App.090

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

crime. Although the information regarding Britnee Miller catching on fire might have been
incorrect, the fact that Corie Doyle knew the details of the beating and the tasing, without proof
that she saw any news reports regarding the details of the crime, makes her testimony that much
more powerful. Defendant is not entitled to relief as to this claim.
3. Pamela Valley

Defendant further alleges that counsel failed to cross-examine Ms. Valley about: a) the
compensation she received from the State Attorney to testify and the compensation Ms. Valley's
daughter received to testify in Britnee Miller's case; and b) her trial testimony that Defendant
asked her to "finish off' the victim.
Defendant failed to call Pamela Valley at evidentiary hearing to substantiate this claim.
There is no evidence that has been submitted that shows Ms. Valley or Ms. Valley's daughter
received money from the State Attorney in exchange for their testimony. Additionally, as
detailed previously in this order, counsel did cross-examine Ms. Valley about the fact that she
did not initially tell law enforcement Defendant had asked her to "finish off' the victim. 69 As
Defendant has failed to submit any evidence to support this portion of the claim, it must fail.
Ferrell v. State, 29 So. 3d 959, 977 (Fla. 2010) (capital postconviction claim must fail when
Defendant fails to present evidence at evidentiary hearing to support claim). This claim is
summarily denied.

69

See Attachment 1, Transcript, Trial, pp. 574-575.

Page 55 of IJO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5258

App.091

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Claim 2C: Counsel Failed to Request Richardson Hearing and Move for Mistrial
Defendant alleges that upon hearing Ms. Valley's trial testimony about Defendant's
request to "finish off' the victim, counsel should have immediately moved for a Richardson 70
hearing and for a mistrial as that statement was never provided to the defense during discovery.
At evidentiary hearing, Mr. Gontarek testified he was not surprised by this trial
testimony, as Ms. Lee testified during her deposition and her recorded statement that Defendant
asked Pamela Valley to "finish off' the victim. 71 Mr. Gontarek confirmed that this alleged
statement was something the attorneys were all aware of before trial. 72 As there was no
discovery violation, there was no basis for counsel to request a Richardson hearing. Mr.
Gontarek cannot be found ineffective for failing to file a baseless motion with the Court. See
Hitchcock v. State. 991 So. 2d 337, 361 (Fla. 2008). Defendant is not entitled to relief on this
claim.

Claim 2D: Counsel Failed to Argue that Wendy Moye's Testimony was Substantive and to
Obiect to the Special Jury Instruction Limiting her Testimony
Defendant's next allegation surrounds the alleged admissibility of Wendy Moye's trial
testimony as substantive evidence. Defendant alleges that during her deposition testimony,
Wendy Moye indicated Heather Lee confessed she had attacked the victim because the victim
had been sleeping with her husband. At trial, Wendy Moye testified that Ms. Lee told her it was
actually Heather Lee, and not Defendant, who lit the victim on fire. 73 Immediately before the
defense presented Ms. Moye's trial testimony, the State asked for a special jury instruction,
70

Richardson v. State, 246 So. 2d 771 (Fla. 1971).

71

See Transcript, Evidentiary Hearing, pp.57-58.

72

See Transcript, Evidentiary Hearing, p. 58.

73

See Attachment l, Transcript, Trial, pp. 639-640, 641.

Page 56 of 110

Tina Lasonya Brown, Case No. 2010-CF-1608A

5259

App.092

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

arguing that the testimony consisted of prior inconsistent statements of Ms. Lee and the
testimony should only be considered as impeachment evidence and not substantive evidence. 74
Defense counsel did not object and agreed to the jury instruction. 75
Defendant alleges that counsel should have argued that Wendy Moye's trial testimony
was admissible as substantive evidence pursuant to section 90.803(3), Florida Statutes, as it was
testimony regarding an existing mental, emotional, or physical condition. Specifically,
Defendant alleges that Ms. Lee's statement to Ms. Moye goes to prove her intent, plan, motive,
and design to murder the victim because the victim was sleeping with Ms. Lee's husband.
While Defendant alleges that she was prejudiced because Wendy Moye's testimony was
not considered substantive evidence at trial, Defendant never alleges how this evidence would
have changed the results of her trial if it had been considered substantive evidence by the jury.
Consequently, this claim is facially insufficient. Arguendo, even if it were not facially
insufficient, Defendant would still not be entitled to relief. Wendy Moye did not testify at trial
regarding Ms. Lee's state of mind, emotion, or physical sensation. The record shows that Ms.
Moye's trial testimony did not include any statements regarding Ms. Lee's husband sleeping
with the victim, or Ms. Lee's emotions on that topic as it relates to the crime. 76 Consequently,
any objection made by defense counsel on the basis of section 90.803(3), Florida Statutes, would
have been meritless. Defendant is not entitled to relief as to this claim.

74

See Attachment 1, Transcript, Trial, p. 634.

75

See Attachment 1, Transcript, Trial, pp. 634-635.

76

See Attachment 1, Transcript, Trial, pp. 636-646. Even if the trial testimony had included information about
Heather Lee's state of mind at the time of the crime, the state of mind exception to hearsay would not apply in these
circumstances as the statement would be an after-the-fact statement of memory or belief. See§ 90.803(3)(b), Fla.
Stat.
Page 57 of I JO

Tina Lasonya Brown. Case No. 20l0-CF-1608A

5260

App.093

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Claim 2E: Counsel Failed to Call Terrance Woods as a Witness
Defendant next alleges that counsel was ineffective for failing to call Terrance Woods as
a witness. Defendant contends that "central to Ms. Brown's defense, was the theory that the
State's key witness, Heather Lee, lied about the extent to which both her and Ms. Brown
participated in bringing about Ms. Zimmerman's death. Despite this being the defense's theory,
counsel failed to impeach Heather Lee's testimony through the testimony of Terrance Woods."
Defendant details Terrance Woods' deposition testimony pertinent to this claim. During his
deposition, Mr. Woods indicated the following:

•

Two days before the murder, Heather Lee got into a physical altercation with the
victim because she found out the victim was sleeping with Darren Lee. After the
altercation, Ms. Lee returned to her residence where Mr. Woods was present and he
heard Ms. Lee say, "I'm going to kill that bitch."

•

Darren Lee told him that Heather Lee had confessed "she had killed the girl."
Heather Lee also told Terrance Woods "she had killed the girl."

•

Heather Lee told Terrance Woods that she was the one who poured the gasoline on
the victim and "lit" her.

•

Sometime after the incident, Terrance Woods was over at the Lees' trailer playing
Xbox games when Heather Lee and Darren Lee got into an argument. During this
argument, Heather Lee yelled, "Well, you won't be fucking your little bitch no more,
we beat her up and poured gas on her and set her on fire."

Defendant alleges that Terrance Woods' testimony would have 1) "refuted the State's
theory that Heather Lee was less culpable by rebutting Lee's testimony that it was Ms. Brown

Page 58 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5261

App.094

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

who poured gas on the victim and set her on fire"; 2) "refuted the State's theory that only Ms.
Brown had a motive in this case"; 3) given the jury a reason to reject the State's theory of
premeditated murder; 4) provided evidence for the trial judge to find by a preponderance the
statutory mitigating circumstance of "defendant was an accomplice to the offense and was a
relatively minor participant in the criminal conduct"; 77 and 5) provided evidence for the jury to
consider said statutory mitigators when making its sentencing recommendation to the trial court.
An evidentiary hearing was convened regarding this claim. Trial counsel testified at
evidentiary hearing that he did not remember Terrance Woods. 78 When presented with some of
the information included in Terrance Woods' deposition and asked whether he thought he could
have used the deposition testimony to challenge the State's theory of the case, trial counsel
responded, "Unless I didn't believe him." 79 On cross-examination, trial counsel confirmed that if
Terrance Woods had written six letters to the State Attorney's office "practically begging to be a
witness," he would not have thought Terrance Woods' testimony would be helpful at trial. 80
Trial counsel further confirmed that he would not have thought Terrance Woods' testimony
would help Defendant if, in his deposition, the facts were not consistent with the evidence at
trial. 81 Trial counsel also confirmed that ifhe knew Terrance Woods had been convicted of
several felonies and was sentenced to twenty-six and a half years in federal prison, he would not
have thought Terrance Woods' trial testimony would have been helpful to Defendant. 82

77

See § 921.0026, Fla. Stat.

78

See Transcript, Evidentiary Hearing, pp. 44-45.

79

See Transcript, Evidentiary Hearing, p. 45.

80

See Transcript, Evidentiary Hearing, p. 59.

81

See Transcript, Evidentiary Hearing, p. 59.

82

See Transcript, Evidentiary Hearing, pp. 59-60.

Page 59 of I IO

Tina Lasonya Brown. Case No. 20IO-CF-1608A

5262

App.095

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Terrance Woods also testified at evidentiary hearing. Terrance Woods indicated that he
had been convicted of a felony seven times, 83 but he also testified consistently with the pertinent
parts of his deposition testimony. 84 When asked why he did not go to the authorities earlier with
the information about Heather Lee, Terrance Woods indicated that at the time of the attack on
the victim, 85 he had approximately seven warrants out for his arrest. 86 According to Terrance
Woods' evidentiary hearing testimony, he was taken into custody on April 1, 2010, and was later
"picked up" by the "feds" in July of that year. 87 Terrance Woods testified that he was in custody
on federal charges at the time he gave a recorded statement and a deposition in this case. 88 He
also confirmed that he wrote six letters to the State, trying to become a witness in this case. 89
Mr. Woods further confirmed that when he spoke to an investigator with the State Attorney's
office in 2018, he again asked ifhe would be receiving a benefit for his testimony. 90 Mr. Woods
was hoping to get some kind of substantial assistance benefit regarding his federal charges by
testifying at trial for the State. Mr. Woods candidly admitted to "almost begging to be a witness"

83

See Transcript, Evidentiary Hearing, p. 403.

84

See Transcript, Evidentiary Hearing, pp. 404-406. Admittedly, during his 2011 deposition testimony Terrance
Woods indicated that Heather Lee told him that her cousins were also involved in the incident. Terrance Woods
explained at evidentiary hearing that he said this during deposition because this was the information Heather Lee
told him initially. See Transcript, Evidentiary Hearing, p. 429. As Heather Lee has given varying accounts of who
was involved in the attack on the victim, the Court does not find this inconsistency to be material. Additionally, this
portion of Terrance Woods' deposition testimony does not go to the central issues this Court is addressing in this
claim.
85
Terrance Woods has consistently yet incorrectly testified that the victim in this case died in late March, close in
time to the attack. At evidentiary hearing, he indicated that he thought the victim died a couple of hours after she
was taken to the hospital. See Transcript, Evidentiary Hearing, p. 409.
86

See Transcript, Evidentiary Hearing, pp. 410-411.

87

See Transcript, Evidentiary Hearing, p. 410.

88

See Transcript, Evidentiary Hearing, p. 406.

89

See Transcript, Evidentiary Hearing, pp. 411-415.

90

See Transcript, Evidentiary Hearing, p. 415.

Page 60 of 110

Tina Lasonya Brown. Case No. 20I0-CF-1608A

5263

App.096

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

in this case because "I wanted out of prison, 26-and-halfyears, who wouldn't?"91 In fact, it was
revealed at evidentiary hearing that Terrance Woods was no longer in federal custody because he
had testified in other cases. 92 However, Terrance Woods indicated that if Defendant had
subpoenaed him to testify at trial, he would have testified for the defense without receiving a
benefit; in fact, that is what he was doing by testifying at the postconviction evidentiary
hearing. 93
Terrance Woods also testified regarding the recorded statement he gave by telephone in
January 2018 while incarcerated at a maximum security federal penitentiary. Terrance Woods
acknowledged that he did not feel he could talk freely when giving the statement because
inmates have been killed for being witnesses in cases. A guard was in the room with Terrance
Woods during the statement, and he did not trust that the guard would not tell someone else of
the contents of the conversation. 94 According to what was presented at evidentiary hearing, 95
Terrance Woods testified inconsistently in 2018 from his other statements in that in 2018, he
indicated that Heather Lee never said which of the three women poured the gasoline on the
victim and lit her on fire. 96 At evidentiary hearing, Terrance Woods vigorously insisted he felt
his life was in danger if it got out that he might be a testifying witness in a case. 97

91

See Transcript, Evidentiary Hearing, p. 415.

92

See Transcript, Evidentiary Hearing, pp. 402; 415-416.

93

See Transcript, Evidentiary Hearing, pp. 406-407.

94

See Transcript, Evidentiary Hearing, pp. 407-408; 416-424.

95

Although Terrance Woods' 2018 telephonic statement was referenced during the evidentiary hearing, it was
never entered into evidence at the hearing. Consequently, the Court is unable to review the actual statement.
Additionally, Terrance Woods' affidavit regarding the circumstances of the 2018 telephonic statement was
referenced during evidentiary hearing but was not entered into evidence at the evidentiary hearing.
96

See Transcript, Evidentiary Hearing, pp. 424-426.

97

See Transcript, Evidentiary Hearing, pp. 416-423.

Page 61 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-/608A

5264

App.097

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

1. Defendant Less Culpable than Heather Lee

Defendant first alleges that Terrance Woods' testimony would have "refuted the State's
theory that Heather Lee was less culpable by rebutting Lee's testimony that it was Ms. Brown
who poured gas on the victim and set her on fire." Defendant is simply incorrect. Based on
Terrance Woods' evidentiary hearing testimony, this Court is convinced that if Terrance Woods
would have been called as a witness at trial, he would have testified that Heather Lee admitted to
pouring the gasoline and lighting the victim on fire. However, this evidence was already
presented to the jury through the trial testimony of Wendy Moye, albeit as impeachment
evidence. Even with this evidence, Defendant was found guilty of first-degree murder. As
detailed previously in this Order, the evidence in this case was very strong against Defendant,
even if Heather Lee did indeed pour the gasoline and light the victim on fire. Defendant has
failed to demonstrate that the results of her trial would have been different if Terrance Woods'
testimony would have been presented on this issue and she is not entitled to relief.
2. Only Defendant had Motive

Defendant next alleges that Terrance Woods' testimony would have "refuted the State's
theory that only Ms. Brown had a motive in this case." While proof of motive is not required, at
trial the State presented evidence that Defendant was motivated to attack the victim based on an
argument in which the victim threatened to tase Britnee Miller. The record shows that this was
the only evidence of motive presented in this case.
Contrary to the State's argument, Terrance Woods' testimony that the victim was having
an affair with Heather Lee's husband and Heather Lee discovered the affair two days before the
attack on the victim, is not cumulative to any other evidence that was presented at trial. The

Page 62 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5265

App.098

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Court is cognizant of the fact that Mr. Woods was "practically begging" the State to be a witness
regarding this case, and he is now out of federal custody on a twenty-six year-plus sentence
because he has testified in other matters. However, this Court cannot ignore the fact that
Terrance Woods' testimony has never wavered on the topic of the affair, Heather Lee's
discovery of the affair, and her reactions to the affair. 98 Counsel gave no good reason at
evidentiary hearing why he did not call Terrance Woods as a witness. While trial counsel
indicated he would not have called Terrance Woods "ifhe thought he were lying," this reason is
not sufficient under these circumstances. Short of counsel having actual knowledge that
Terrance Woods was lying, the stakes were simply too high for counsel not to call Terrance
Woods as a witness. Considering the fact that Defendant was facing the death penalty, this Court
finds that trial counsel was deficient in not presenting Terrance Woods' testimony regarding
Heather Lee's motive in this case.
This Court must now consider whether Terrance Woods' testimony on this topic would
have changed the results of the verdict. As detailed previously, the evidence in this case strongly
supports the jury's verdict of first-degree murder. The fact that Darren Lee and the victim were
having an affair, and Heather Lee's knowledge of such, still would not change the evidence
presented regarding Defendant's participation in this crime. Even with Terrance Woods'
testimony regarding Heather Lee's motive, the Court finds that the evidence was too strong
against Defendant for the jury not to have returned a verdict of guilt for first-degree murder. As
Defendant has been unable to demonstrate that the results of her verdict would have been
different, Defendant is not entitled to relief as to this subclaim.

98

If Terrance Woods' statements have wavered on this point, it was not presented to this Court.

Page 63 of I 10

Tina Lasonya Brown. Case No. 2010-CF-1608A

5266

App.099

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

3. Rejection of Premeditated Murder Theory
Defendant contends that if Terrance Woods' testimony had been presented at trial, the jury
then would have had a reason to reject the State's theory of premeditated murder in this case.
However, Defendant neglects Mallory Azriel's trial testimony that Britnee Miller told her right
before the attack on the victim, "we are fixing to kill Audreanna." This evidence would not have
been refuted by Terrance Woods' testimony. This statement of the group's intent to kill the
victim before the attack began is enough to support a finding of premeditated murder.
For argument's sake, even if Terrance Woods' testimony regarding Heather Lee's admissions
and her knowledge of her husband's affair had somehow given the jury "a reason" to reject the
State's theory of premeditated murder, Defendant also ignores the fact that Defendant was not
charged only with premeditated first-degree murder, but in the alternative with felony murder.
Terrance Woods' testimony would do nothing to refute the evidence that the victim was also
kidnapped: The victim was tased multiple times, stuffed in the trunk of Defendant's vehicle, and
taken against her will to the wooded area, where the attack that eventually led to her death
occurred. Regardless of whether the jury found premeditation or that the murder was conducted
during the course of a felony, the jury's verdict of first-degree murder would have remained the
same. Defendant is not entitled to relief as this subclaim.
4. and 5. Consideration of Statutory Mitigator
Defendant also alleges that Terrance Woods' testimony would have provided evidence for
the trial judge to find by the preponderance of the evidence that a statutory mitigator existed.
Specifically, Defendant claims that the testimony would have shown that "defendant was an
accomplice to the offense and was a relatively minor participant in the criminal conduct."

Page 64 of 110

Tina Lasonya Brown, Case No. 2010-CF-1608A

5267

App.100

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant also asserts that the jury could have considered this statutory mitigator when making
its sentencing recommendation if Terrance Woods' testimony had been presented.
Defendant is not entitled to relief as to this claim. While Terrance Woods' trial testimony
could have formed a basis for the jury to believe Heather Lee was more involved in the crime
than what her testimony would suggest, it does nothing to change the fact that Defendant was
much more than an accomplice or a minor participant in the murder. Even if the jury had
discounted Heather Lee's testimony, the evidence at trial was that Defendant was very active in
the attack on the victim; in fact, it was Defendant who was the major aggressor against the
victim. Terrance Woods' testimony would simply not be enough for the court to find, or the jury
to consider, this statutory mitigator. Defendant is not entitled to relief as to this claim.

Claim 2F: Counsel Failed to Call Darren Lee as a Witness
Defendant further alleges that counsel was ineffective for failing to call Darren Lee as an
impeachment witness during the guilt phase of trial. Defendant alleges that if counsel had called
Darren Lee as a witness, he would have testified to the following: I) Heather Lee and her family
had a reputation for paying witnesses to influence the outcome of criminal cases; 2) two days
prior to the attack on the victim, Heather Lee told Darren Lee he wouldn't be sleeping with "that
bitch" anymore; 3) each of the weapons used in the commission of the crime had come from
Heather Lee's home; and 4) a few days after the attack, Heather Lee confessed to the crime.
Counsel asserts that if the jury had heard this evidence, it would not have found Defendant guilty
of first-degree murder. Defendant further contends that counsel's failure to call Darren Lee
prohibited the trial judge from finding that Defendant's participation was relatively minor

Page 65 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5268

App.101

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

compared to Heather Lee's participation, and prohibited the jury from considering this "weighty"
statutory mitigator in its recommendation to the court.
An evidentiary hearing was scheduled regarding the entirety of this claim.

1. Reputation for Paying Witnesses and Victims
Defendant alleges Darren Lee would have testified that Heather Lee and her family had a
reputation for paying witnesses and victims in criminal cases to not come forward, refuse to
testify, or to become non-cooperative with the State Attorney's Office. Defendant alleges that
this testimony would have refuted the contention that Defendant was the mastermind behind the
attack on the victim.
During the evidentiary hearing, Defendant failed to ask Darren Lee any questions about
Heather Lee's reputation for tampering with witnesses and victims. As no evidence was
presented on this issue, this portion of the claim must fail. Ferrell v. State, 29 So. 3d 959, 977
(Fla. 2010) (capital postconviction claim must fail when Defendant fails to present evidence at
evidentiary hearing to support claim).

2. Heather Lee's Statements Before the Murder
Defendant further alleges that Darren Lee would have testified that a few days prior to
the murder, Heather Lee walked into the Lees' residence while Terrance Woods was present and
told Mr. Lee he would not be sleeping with "that bitch" anymore - referencing the victim.
Trial counsel testified that he did not remember Darren Lee. 99 Trial counsel went on to
say that if Darren Lee had provided information that Heather Lee had confessed to Darren Lee

99

See Transcript, Evidentiary Hearing, p. 46.

Page 66 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5269

App.102

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

and Terrance Woods, he would not think this testimony would be helpful. 100 On crossexamination, trial counsel did not recall that Darren Lee had spoken to law enforcement multiple
times and had never mentioned anything about Heather Lee confessing. 101 Trial counsel further
confirmed that the fact that Darren Lee never told the police that Heather had confessed would
not have been helpful to Defendant at trial. 102
Darren Lee also testified regarding this issue at evidentiary hearing. Darren Lee admitted
that he was having an affair with the victim. 103 According to his evidentiary hearing, a couple of
days before the incident, Heather Lee and the victim were fighting. 104 Heather came inside after
the altercation and told Darren Lee in front of Terrance Woods that Darren Lee would not be
sleeping with "'that bitch" anymore. 105 Mr. Lee testified that Heather Lee was referring to the
victim Audreanna Zimmerman. 106
Darren Lee's deposition testimony was also submitted into evidence by stipulation. A
review of the deposition shows that even though Darren Lee testified to having an affair with the
victim, Darren Lee was instructed not to answer any questions about what Heather Lee told him.
As a result, there has been no evidence presented showing that Darren Lee ever testified
previously regarding any confession made by Heather Lee. Counsel cannot be ineffective in
failing to present Darren Lee as a witness on this issue when Darren Lee never made statements

100

See Transcript, Evidentiary Hearing, p. 46.

101

See Transcript, Evidentiary Hearing, p. 60.

102

See Transcript, Evidentiary Hearing, p. 60.

103

See Transcript, Evidentiary Hearing, p. 88.

104

See Transcript, Evidentiary Hearing, p. 87.

105

See Transcript, Evidentiary Hearing, p. 88.

106

See Transcript, Evidentiary Hearing, p. 88.

Page 67 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5270

App.103

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

prior to evidentiary hearing regarding Heather Lee's confession. Defendant is not entitled to
relief as to this subclaim.

3. Weapons Used During the Commission of the Crime
Defendant asserts that if called to testify at trial, Darren Lee would have testified that
each of the weapons used during the commission of the crime had come from the Lees' home.
Specifically, Defendant asserts that Heather Lee confessed to Darren Lee that she had taken Mr.
Lee's crowbar and the gas can from their porch and had driven to the gas station to fill up the gas
can.
Despite this claim being scheduled for evidentiary hearing, trial counsel was not
questioned regarding this subclaim. As to Darren Lee, the following testimony was elicited on
the topic of the gasoline used in the crime:

107

Q.

[By Dawn Macready]: Okay. Did she say anything-did
Heather Lee say anything at that time in regards to where
the gas came from?

A.

[By Darren Lee]: No, not really. I know that-I know
that it came from the gas station.

Q.

The gas station?

A.

Uh-huh.

Q.

Did she say when she got it at the gas station?

A.

Before they went to the curve, I guess.

Q.

Before they went to the-the woods?

A.

Yeah. 107

See Transcript, Evidentiary Hearing, p. 90 (emphasis added).

Page 68 of /JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5271

App.104

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Darren Lee's evidentiary hearing testimony that Heather Lee did not tell him where the gas came
from, but he "guessed" it came from a gas station before they went to the woods is far from
critical evidence. Darren Lee was not asked about the gas can or the crowbar at evidentiary
hearing.
However, Defendant's claim is refuted by Darren Lee's deposition itself. Contrary to
Defendant's allegations, Darren Lee never stated previously that the crowbar and gas can came
from his and Heather Lee's home. As there has been no evidence submitted that the crowbar and
gas can used in the crime came from the Lees' home, counsel cannot be found ineffective for
failing to present such evidence to the jury. Defendant is not entitled to relief as to this subclaim.
4. Heather Lee's Confession after Attack
Defendant further alleges that if counsel had called Darren Lee to testify, he would have
disclosed that Heather Lee told him she was the one who drove the vehicle into the wooded area
the night the victim was killed. Heather Lee also told Darren Lee, that once they were in the
woods, the victim was on her knees begging for her life and yelled to Heather Lee that Defendant
was also sleeping with Darren Lee. At that point, Heather Lee became irate and poured gas on
the victim and lit her on fire.
Defendant also alleges that if counsel had called Darren Lee to testify, he would have
verified that two or three days after the crime occurred, Heather Lee told Darren Lee in Terrance
Woods' presence that she had killed the victim and that Heather Lee "was not going to have that
bitch to sleep with anymore."

Page 69 of 1 JO

Tina Lasonya Brown Case No. 2010-CF-1608A

5272

App.105

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

At evidentiary hearing, Darren Lee offered no testimony regarding who was driving the
vehicle; however he testified consistently with the rest of these allegations. 108 Regardless of this
testimony at evidentiary hearing, Darren Lee's deposition shows he never made any statements
before trial regarding the information relayed to him by Heather Lee. As this information was
not available to trial counsel through Darren Lee's deposition testimony, and there has been no
evidence submitted to show that Darren Lee relayed this information in any other statements
prior to trial, counsel cannot be deemed deficient for failing to call Darren Lee to testify on this
topic at trial. Defendant is not entitled to relief as to this subclaim.
Claim 2G: Counsel Failed to Call Nicole Henderson as a Witness

Defendant also alleges that counsel was ineffective for failing to call Nicole Henderson
as a witness during the guilt phase of trial. Defendant contends that Ms. Henderson's trial
testimony would have established: 1) Heather Lee confessed to Nicole Henderson; and 2) Corie
Doyle's trial testimony could have been impeached by Nicole Henderson. Defendant alleges
that, much like Terrance Woods and Darren Lee, Nicole Henderson's testimony would have
supported the statutory mitigator that Defendant was an accomplice to the offense and was a
relatively minor participant in the crime. Defendant asserts if Ms. Henderson's testimony had
been presented at trial, there is a reasonable probability that Defendant's conviction and/or
sentence would have been different.
An evidentiary hearing was scheduled regarding the entirety of this claim.

108

See Transcript, Evidentiary Hearing, pp. 90-92.

Page 70 of JJ0

Tina Lasonya Brown. Case No. 2010-CF-1608A

5273

App.106

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

1. Heather Lee's Confession to Nicole Henderson
Contrary to Defendant's allegation, Heather Lee did not confess to Nicole Henderson.
Instead, Nicole Henderson testified at evidentiary hearing that she overheard Heather Lee talking
to a woman named Miracle Sanders about the murders while they were all housed at the
Escambia County Jail. 109 According to Nicole Henderson, Heather Lee told Ms. Sanders that
Lee was going home because she was blaming the murder on Defendant and Britnee Miller. 110
Additionally, according to Ms. Henderson's evidentiary hearing testimony, Heather Lee told Ms.
Sanders that she was going to get two girls who were doing juvenile time with Britnee Miller to
"say what they wanted her to say so that she can be able to get off." 111 Ms. Lee told Ms. Sanders
that the reason the murder happened was because Ms. Lee's boyfriend had gotten another lady
pregnant. 112 On cross-examination, Ms. Henderson admitted that it sounded like Heather Lee
was simply bragging, 113 and that Heather Lee did not tell her how she was going to contact the
juveniles at the juvenile detention center to get them to say what she wanted. 114
It is doubtful that Nicole Henderson's testimony would have been admissible regarding

the conversation she overheard between Ms. Lee and Ms. Sanders. Even if it were admissible as
an exception to hearsay, it would not have made a difference at trial. Ms. Henderson herself
admits that Heather Lee was bragging. There is no indication that Heather Lee even had the
ability to contact the juveniles at the facility to do her bidding. Additionally, if the victim had

109

See Transcript, Evidentiary Hearing, p. 103.

110

See Transcript, Evidentiary Hearing, p. 103.

111

See Transcript, Evidentiary Hearing, p. I 04.

112

See Transcript, Evidentiary Hearing, p. 104.

113

See Transcript, Evidentiary Hearing, p. 107.

114

See Transcript, Evidentiary Hearing, p. 108.

Page 71 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5274

App.107

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

been pregnant at the time of the murder, this information would have been presented at trial
through the medical examiner's testimony. No such evidence was presented at trial. More
importantly, trial counsel already presented the testimony of Wendy Moye at trial that Heather
Lee confessed to her. Wendy Moye's trial testimony was much more salient than that ofNicole
Henderson, who only overheard a conversation between Heather Lee and another inmate. Even
though Wendy Maye's testimony was entered as impeachment, this information was still
considered by the jury. Counsel was not deficient for failing to present Nicole Henderson's
testimony regarding Heather Lee's alleged confession.
2. Defendant's Sleeping Habits

Defendant also alleges that Nicole Henderson would have testified that Defendant slept all
day, thereby refuting Corie Doyle's testimony that Defendant confessed to Ms. Doyle when they
were up early one morning drinking coffee. At evidentiary hearing, Nicole Henderson testified
that she was aware of Defendant's habits at the Escambia County Jail. Ms. Henderson further
testified "she was always sleeping a lot." 115 Ms. Henderson explained that Defendant had to be
woken up by the guards for breakfast, and again for lunch. 116 However, Nicole Henderson
admitted that just because she did not see Defendant get up early in the morning, it was
"possible" Defendant might have gotten up early on occasion. 117
Nicole Henderson's testimony does nothing to refute Corie Doyle's trial testimony. By
Ms. Henderson's own admission, it is possible that Defendant might have gotten up early one
morning and had a conversation with Corie Doyle. Defendant has failed to show that trial

115

See Transcript, Evidentiary Hearing, p. 105.

116

See Transcript, Evidentiary Hearing, p. l 05.

117

See Transcript, Evidentiary Hearing, p. 107.

Page 72 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5275

App.108

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

counsel was deficient for not calling Nicole Henderson as a witness at trial, or that she was
prejudiced. She is not entitled to relief as to this claim.
3. Nicole Henderson's Testimony - Statutory Mitigator

This Court rejects Defendant's assertion that Nicole Henderson's testimony would have
supported the statutory mitigator that Defendant was a mere accomplice whose participation in
the crime was relatively minor. Nicole Henderson's testimony, even when considered in concert
with Terrance Woods' and Darren Lee's proposed trial testimony, would not have been able to
provide sufficient evidence to support this statutory mitigator. As detailed supra, the evidence of
Defendant's aggressive role in the victim's murder is simply too compelling for Defendant's
participation to ever be considered as minor. Defendant is not entitled to relief as to this
subclaim.
Claim 2H: Counsel Failed to Refute the Statutory Aggravator of Cold, Calculated, and
Premeditated

Defendant alleges that counsel's failure to call Terrance Woods, Darren Lee, and Nicole
Henderson as witnesses at trial "prohibited" the trial court from finding Defendant did not act in
a cold, calculated, and premeditated manner. Defendant asserts that the cold, calculated, and
premeditated (CCP) aggravator was found in part because the Court believed Defendant had
"doused" the victim with gasoline and set her on fire and had brought the filled gasoline canister
to the woods to use for her "nefarious purpose."
Defendant alleges that 1) the trial testimony of Terrance Woods, Heather Lee, and Nicole
Henderson would have demonstrated that it was Heather Lee who poured the gasoline and lit the
victim on fire because she was sleeping with Darren Lee. She also alleges that Darren Lee's
testimony would have 2) specifically refuted the State's theory that Defendant purchased and
Page 73 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5276

App.109

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

brought the gas to the scene of the crime, and 3) shown that Heather Lee retrieved the "murder
weapons" from her home and brought them to the woods that evening. Defendant alleges that if
this testimony had been presented, the Court could have reasonably determined that the cold,
calculated, and premeditated aggravator was not proven in this case. Defendant ultimately
alleges that if this statutory aggravator had not been proven, Defendant's sentence would have
been different. An evidentiary hearing was convened regarding the entirety of this subclaim.
1. Pour the Gasoline, Light the Victim on Fire

Defendant alleges that counsel was ineffective for failing to call Terrance Woods, Darren
Lee, and Nicole Henderson to show that Heather Lee confessed to pouring the gas and lighting
the victim on fire because the victim was sleeping with Darren Lee. This is a
mischaracterization of the evidence before the Court. The record shows that of these three
purported witnesses, only Terrance Woods testified to this information before Defendant's trial.
Darren Lee testified that he was sleeping with the victim, but he never testified about Heather
Lee's confession during his deposition. There has been no evidence submitted that Heather Lee
ever confessed to Nicole Henderson, only that she overheard Heather Lee talking about the
crime. During Nicole Henderson's evidentiary hearing testimony, she never indicated that
Heather Lee said anything about pouring the gasoline and lighting the victim on fire. 118
Wendy Moye testified at trial that Heather Lee admitted to pouring the gas and lighting
the victim on fire; consequently, this information was already before the jury. Admittedly, this
was entered as impeachment instead of substantive evidence, but the information was still
submitted to the jury. The only information the jury did not already have was that the victim was

118

See Transcript, Evidentiary Hearing, pp. l O1-108.

Page 74 of I 10

Tina Lasonya Brown. Case No. 2010-CF-1608A

5277

App.110

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

sleeping with Darren Lee at the time of the incident. The Court finds that Defendant has failed
to demonstrate that this one piece of information would have changed the jury's sentence
recommendation or would have changed the Court's finding of the cold, calculating, and
premeditated (CCP) aggravator. Indeed, when finding the CCP aggravator, the Court indicated
in its sentencing order that even if Defendant's original plan for murdering the victim had not
specifically included setting the victim on fire, the Court still would have found the CCP
aggravator to be proven. 119 For argument's sake, even if the Court had not found the CCP
aggravator, the Court still would have found the other two statutory aggravators in this case. The
mitigation in this case would not have outweighed those two statutory aggravators; Defendant's
sentence would have been the same. Consequently, Defendant has failed to show that the results
of her sentence would have been different if this testimony had been submitted at trial.
2. The Gasoline

Defendant next alleges that Darren Lee's testimony would have refuted the State's theory
that Defendant was the person who purchased the gasoline and brought it to the crime scene on
the night of the incident. As detailed previously in this order, this allegation is a
mischaracterization of the evidence. Darren Lee never stated during his deposition that Heather
Lee bought the gasoline and brought it to the crime scene. 120 Instead, at evidentiary hearing,
Darren Lee indicated that Heather did not say she retrieved the gasoline and he "guessed" the
gasoline had been purchased from a gas station before the murder took place. 121 Contrary to
Defendant's allegations, this testimony does not show that Heather Lee provided the gasoline for
119

See Attachment 2, Sentencing Order, p. 7, n. 13.

120

See Defendant's Evidentiary Hearing Exhibit #5.

121

See Transcript, Evidentiary Hearing, p. 90.

Page 75 of 1 JO

Tina Lasonya Brown, Case No. 2010-CF-1608A

5278

App.111

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

the gas container. Defendant has failed to show that counsel was deficient for failing to call
Darren Lee regarding this topic. Defendant is not entitled to relief as to this subclaim.
3. The Murder Weapons

Defendant next alleges that Darren Lee's testimony would have shown that it was
Heather Lee, and not Defendant, who retrieved the "murder weapons" from the Lees' home and
brought them to the woods that evening. This, again, is a mischaracterization of Darren Lee's
testimony. Darren Lee never stated previously that the crowbar and gas can came from his and
Heather Lee's home. 122 Additionally, Darren Lee was not asked about the gas can or the crowbar
at evidentiary hearing. As there has been no evidence submitted that the crowbar and gas can
used in the crime came from the Lees' home, counsel cannot be found ineffective for failing to
present such non-existent testimony to the jury. Defendant is not entitled to relief as to this
subclaim.
Claim 21: Counsel Failed to Obiect to Improper Closing Argument
Defendant alleges that counsel failed to object to the prosecutor's improper closing
arguments. Defendant alleges that "[t]hroughout the course of closing arguments, the State
repeatedly expressed its personal opinion, degraded Ms. Brown's counsel, and used
inflammatory language to incite the jury." Defendant claims that she is "fully incorporating" the
prosecutor's comments as detailed in Claim 5 of this motion.
Defendant's claim is facially insufficient and will be denied with prejudice. Defendant
fails to cite to any specific instance of improper comments by the State in closing. Further,

122

See Defendant's Evidentiary Hearing Exhibit #5.

Page 76 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5279

App.112

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant is not permitted to incorporate Claim 5 to cure this deficiency. 123 Additionally,
Defendant fails to allege specific prejudice, as to how these allegedly improper comments
affected the results of Defendant's trial. Because Defendant has already been given multiple
opportunities to amend her motion and this claim remains facially insufficient, this subclaim is
denied with prejudice. See Tanzi v. State, 94 So. 3d 482,493 (Fla. 2012); Davis v. State, 26 So.
3d 519,527 (Fla. 2009).
CLAIM 3: TRIAL COUNSEL PROVIDED INEFFECTIVE ASSISTANCE OF
COUNSEL DURING THE PENALTY PHASE OF DEFENDANT'S CAPITAL TRIAL
Defendant alleges that trial counsel's representation of her during the penalty phase "fell
below acceptable professional standards in several respects." Defendant argues that, but for
counsel's errors, there is a reasonable probability that Defendant would have been sentenced to
life in prison. An evidentiary hearing was scheduled regarding the entirety of this claim.
Claim 3A: Counsel Failed to Conduct a Reasonably Competent Mitigation Investigation
and to Present Adequate Mitigation
1. Failing to Investigate Mitigation

Defendant alleges that counsel failed to fully explain Defendant's background "including
but not limited to: her extensive history of drug abuse, her extensive history of physical and
sexual abuse, her mental illness, her family's background, and how that background affected Ms.
Brown and her conduct during the commission of the crime " (emphasis in original). Defendant

contends that even though mitigating factors were presented during the penalty phase, counsel
did not link those mitigators to the crime and therefore failed to construct a "persuasive
narrative" of Defendant's life history.
123
Even if Defendant were permitted to incorporate Claim 5, the prosecutor's statements referenced in that claim
were proper and within the bounds of acceptable closing argument.

Page 77 of l JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5280

App.113

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

This subclaim is facially insufficient. Defendant goes on for pages, giving details of
Defendant's life, but she does not link this information to any particular witness or indicate
through which witnesses penalty phase counsel should have presented this information. Further,
Defendant does not explain specifically how any of this information would have made a
difference in Defendant's trial. Making a blanket statement at the beginning of the entirety of
this claim that it would have affected Defendant's sentence simply is not enough. Even if this
subclaim were facially sufficient, the information alleged is cumulative to the lengthy mitigation
already presented by penalty phase counsel. 124 Penalty phase counsel is not deficient for failing
to present additional, cumulative evidence. Troy v. State, 57 So. 3d 828,835 (Fla. 2011) (a
claim that counsel is ineffective for failing to present mitigation evidence will not be sustained
"where the jury was aware of most aspects of the mitigation evidence that the defendant claims
should have been presented"). Additionally, Defendant has failed to demonstrate how penalty
phase counsel did not "link" Defendant's background to its effect on Defendant during the crime.
Attorney Wilson testified that she thought Dr. Bailey covered Defendant's life history from the
beginning to the time of the crime, and linked Defendant's life history to the crime itself. 125 The
record before this Court supports this conclusion. Defendant is not entitled to relief as to this
subclaim.

2. Failing to Prepare Witnesses
Defendant further asserts that counsel only spoke with Defendant's family members a
few weeks before trial for a short period of time and therefore did not adequately prepare these
witnesses to testify during the penalty phase of trial. Specifically, she alleges penalty phase
124

See Attachment I, Transcript, Trial, pp. 756-974.

125

See Transcript, Evidentiary Hearing, p. 285.

Page 78 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5281

App.114

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

counsel did not adequately prepare Defendant's mother, Lilly Ramos; Defendant's brother,
Willie Coleman, Jr.; and Defendant's uncle, Gerald Coleman, to testify at Defendant's trial.
At evidentiary hearing, Sharon Wilson, Defendant's penalty phase counsel, denied
Defendant's allegation that she waited until right before trial to interview these witnesses. 126 The
record shows that Defendant's brother and uncle both testified as mitigation witnesses at trial.
The only person who did not testify that is referenced in this claim is Ms. Ramos. Ms. Wilson
testified that when she met with Defendant's mother, she "was very cold." 127 Attorney Wilson
opted not to call Ms. Ramos as a mitigation witness because she had "no real relationship with
Ms. Brown" 128 and she actually told Ms. Wilson she believed Defendant should get the death
penalty. 129
Defendant entered into evidence, with the stipulation of the State, records to show that
the trip to visit Defendant's family in Chicago "was taken just weeks before trial." 130 However,
Defendant failed to present any testimonial evidence to show that penalty phase counsel did not
adequately prepare the witnesses who testified. As Defendant has failed to present any evidence
to support her allegations that the witnesses were ill-prepared, this subclaim is denied.
3. Potential Mitigation Witnesses

Defendant alleges that penalty phase counsel failed to speak to "any of Ms. Brown's
cousins, friends, ex-boyfriends, or ex-husbands." She specifically references the following
persons to whom she claims penalty phase counsel should have spoken in preparation for the
126

See Transcript, Evidentiary Hearing, p. 282.

127

See Transcript, Evidentiary Hearing, p. 288.

128

See Transcript, Evidentiary Hearing, p. 288.

129

See Transcript, Evidentiary Hearing, p. 288.

130

See Defendant's Written Closing Argument, p. 21; see also Defendant's Evidentiary Exhibit #1, p. 323

Page 79 of I JO

Tina Lasonya Brown Case No. 2010-CF-1608A

5282

App.115

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

penalty phase: a) Defendant's cousin, Trina Bell; b) the father of Defendant's three children,
Gregory Miller, Sr.; and c) Defendant's friend, Jennifer Malone.
Defendant's blanket and non-detailed allegation regarding "any of Ms. Brown's, friends,
ex-boyfriends, or ex-husbands" is facially insufficient on many different levels. Defendant fails
to identify with particularity the identity of these purported witnesses, the content of their
testimony, if Defendant told counsel about these people, if they were available to testify, and
most importantly, how their testimony would have made a difference in Defendant's sentence.
Booker v. State, 969 So. 2d 186, 196 (Fla. 2007) (citing Nelson v. State, 875 So. 2d 579, 583
(Fla. 2004)). Consequently, to the extent this can be considered a subclaim, it is denied with
prejudice.
The Court will now address Defendant's other subclaims regarding potential mitigation
witnesses.
a. Trina Bell

Defendant alleges that Trina Bell could have provided evidence of Defendant's sexual
abuse, drug abuse, and physical abuse by her boyfriends. An evidentiary hearing was scheduled
regarding this claim; however, Defendant failed to present Ms. Bell's testimony or any evidence
to substantiate her allegations regarding Trina Bell. Consequently, this subclaim is summarily
denied. Guardado v. State, 176 So. 3d 886, 893 (Fla. 2015) (holding "[trial] court properly held
that Guardado did not demonstrate deficiency or prejudice as to the first four witnesses because
he did not provide any testimony from these witnesses at the evidentiary hearing"); Lebron v.
State, 135 So. 3d 1040, 1055-56 (Fla. 2014) (claim that counsel failed to present witness at trial
denied where defendant did not present that witness at the evidentiary hearing).

Page 80 of /JO

Tina Lasonya Brown. Case No. 20/0-CF-1608A

5283

App.116

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

b. Gregory Miller. Sr.
Defendant alleges that Gregory Miller, Sr., could have testified about Defendant's daily
cocaine and heroin use, physical abuse from her father, and episodes of domestic violence. An
evidentiary hearing was scheduled regarding this claim.
Dr. Faye Sultan indicated at evidentiary hearing that she had interviewed Mr. Miller. Dr.
Sultan testified that Mr. Miller might not have insight into the way he treated Defendant. Mr.
Miller characterized their relationship as "they were young, they cared about one another, they
had three children in rapid succession. He was very demanding of her according to him. He
insisted that she be drug-free during her pregnancies and he knew that was difficult for her. He
acknowledged that he had been physically violent with her, but he didn't talk about that
much." 131 As relayed by Dr. Sultan's evidentiary hearing testimony, Mr. Miller talked some of
Defendant's drug use, the abuse Defendant received from her father, and also detailed one
"traumatic" episode of abuse that Mr. Miller inflicted upon Defendant that mimicked the way
Defendant's father would abuse her. 132
Dr. Edwards indicated at evidentiary hearing that he had reviewed a written statement of
Mr. Miller's, along with other documents, and none of the documents changed any of the
opinions that he stated in his report. 133
Even though Defendant presented testimony at the evidentiary hearing from individuals
who interviewed Mr. Miller or considered his written statement, Defendant failed to present Mr.
Miller's testimony at evidentiary hearing. Sharon Wilson, Defendant's penalty phase counsel,
131

See Transcript, Evidentiary Hearing, p. 183.

132

See Transcript, Evidentiary Hearing, pp. 183-184.

133

See Transcript, Evidentiary Hearing, p. 312.

Page 81 of ll0

Tina Lasonya Brown. Case No. 2010-CF-1608A

5284

App.117

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

testified at evidentiary hearing that she did not believe Mr. Miller was willing to testify at
Defendant's trial because he did not want to have to admit to his violence against Defendant. 134
The fact that Mr. Miller still has not testified in this matter seems to support Ms. Wilson's
opinion. Regardless, because Mr. Miller did not actually testify at the evidentiary hearing, this
Court is unable to assess Mr. Miller's credibility and determine whether his testimony would
have made a difference in Defendant's sentence. Additionally, even if Mr. Miller had offered
testimony in keeping with the testimony offered by Dr. Sultan, it appears that all of this
information was already before the jury for consideration. 135 As Defendant has failed to submit
the necessary evidence to substantiate this subclaim, it is denied. Guardado v. State, 176 So. 3d
at 893; Lebron, 135 So. 3d at 1055-56; Ferrell v. State, 29 So. 3d 959, 977 (Fla. 2010) (capital
postconviction claim must fail when Defendant does not present evidence at evidentiary hearing
to support claim).

c. Jennifer Malone
Defendant alleges that Jennifer Malone could have provided evidence of Defendant's
background and Defendant's relationships throughout her life. An evidentiary hearing was
scheduled regarding this claim.
Dr. Faye Sultan indicated at evidentiary hearing that she had interviewed Jennifer
Malone. Ms. Malone said that she was an old friend of Defendant's and Malone had at one time
dated Defendant's brother, Willie Junior. 136 Ms. Malone characterized the physical abuse she

134

See Transcript, Evidentiary Hearing, p. 283.

135

See Attachment 1, Transcript, Trial, pp. 890-894.

136

See Transcript, Evidentiary Hearing, p. 179.

Page 82 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5285

App.118

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

herself suffered from Willie Junior as extreme. 137 Ms. Malone stated that Defendant was one of
the most influential persons in her life because Defendant would intervene and try to protect Ms.
Malone from the abuse. 138 She also told Dr. Sultan that Defendant would look after her and her
brother, and make sure that they had food and a place to live. 139 Ms. Malone described both
herself and Defendant as having "horrible childhood histories of abuse." 140 Ms. Malone stated to
Dr. Sultan, "Guns and drugs were normal to us. That was the world we lived in. We lived in the
world of guns and drugs." I41 Ms. Malone was in a psychiatric hospital several times during her
childhood and adolescence. I42
According to Dr. Sultan, Ms. Malone knew about the brief marriage Defendant had to a
man named Anthony and also of her relationship with Steve lvory. 143 Ms. Malone was also
aware that Defendant's husband, Mr. Miller, had been very violent with Defendant during their
marriage. I44 Ms. Malone stated that she had seen boyfriends of Defendant punch Defendant in
the face. I45 Defendant also told Ms. Malone that lots of people had physically abused her.

146

Ms. Malone told Dr. Sultan that she believed Defendant had been "abstinent" from
intoxicants for approximately two years during the time Ms. Malone knew her. 147 Ms. Malone
137

See Transcript, Evidentiary Hearing, p. 179.

138

See Transcript, Evidentiary Hearing, pp. 179-180.

139

See Transcript, Evidentiary Hearing, p. 179.

140

See Transcript, Evidentiary Hearing, p. 180.

141

See Transcript, Evidentiary Hearing, p. 180.

142

See Transcript, Evidentiary Hearing, p. 180.

143

See Transcript, Evidentiary Hearing, p. 181.

144

See Transcript, Evidentiary Hearing, p. 181.

145

See Transcript, Evidentiary Hearing, pp. 181-182.

146

See Transcript, Evidentiary Hearing, p. 182.

147

See Transcript, Evidentiary Hearing, p 181.

Page 83 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5286

App.119

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

knew that the "abstinence" had ended because Defendant had become an exotic dancer and it
was very hard for Defendant to do that work without being intoxicated in some way. 148 Ms.
Malone was aware that Defendant had become desperate to move from Racine, Illinois and
Defendant's friend Pam had invited her to move down to Florida. 149
Sharon Wilson, Defendant's penalty phase counsel, also testified regarding this claim.
Ms. Wilson testified that she remembered Jennifer Malone had sent an email to the presiding
judge the day of the Spencer hearing, which was admitted as a defense exhibit. 1so Ms. Wilson
had not heard of Ms. Malone before the email. 1s 1 As confirmed by Ms. Wilson at evidentiary
hearing, Ms. Malone indicated in her email that she would prefer her statement remain private. 1s2
Ms. Wilson testified that she could not remember if she had tried to follow up with Ms. Malone
about the email; however, she did remember that the email was received very close in time to
trial so counsel could not do anything with it the day it was received. 1s3
Even though Defendant presented testimony at the evidentiary hearing from Dr. Sultan
who interviewed Ms. Malone, Defendant failed to present Ms. Malone's testimony at evidentiary
hearing. As Ms. Malone did not actually testify at the evidentiary hearing, this Court is unable to
assess Ms. Malone's credibility and determine whether her testimony during mitigation would
have made a difference in Defendant's sentence. Additionally, if Ms. Malone had offered
testimony consistent with the testimony offered by Dr. Sultan, it appears that the information

148

See Transcript, Evidentiary Hearing, p. 181.

149

See Transcript, Evidentiary Hearing, p. 182.

150

See Transcript, Evidentiary Hearing, p. 289-290.

151

See Transcript, Evidentiary Hearing, pp. 289-290.

152

See Transcript, Evidentiary Hearing, p. 290.

153

See Transcript, Evidentiary Hearing, p. 294.

Page 84 of IJ0

Tina Lasonya Brown. Case No. 20!0-CF-!608A

5287

App.120

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

about Defendant's childhood, drug addiction, abuse, and periods of recovery is cumulative to the
information already presented at trial.

154

Further, while this Court did not hear the details before

sentencing on how Defendant had been influential in Ms. Malone's life, it did have Ms.
Malone's email. The email provided that Defendant "did A LOT for me when I had no one
else," and that "the Tina I knew was a wonderful friend and person that would do anything to
help anyone." 155 The Court finds that the additional details regarding Defendant's influence in
Ms. Malone's life would not have changed Defendant's sentence.
Also, Defendant has provided no evidence to support the contention that Defendant's
penalty phase counsel should have known of Ms. Malone before the email was received the
morning of the Spencer hearing. There was no evidence presented that Defendant told Ms.
Wilson about Ms. Malone being a possible mitigation witness. Counsel cannot be found
deficient for failing to investigate a person she did not know existed. Defendant is not entitled to
reliefas to this allegation. Guardado, 176 So. 3d at 893; Lebron, 135 So. 3d at 1055-56.
Claim 3B: Counsel Failed to Consult with and Present Experts to Explain the Combined
Effects on the Brain of Polysubstance Abuse, Childhood Trauma, and Mental Illness
Defendant alleges that counsel failed to ensure that Defendant received a reasonably
competent mental health evaluation and failed to retain reasonably qualified experts who were
tailored to Defendant's case. Defendant asserts that Dr. Faye Sultan, a psychologist and trauma
expert, evaluated Defendant for purposes of postconviction litigation. Defendant contends that
according to Dr. Sultan, Defendant's psychiatric and behavioral "picture" includes everything
from her polysubstance abuse and her childhood trauma to her mental illness. In addition to Dr.

154

See Attachment I, Transcript, Trial, pp. 756-974.

155

See Attachment 3, Defense Exhibit #2 at Spencer Hearing, August 22, 2012.

Page 85 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5288

App.121

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Sultan, Defendant retained Dr. Drew Edwards, an addiction specialist. Defendant alleges that
such an expert, specifically tailored to her case, could have explained the effects of long-term
drug abuse on the brain, as well as the effects of the drugs on Defendant's brain the night of the
crime. Defendant alleges that counsel was deficient in failing to present an expert during the
penalty phase that could explain the combined effects of these factors on Defendant's brain, and
how she was affected by these factors at the time of the crime. Defendant claims "[ s]he was
prejudiced because the jury did not have a full comprehension of how the trauma Tina suffered
and her long history of drug abuse affected her brain both throughout her life and on the night of
the crime. Had the jurors heard this expert testimony there exists a reasonable probability that
Ms. Brown would have received a life sentence."
At evidentiary hearing, Sharon Wilson, Defendant's penalty phase counsel, testified that
she met with Defendant right after she had been appointed to this case. 156 Sharon Wilson hired
Dr. Lisa McDermott as her mitigation specialist. Dr. McDermott is a psychologist and a certified
private investigator. 157 Ms. Wilson also hired Dr. Elaine Bailey to conduct psychological testing
on Defendant and to provide expertise on the issues of mental health in this case. 158 Attorney
Wilson testified that she thought Dr. Bailey covered Defendant's life history from the beginning
to the time of the crime, and linked Defendant's life history to the crime itself. 159 Sharon Wilson
testified that Dr. Bailey never expressed to her that a neuropsychologist was needed in

156

See Transcript, Evidentiary Hearing, p. 266.

157

See Transcript, Evidentiary Hearing, pp. 267; 281-282.

158

See Transcript, Evidentiary Hearing, pp. 269-270.

159

See Transcript, Evidentiary Hearing, p. 285.

Page 86 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5289

App.122

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant's case.

160

Dr. Bailey never advised Attorney Wilson that an addiction specialist

would be helpful in Defendant's case. 161 During the evidentiary hearing, postconviction counsel
showed Attorney Wilson some of Dr. Bailey's notes, in which Dr. Bailey actually referenced the
possibility of hiring a neuropsychologist as well as an addiction specialist. Attorney Wilson said
she had never before been given this information. She indicated several times during the
evidentiary hearing that she had never seen those notes and that Dr. Bailey had never discussed
the possibility of hiring these types of additional experts. 162 Attorney Wilson indicated that if
either Dr. Bailey or Dr. McDermott had recommended a neuropsychologist and/or an addiction
specialist be hired, she would have "absolutely" hired the additional experts. 163 Defendant has
not experienced any known traumatic brain iajuries. 164 There was no suggestion that Defendant
had ever lost consciousness due to an injury, had been in any car accident, experienced head
trauma- anything of that nature. 165 Attorney Wilson indicated that if she had known of
anything like this she would have hired someone to look into those issues. 166 The Court finds
Attorney Wilson's testimony credible on these topics.
"In any ineffectiveness case, a particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances, applying a heavy measure of deference to
counsel's judgments." Strickland, 466 U.S. at 691. "This Court must determine whether a

160

See Transcript, Evidentiary Hearing, pp. 285-286.

161

See Transcript, Evidentiary Hearing, p. 286.

162

See Transcript, Evidentiary Hearing, pp. 273-274; 285-286; 297.

163

See Transcript, Evidentiary Hearing, p. 274.

164

See Transcript, Evidentiary Hearing, p. 286.

165

See Transcript, Evidentiary Hearing, p. 286.

166

See Transcript, Evidentiary Hearing, p. 286.

Page 87 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5290

App.123

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

decision not to expand the investigation of potential mitigation was reasonable under the
circumstances." Guardado, 176 So. 3d at 895 (citation omitted). The evidence presented at
evidentiary hearing shows that penalty phase counsel was not deficient in failing to hire
additional experts to offer mitigation testimony. Attorney Wilson took reasonable steps to use
mental health experts and develop mental health mitigation by hiring Dr. Bailey and Dr.
McDermott. Additionally, the evidence shows that Ms. Wilson reasonably relied on Dr. Bailey
to recommend any additional experts that might have helped in Defendant's case, and Dr. Bailey
never did. As in the Guardado case, penalty phase counsel had "no reason to doubt" Dr. Bailey's
report or question Dr. Bailey's lack of suggestion to hire additional mental health experts.
Guardado, 176 So. 3d at 896. In the circumstances of this case, Dr. Bailey, who was hired to
provide mental health expertise and assess Defendant, failed to notify penalty phase counsel that
other mental health experts might be helpful in developing mitigation in this case. Penalty phase
counsel had a reasonable expectation that Dr. Bailey would share such information with her.
Penalty phase counsel is not deficient for relying on Dr. Bailey's expertise and failing to hire
additional mental health experts, when no such suggestion was provided to her by the
professionals hired to do such an assessment.
Additionally, this Court finds that Defendant was not prejudiced by trial counsel's failure
to consult with or present additional testimony from mental health experts during the penalty
phase of trial. The expert testimony Defendant presented at evidentiary hearing was largely
cumulative of the evidence presented through lay witnesses and Dr. Bailey at trial. Each of the
three experts Defendant called at the evidentiary hearing- Dr. Faye Sultan, Dr. Drew Edwards,
and Dr. Michael Herkov - presented opinions that largely reflected Dr. Bailey's testimony at

Page 88 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5291

App.124

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

trial, albeit with some additional detail. To the extent the postconviction experts' opinions
differed from Dr. Bailey's, "[s]imply presenting the testimony of experts during the
[postconviction] evidentiary hearing that are inconsistent with the mental health opinion of an
expert retained by trial counsel does not rise to the level of prejudice necessary to warrant relief."
Dufour v. State, 905 So. 2d 42, 58 (Fla. 2005). Further, as detailed throughout this order, the
evidence in this case was overwhelming and supported the three weighty aggravators in this
case: heinous, atrocious, and cruel (HAC), CCP, and felony murder (kidnapping). These
aggravators would not have been outweighed by the cumulative mitigation evidence Defendant
presented at evidentiary hearing. Defendant has failed to show that the additional experts'
testimony, which was largely repetitive of that presented at trial, would have made a difference
in the jury's verdict. Defendant is not entitled to relief as to this claim.

Claim 3C: Counsel Failed to Present Evidence Supporting Statutory Mitigation
Defendant next alleges that counsel failed to present sufficient evidence to support the
following statutory mitigators during the penalty phase: I) the crime was committed while
Defendant was under the influence of extreme mental or emotional disturbance; 2) Defendant
was an accomplice in the capital felony committed by another person and her participation was
relatively minor; 3) Defendant acted under extreme duress or other substantial domination of
another person; and 4) the capacity of Defendant to appreciate the criminality of her conduct or
to conform her conduct to the requirements of law was substantially impaired. Defendant claims
that had penalty phase counsel hired the appropriate experts and called lay witnesses, their
testimony would have supported these mental health statutory mitigators. Specifically,
Defendant alleges that Dr. Sultan's testimony would have established evidence to support

Page 89 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5292

App.125

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

statutory mi ti gators 1 and 4, as referenced above. Defendant further alleges that if trial counsel
had presented the testimony of Terrance Woods, Darren Lee, and Nicole Henderson, and he had
"effectively cross examined the witnesses who did testify in the guilt phase," this testimony
would have supported statutory mitigators 2 and 3.
1. Additional Mental Health Experts

Defendant claims that if counsel had hired the "appropriate" mental experts, she could
have established two of the enumerated statutory mitigators listed above: 1) the crime was
committed while Defendant was under the influence of extreme mental or emotional disturbance;
and 4) the capacity of Defendant to appreciate the criminality of her conduct or to conform her
conduct to the requirements of law was substantially impaired. In support of this allegation,
Defendant presented the testimony of Dr. Sultan, who testified at evidentiary hearing that in her
opinion, "to a reasonable degree of psychological certainty," these two statutory mitigators
existed in Defendant's case. 167
As discussed, supra, penalty phase counsel reasonably relied on the recommendations of
Dr. Bailey and was not ineffective in failing to hire additional mental health experts to provide
mitigation evidence. Dr. Sultan's opinion regarding the mitigators is based upon Defendant's
background and experiences - the same background and experiences testified to by Dr. Bailey at
trial. Even though Dr. Sultan has now given a more favorable opinion than Dr. Bailey provided
at trial, this testimony does not mean that penalty phase counsel was ineffective. The Florida
Supreme Court has repeatedly declined to find ineffectiveness simply because the defendant

167

See Transcript, Evidentiary Hearing, pp. 216.

Page 90 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5293

App.126

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

presents experts in postconviction proceedings to provide more favorable opinions than those
presented at trial. Knight v. State, 211 So. 3d 1, 9-10 (Fla. 2016); Dufour, 905 So. 2d at 58.
Even if penalty phase counsel had presented this testimony to support the statutory
mitigators, there is no reasonable probability that it would have affected Defendant's sentence.
Although the trial court rejected many of the requested statutory mitigators, the facts on which
these mitigators are based were considered as nonstatutory mitigators. 168 Additionally, as stated
by trial counsel himself, the evidence in this case was "horrific;"the three aggravators in this case
-HAC, CCP, and felony murder (kidnapping)-were absolutely supported by the detailed and
graphic evidence entered in this case. These aggravators would not have been outweighed by
additional evidence to support statutory mitigation. This portion of the subclaim is therefore
denied.
2. Lay Witnesses

Defendant alleges that if counsel had called Terrance Woods, Darren Lee, and Nicole
Henderson at trial, and had "effectively cross-examined witnesses who did testify in the guilt
phase," counsel could have established the other two alleged statutory mitigators: 2) Defendant
was an accomplice in a capital felony committed by another person and her participation was
relatively minor; and 3) Defendant acted under extreme duress or other substantial domination of
another person. As already discussed in detail previously in this order, the testimony of Terrance
Woods, Darren Lee, and Nicole Henderson could not have established that Defendant was a
mere accomplice whose participation in the brutal and fatal attack was minor. The evidence is
simply too strong against Defendant that she played a substantial role in the victim's murder.

168

See Attachment 2, Sentencing Order.

Page 91 of JJO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5294

App.127

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Additionally, the proposed testimony of these three witnesses does not show that Defendant
acted under extreme duress or other substantial domination of another person. Again, the
evidence at trial was that Defendant was the main aggressor in the attack against the victim. She
was the one who tased the victim repeatedly, initiated stuffing the victim into the trunk of her
vehicle, drove the victim to the clearing, and continued to tase and then beat the victim with a
crowbar. Regardless of whether Defendant actually poured the gasoline and lit the victim on
fire, the evidence at trial shows that Defendant was not being dominated or under extreme duress
when she launched the fatal attack against the victim.
In regard to "effectively" cross-examining the witnesses who testified during the guilt
phase, this claim is facially insufficient for failing to allege specific details on how "effectively"
cross-examining witnesses would have somehow created evidence to support these two statutory
mitigators. Defendant states in a footnote that "[t]hese facts are the subject of a guilt phase IAC
claim in Claim 2 and are fully incorporated herein;" however, Defendant is not permitted to
incorporate Claim 2 to cure deficiency. Even if incorporating Claim 2 would make this claim
facially sufficient, this claim would still fail because the Court has made no finding of
ineffectiveness regarding trial counsel. This portion of the subclaim is therefore summarily
denied.

Claim 3D: Counsel Failed to Obiect to Hearsay Evidence from Ricki Atwood and Sheree
Sturdivant
1. Ricki Atwood

Defendant alleges that during the penalty phase, Dr. Bailey was asked during crossexamination by the State whether she had reviewed the handwritten letter authored by Ricki
Atwood. Defendant alleges that counsel was ineffective for failing to object to this inadmissible
Page 92 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5295

App.128

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

hearsay evidence (the Ricki Atwood statement). Initially, the Court notes that this claim is
facially insufficient as Defendant fails to allege proper prejudice. Arguendo, even if this claim
were facially sufficient, Defendant would not be entitled to relief. The record conclusively
refutes this claim. Contrary to Defendant's allegation, Ricki Atwood's letter was never admitted
into evidence. Dr. Bailey was merely asked whether she had reviewed Ms. Atwood's letter, and
Dr. Bailey responded she had not. As no hearsay statement of Ricki Atwood was admitted,
counsel was not ineffective for failing to make a baseless objection. Defendant is not entitled to
relief as to this claim.
2. Sheree Sturdivant
a. Sheree Sturdivant's Hearsav Statement
Within this same claim, Defendant alleges that counsel was ineffective for failing to
object to the admission of the hearsay statement of Sheree Sturdivant during the penalty phase.
Specifically, Defendant alleges that during Dr. Bailey's cross-examination by the State she was
asked whether she had reviewed the recorded statement of Sheree Sturdivant. Dr. Bailey
responded that she had. The State then asked Dr. Bailey if Britnee Miller (Defendant's daughter
and co-defendant) had told Sherree Sturdivant that the killing was planned and it was
Defendant's role to apologize to the victim to lure her over to Defendant's home. Dr. Bailey
confirmed that information was included in the recorded statement. Defendant alleges that
Sheree Sturdivant's recorded statement was double hearsay and inadmissible at Defendant's trial.
Hearsay statements are admissible in a capital sentencing proceeding. "Any such
evidence the court deems to have probative value may be received, regardless of its admissibility
under the exclusionary rules of evidence, provided the defendant is accorded a fair opportunity to

Page 93 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5296

App.129

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

rebut any hearsay statements." Perri v. State, 441 So. 2d 606, 607-08 (Fla. 1983)(quoting the
pertinent portion of section 921.141 ( 1), Florida Statutes). Additionally, Sheree Sturdivant's
statement was not elicited to prove the truth of the matter asserted. Instead, it was elicited to
attack a conclusion made by Dr. Bailey on direct examination. Consequently, the statement in
question would not have even been considered hearsay under these circumstances. See §
90.80l(l)(c), Fla. Stat. Defendant has failed to demonstrate how counsel was deficient for
failing to make an unwarranted objection.
The Court also notes that Defendant's claim of prejudice is not supported by the record.
Defendant argues she was prejudiced because without Sheree Sturdivant's recorded statement, as
testified to by Dr. Bailey, "the State would not have been able to argue in closing that Ms. Brown
lured the victim into the lion's den and that this was planned and premeditated by Ms. Brown."
Defendant asserts that her showing of prejudice is that the jury unanimously recommended a
death sentence, and the Court found the CCP statutory aggravator. However, the record shows
that the State made this statement during its closing argument at the end of the guilt phase,
before Sheree Sturdivant's statement was ever mentioned. 169 Additionally, the record shows that

significant evidence was available that supported the premeditated prong of the CCP statutory
aggravator. 170 Defendant has not demonstrated that the jury would not have returned an
unanimous death recommendation or that the Court would not have found the CCP aggravator if
Sherree Sturdivant's statement had not been referenced by Dr. Bailey. Defendant is not entitled
to relief regarding this subclaim.

169

See Attachment l, Transcript, Trial, p. 704.

170

See Attachment I, Transcript, Trial, pp. 348-390; 440-480; 511-577; 604-623.

Page 94 of 1JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5297

App.130

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

b. Failure to Investigate Sheree Sturdivant
Defendant alleges that counsel failed to "uncover evidence" that Sherree Sturdivant had
previously been found incompetent to proceed in her own criminal case just prior to making this
recorded statement. Defendant alleges counsel should have used this information to challenge
Sheree Sturdivant's recorded statement.
This subclaim was scheduled for evidentiary hearing. However, Defendant failed to
present any testimonial evidence to support this claim. While Defendant did submit into
evidence, with stipulation by the State, a judgment and sentence of Sheree Sturdivant's and also
a jail record for Sturdivant's commissary account, there was no evidence presented to show how
counsel could have successfully challenged Sturdivant' s recorded statement by using these
documents. Defendant is not entitled to relief as to this claim.
CLAIM 4: TRIAL COUNSEL FAILED TO COMPLY WITH RULE 3.112, FLORIDA
RULES OF CRIMINAL PROCEDURE
Defendant alleges that her right to due process was violated because Mr. Gontarek failed
to comply with rule 3 .112, Florida Rules of Criminal Procedure, because he had not obtained
continuing legal education credits in the area of capital law. Defendant claims that as a result,
Mr. Gontarek's representation "fell below adequate representation." Defendant asserts that if
Mr. Gontarek had attended the correct continuing legal education courses he would have had a
"wealth of information about handling capital cases." Defendant references claims 1, 2, 3, 5, and
9 "which are fully incorporated herein" as evidence of the effect of counsel's failure to obtain the
proper continuing legal education credits in the area of capital law.
Defendant's claim is legally and facially insufficient. Initially, Defendant is not
permitted to incorporate other claims instead of alleging the required specific, factual prejudice
Page 95 of 1JO

Tina Lasonya Brown Case No. 2010-CF-1608A

5298

App.131

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

as to this claim. Further, Defendant's allegation is conclusory that the alleged errors committed
by Mr. Gontarek at Defendant's trial were a result of a lack oflegal education credits.
Regardless, failure to comply with rule 3 .112, Florida Rules of Criminal Procedure, does not
create an independent basis for a Strickland claim. Cox v. State, 966 So. 2d 337,358 n.10 (Fla.
2007). Defendant is not entitled to relief as to this allegation.

CLAIM 5: DEFENDANT WAS DEPRIVED OF FUNDAMENTAL RIGHT TO A FAIR
TRIAL, DUE PROCESS, AND RELIABLE ADVERSARIAL TESTING DUE TO
IMPROPER PROSECUTORIAL MISCONDUCT DURING THE GUILT PHASE OF
TRIAL
Claims SA-SC: Prosecutorial Misconduct

Defendant cites to various statements made by the prosecution during closing arguments
which she claims to have been A) inflammatory; B) belittling to defense counsel; and C) an
expression of the prosecutor's personal opinion. These subclaims are procedurally barred. The
Supreme Court of Florida has repeatedly held that substantive claims of prosecutorial
misconduct can and should be raised on direct appeal. See Rogers, 957 So. 2d 538, 547 (Fla.
2007); Krawczuk v. State, 92 So. 3d 195,206 (Fla. 2012). Consequently, these claims are
summarily denied.

CLAIM 6: DEFENDANT WAS DEPRIVED OF HER RIGHT TO DUE PROCESS
BECAUSE THE STATE PRESENTED FALSE AND MISLEADING EVIDENCE IN
VIOLATION OF GIGLIO
Claim 6A: The False Testimony of Heather Lee Violated Giglio

Defendant alleges that the State presented the "false" testimony of Heather Lee at trial in
violation of Giglio. Defendant asserts that Heather Lee's trial testimony was markedly different
from her previously recorded statements and deposition testimony. Defendant then cites to some
Page 96 of 110

Tina Lasonya Brown. Case Na. 2010-CF-1608A

5299

App.132

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

of the same discrepancies referenced previously in this motion in claim 2B: 1) Heather Lee's
whereabouts the day of the incident; 2) cleaning blood off of Heather Lee's shoes; 3) how the
blood got on Heather Lee's shoes; 4) persons present in the vehicle and in the woods; and 5)
knowledge of the crime scene. Defendant contends that Heather Lee's trial testimony was false,
and the State knew the testimony was false because it contradicted Heather Lee's previous
statements and deposition testimony. Defendant further asserts that Heather Lee's testimony was
material, and because her testimony "undoubtedly affected the judgment of the jury," her false
testimony "cannot be considered harmless beyond a reasonable doubt." Defendant alleges
"[h]ad the State properly corrected this false testimony, Heather Lee would have been exposed as
a liar, which would have given rise to reasonable doubt as to Ms. Brown's guilt."
To establish a claim under Giglio, the defendant must demonstrate
that ( 1) the prosecutor presented or failed to correct false
testimony; (2) the prosecutor knew the testimony was false; and (3)
the evidence was material.
Once the first two prongs are
established, the false evidence is deemed material if there is any
reasonable possibility that it could have affected the jury's verdict.
Jones v. State, 998 So. 2d 573, 579-80 (Fla. 2008) (citations omitted).
To demonstrate that testimony is false, the defendant must prove such falsity with more than
mere inconsistencies. Franqui v. State, 59 So. 3d 82, 105 (Fla. 2011); Maharaj v. State, 778 So.
2d 944, 956 (Fla. 2000).
A challenge to evidence through another witness or prior
inconsistent statements is insufficient to establish prosecutorial use
of false testimony. Mere differences in testimony found in witness
statements made at different times . . . are not alone sufficient to
show perjury. In the Giglio context, the suggestion that a
statement may have been false is simply insufficient; the defendant
must conclusively show that the statement was false.
Hernandez v. State, 180 So. 3d 978, 994 (Fla. 2015)(citations omitted; punctuation omitted).

Page 97 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5300

App.133

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Defendant has only cited to immaterial inconsistencies between Heather Lee's previous
statements and her trial testimony. The suggestion that Heather Lee's trial testimony might have
been false based on these inconsistencies is simply not enough to show that Heather Lee's trial
testimony was false. Id. Defendant's only "proof' that the State offered false testimony at trial
is the fact that Heather Lee's trial testimony contained some inconsistencies from her previous
statements.

171

As stated above, "prior inconsistent statements [are] insufficient to establish

prosecutorial use of false testimony." Id. Defendant has consequently failed to demonstrate that
Heather Lee's trial testimony was false and the State knowingly presented this purportedly
"false" testimony. As Defendant has failed to establish the first two prongs of the Giglio
standard, this Court need not reach the third prong. Defendant is not entitled to relief as to this
subclaim.

Claim 6B: The False Testimony of Pamela Valley Violated Giglio
Defendant also claims that Pamela Valley's trial testimony was false, and that the State
knowingly presented this false testimony at trial. Like Defendant's Giglio claim regarding
Heather Lee, Defendant bases this claim on an inconsistency. Specifically, Defendant alleges
that Pamela Valley's testimony that Defendant asked her to "finish off' the victim is false
because she never mentioned it during her original statement to police investigators in April
2010.
Like the claim above, Defendant is unable to establish that Pamela Valley's testimony on
this topic is false simply because this information was not included in her original statement to
law enforcement. In fact, trial counsel explored the topic in cross-examination in an effort to
171

The Court further notes that as discussed, supra, many of the alleged "inconsistencies" in Heather Lee's
statements were not actually inconsistencies at all.
Page 98 of 110

Tina Lasonya Brown. Case No. 20!0-CF-1608A

5301

App.134

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

impeach this testimony. While the inconsistencies were properly addressed as impeachment
evidence at trial, Defendant has certainly not satisfied the first two prongs of the Giglio test. As
Defendant has failed to establish the first two prongs of the Giglio standard, this Court need not
reach the third prong. Defendant is not entitled to relief as to this subclaim.

CLAIM 7: DEFENDANT WAS DEPRIVED OF HER RIGHT TO DUE PROCESS
BECAUSE THE ST ATE WITHHELD EVIDENCE WHICH WAS MATERIAL AND
EXCULPATORY IN VIOLATION OF BRADY 172
Defendant alleges that the State violated Brady when it failed to reveal that the son of
State expert Dr. John Bingham had been arrested and was facing felony charges at the time of
Defendant's trial. Defendant claims that she could have used this information to impeach Dr.
Bingham's testimony as being biased for the State. Defendant claims that if it could have
lessened the strength of Dr. Bingham's trial testimony, there is a reasonable probability the
results of Defendant's trial would have been different.
Even thought this claim was scheduled for evidentiary hearing, Defendant chose to
unequivocally withdraw this claim. 173 Therefore, this claim is no longer before this Court for
disposition.

CLAIM 8: NEWLY DISCOVERED EVIDENCE 174
Defendant alleges that newly discovered evidence regarding Heather Lee was uncovered
during the postconviction investigation of Defendant's case. Specifically, Defendant alleges that

172

Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963).

173

See Transcript, Evidentiary Hearing, pp. 293, 298.

174

Even though Defendant references the evidentiary hearing testimony of Tajiri Jabali as newly discovered
evidence in her written closing arguments, there is no claim regarding Tajiri Jabali alleged in Defendant's motion.
This Court cannot speculate as to what Defendant would have alleged or create an allegation that is not already
included in the amended motion. Consequently, the evidentiary hearing testimony of Tajiri Jabali is not being
addressed in this Order.
Page 99 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5302

App.135

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

between October and December 2014, Heather Lee was enrolled in a prison course called
"Hannah's Gift," while she was housed at Homestead Correctional Institution. Throughout the
duration of the course, Heather Lee spoke about why she was in prison, giving details about her
involvement in the victim's death to A) Shayla Edmonson and B) Jessica Swindle. Defendant
further alleges that C) Nicole Henderson's knowledge regarding Heather Lee and the crime in
question is newly discovered evidence.

Two requirements must be met in order for a conviction to be set
aside on the basis of newly discovered evidence. First, in order to
be considered newly discovered, the evidence "must have been
unknown by the trial court, by the party, or by counsel at the time
of trial, and it must appear that defendant or his counsel could not
have known [of it] by the use of diligence." Torres-Arboleda v.
Dugger, 636 So. 2d 1321, 1324-25 (Fla. 1994).
Second, the newly discovered evidence must be of such nature that
it would probably produce an acquittal on retrial. To reach this
conclusion the trial court is required to "consider all newly
discovered evidence which would be admissible" at trial and then
evaluate the "weight of both the newly discovered evidence and
the evidence which was introduced at the trial."
Robinson v. State, 865 So. 2d 1259, 1262 (Fla. 2004) (citations omitted).
"As explained in Wright v. State, 857 So. 2d 861 (Fla. 2003), newly discovered evidence is
evidence that existed at the time of the trial but was unknown by the trial court, by the party or
by counsel at that time, and it must further appear that neither the defendant nor defense counsel
could have known of the evidence by the exercise of due diligence." Moss v. State, 860 So. 2d
1007, 1009 (Fla. 5th DCA 2003)(emphasis added).
An evidentiary hearing was scheduled regarding the entirety of Defendant's newly
discovered evidence claim.
Page JOO of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5303

App.136

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Claim 8A: Newly Discovered Evidence - Shayla Edmonson
Defendant alleges that Shayla Edmonson was incarcerated with Heather Lee and they
both were enrolled in the "Hannah's Gift" course. During one class addressing anger
management, Shayla Edmonson heard Heather Lee state, "If I am pushed to a certain point, I
will do anything. I am in for murder, and I did the murder. I lit a girl on fire. I jumped on a
good plea deal because I have four kids. I do not regret anything I did because all of the women
involved were sleeping with my husband."
At evidentiary hearing, Shayla Edmonson testified that she attended four or five classes
of the "Hannah's Gift" course with Heather Lee. 175 Edmonson indicated that during the class
session on anger, Heather Lee had a side conversation with a couple of the women in the class. 176
According to Edmonson, Heather Lee told the women that she had killed someone and she
would do it again because the people involved were sleeping with her husband. 177 Heather Lee
also said that she set the girl on fire. 178 She told Edmonson and the group that she took the plea
deal so she could go home to her kids; that she was not going to court because she knew "she did
what she did." 179 On cross-examination, Shayla Edmonson confirmed that it seemed Heather
Lee was bragging, or trying to be tough when she made these statements. 180 Shayla Edmonson
admitted that she did not know if what Heather Lee said was in fact true.

175

See Transcript, Evidentiary Hearing, pp. 122-123.

176

See Transcript, Evidentiary Hearing, p. 123.

177

See Transcript, Evidentiary Hearing, p. 124.

178

See Transcript, Evidentiary Hearing, p. 124.

179

See Transcript, Evidentiary Hearing, p. 124.

180

See Transcript, Evidentiary Hearing, p. 125.

Page 101 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5304

App.137

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Shayla Edmonson's testimony of what Heather Lee said after Defendant's trial does not
constitute newly discovered evidence. Id. Regardless, the substance of Shayla Edmonson' s
testimony - that Heather Lee admitted to lighting the victim on fire because she was sleeping
with Heather Lee's husband- is far from newly discovered evidence. Wendy Moye testified to a
similar confession by Heather Lee at trial and Terrance Woods testified before trial regarding
Heather Lee's husband having an affair with the victim. As this evidence was already
discovered before trial by trial counsel, this testimony is not newly discovered information.
Defendant is not entitled to relief as to this subclaim.
8B: Newly Discovered Evidence - Jessica Swindle

Defendant alleges that Jessica Swindle was also a participant with Heather Lee in the
"Hannah's Gift" classes. Jessica Swindle recalls Heather Lee talking about the reason she was
incarcerated. According to Defendant's allegation, Jessica Swindle heard Heather Lee say, "I am
in for murder. I poured gas on a girl and lit her on fire. There were two other women with me, a
woman and her daughter. Neither one of them helped me. They both did not know I was going
to light the girl on fire. But I did it because she was sleeping with my husband."
At evidentiary hearing, Jessica Swindle testified that she was previously incarcerated at
Homestead Correctional Institution with Heather Lee where they voluntarily attended "Hannah's
Gift" classes. 181 Ms. Swindle testified that Heather Lee said "[t]hat she was there for murder,
that she didn't get the death row, and that there was another lady with her, and her daughter was
with her also, and that they didn't do anything, that it was just her, that she set a - a girl on fire

181

See Transcript, Evidentiary Hearing, pp. 96-97.

Page 102 of I JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5305

App.138

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

that was sleeping with baby's dad." 182 Ms. Swindle further testified that Heather Lee did not
have any remorse when she talked about the crime; she did not cry, she just explained why she
was there. 183 Jessica Swindle said it was not like Heather Lee was "bragging but kind of like,
she - she kind of, like got away with it and the other one didn't." 184 However, on crossexamination, Jessica Swindle confirmed it seemed like Heather Lee was trying to be tough when
she made these statements. 185
Jessica Swindle's testimony cannot be newly discovered evidence because it concerns
statements that were made after trial. Id. Again, the substance of Jessica Swindle's testimony is
not newly discovered. Trial counsel had already found through his investigations before trial
that Heather Lee had confessed to pouring the gasoline and lighting the victim of fire because her
husband was sleeping with the victim. As this is not newly discovered evidence, this subclaim
fails.

Claim 8C: Newly Discovered Evidence - Nicole Henderson
Defendant next alleges that Nicole Henderson is someone who was incarcerated with
Heather Lee at both the Escambia County Jail and at Homestead Correctional Institution.
Defendant contends that Ms. Henderson's trial testimony would have established: 1) Heather
Lee had a reputation for violence; 2) Heather Lee confessed to Nicole Henderson; and 3) Corie
Doyle's trial testimony could have been impeached by Nicole Henderson.

182

See Transcript, Evidentiary Hearing, p. 98.

183

See Transcript, Evidentiary Hearing, p. 98.

184

See Transcript, Evidentiary Hearing, p. 98.

185

See Transcript, Evidentiary Hearing, p. 99.

Page 103 of 110

Tina Lasonya Brown. Case No. 20IO-CF-I608A

5306

App.139

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

1. Heather Lee's Reputation for Violence
a. Heather Lee's Reputation for Violence-2009 Incident
Defendant alleges that Nicole Henderson has known Heather Lee to have a "reputation
for violence" since 2009. Defendant contends that the first interaction Ms. Henderson
remembers having with Heather Lee was when Heather Lee threatened to kill Nicole
Henderson's younger sister because Lee believed her husband wanted to have sex with her.
Defendant asserts that Nicole Henderson also knows Heather Lee from the nightclub scene in
Pensacola, where Heather Lee would often break glass bottles and threaten to cut people.
According to Defendant, Nicole Henderson recalls many nights in which Heather Lee actually
did cut people with glass bottles.
Defendant fails to allege how this information is newly discovered evidence. According
to Nicole Henderson's evidentiary hearing, she had known Heather Lee from the "free world"
since 2009. 186 It was at this time Heather Lee first got into an altercation with Ms. Henderson's
teenage sister. 187 Defendant has failed to allege how this information could not have been
discovered by counsel through due diligence. In fact, Defendant alleges that counsel was
ineffective for not investigating the testimony of Nicole Henderson before trial. In doing so, it
would seem to this Court Defendant has conceded that this information could have been found
by due diligence. Nicole Henderson's testimony regarding Heather Lee's reputation for violence
in 2009 188 is not newly discovered evidence; 189 this subclaim fails.

186

See Transcript, Evidentiary Hearing, pp. 101-102.

187

See Transcript, Evidentiary Hearing, p. l 02.

188

Contrary to Defendant's allegations, Nicole Henderson did not offer any testimony regarding Heather Lee in
Pensacola clubs, breaking glass bottles and threatening to cut people, and actually cutting people. As there is no
evidence to support this allegation, this subclaim necessarily fails.
Page 104 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5307

App.140

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

b. Heather Lee's Reputation for Violence -After Trial
Defendant further alleges that during Nicole Henderson's incarceration at Homestead
Correctional Institution, Heather Lee continued to have a reputation for violence. Defendant
alleges that Nicole Henderson knew of Heather Lee getting into fights as a result of persons
sleeping with her girlfriend. Defendant asserts that Heather Lee does not fight the girlfriend who
cheats on her, but instead always fights the person with whom her girlfriend cheated. Defendant
alleges that this practice of Heather Lee's is "common knowledge at the prison because of
comments Lee has made to inmates, that she lit a woman on fire who slept with her husband."
At evidentiary hearing, Nicole Henderson testified that when she was incarcerated with
Heather Lee at Homestead Correctional Institution, she knew Heather Lee dated a girl named
Gracie. 190 Ms. Henderson testified that Gracie would cheat on Heather Lee, and Heather Lee
would never physically fight Gracie, but would fight the person with whom Gracie was
cheating. 191 Nicole Henderson never testified at evidentiary hearing regarding any comments
made by Heather Lee about lighting a woman a fire who slept with Ms. Lee's husband.
Nicole Henderson's testimony on this topic is not newly discovered evidence because
Heather Lee and Gracie's relationship occurred after Defendant's trial. Id. Even if this
testimony could have qualified as newly discovered, Nicole Henderson's testimony regarding
Heather Lee's reputation for violence would not have been admissible. Defendant is not entitled
to relief regarding this subclaim.

189

Even if this evidence were newly discovered, reputation evidence would not have been admissible at trial.

190

See Transcript, Evidentiary Hearing, pp. 104-105.

191

See Transcript, Evidentiary Hearing, p. 105.

Page 105 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5308

App.141

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

2. Heather Lee's Confession to Nicole Henderson
Defendant alleges that Heather Lee confessed to Ms. Henderson and a group of women
that the victim was murdered because she was sleeping with Lee's husband. Defendant raised
this claim previously in her motion, alleging that trial counsel was ineffective for failing to
investigate Nicole Henderson's testimony before trial. Defendant has failed to allege how this
information could not have been discovered by counsel's due diligence. In fact, it would seem to
this Court that Defendant has conceded this information could have been found by the exercise
of due diligence as she has essentially alleged such previously in her motion. As Nicole
Henderson's testimony regarding Heather Lee's purported confession 192 is not newly discovered
evidence, this subclaim fails.
3. Impeachment of Corie Doyle's Testimony
Defendant also alleges that Nicole Henderson would have testified that while Defendant
was awaiting trial in the Escambia County Jail, Defendant slept all day, thereby refuting Corie
Doyle's testimony that Defendant confessed to Ms. Doyle when they were up early one morning
drinking coffee. Again, Defendant has already raised this claim previously in her motion,
alleging trial counsel was ineffective for not impeaching Corie Doyle with Nicole Henderson's
testimony. This testimony is therefore not considered newly discovered, as evidenced by
Defendant's internally inconsistent motion. Defendant is not entitled to relief as to this subclaim.

192

As detailed previously, Heather Lee never actually confessed to Nicole Henderson.

Page 106 of 1JO

Tina Lasonya Brown, Case No. 2010-CF-1608A

5309

App.142

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

CLAIM 9: CUMULATIVE ERROR DEPRIVED DEFENDANT OF A
FUNDAMENTALLY FAIR TRIAL

Defendant next alleges that the "sheer number and types of errors in Ms. Brown's guilt
and penalty phases, when considered as a whole, virtually dictated the sentence of death."
Defendant further alleges that the cumulative effect of these errors denied Ms. Brown a fair trial.
After reviewing all of Defendant's motion, this Court has found counsel deficient regarding one
claim but found no prejudice. As there are no other claims in which error occurred, a cumulative
analysis regarding this single claim does not render any different result. Defendant is not entitled
to relief.
CLAIM 10: DEFENDANT'S DEATH SENTENCE IS IN VIOLATION OF HURST V.
FLORIDA, AND HURST V. STATE, AND THE 6TH AND 8TH AMENDMENTS

Defendant alleges that Defendant is entitled to a new penalty phase pursuant to the
holdings of Hurst v. Florida193 and State v. Hurst. 194 Defendant asserts A) Both Hurst decisions
apply to Defendant; B) the Hurst decisions apply retroactively to Defendant's case; and C) the
Hurst error in Defendant's case is not harmless.

Claims lOA and lOB: Hurst Decisions Apply Retroactively to Defendant and her Case
The Supreme Court of Florida has held that the Hurst opinions apply retroactively to any
death sentence that became final after the issuance of the United State Supreme Court's June 24,
2002 opinion of Ring v. Arizona, 536 U.S. 584 (2002). See Asay v. State, 210 So. 3d 1 (Fla.
2016); Mosley v. State, 209 So. 3d 1248 (Fla. 2016). Defendant's death sentence was not
entered in this case until 2012, and the Hurst opinions undoubtedly apply retroactively to
Defendant's case.
193

Hurst v. Florida, 136 S. Ct. 616(2016).

194

State v. Hurst, 202 So. 3d 40 (Fla. 2016).

Page 107 of 1 JO

Tina Lasonya Brown. Case No. 2010-CF-1608A

5310

App.143

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

Claim lOC: Hurst Decisions and Harmless Error

The application of the Hurst decisions to Defendant does not mean that she is
automatically entitled to a new penalty phase. The Court must employ the harmless error test to
determine whether Defendant is entitled to relief.
As explained in State v. Hurst:
The harmless error test, as set forth in Chapman 195 and progeny,
places the burden on the state, as the beneficiary of the error, to
prove beyond a reasonable doubt that the error complained of did
not contribute to the verdict, or alternatively stated, that there is no
reasonable possibility that the error contributed to the conviction.
Where the error concerns sentencing, the error is harmless only if
there is no reasonable possibility that the error contributed to the
sentence. See, e.g., Zack v. State, 753 So. 2d 9, 20 (Fla. 2000).
Although the harmless error test applies to both constitutional
errors and errors not based on constitutional grounds, "the
harmless error test is to be rigorously applied," DiGuilio, 491
So.2d at 1137, and the State bears an extremely heavy burden in
cases involving constitutional error. Therefore, in the context of a
Hurst v. Florida error, the burden is on the State, as the beneficiary
of the error, to prove beyond a reasonable doubt that the jury's
failure to unanimously find all the facts necessary for imposition of
the death penalty did not contribute to Hurst's death sentence in
this case. We reiterate:
The test is not a sufficiency-of-the-evidence, a correct result, a not
clearly wrong, a substantial evidence, a more probable than not, a
clear and convincing, or even an overwhelming evidence test.
Harmless error is not a device for the appellate court to substitute
itself for the trier-of-fact by simply weighing the evidence. The
focus is on the effect of the error on the trier-of-fact.
The question is whether there is a reasonable possibility that the
error affected the [sentence].
Hurst, 202 So. 3d at 68 (citations omitted; formatting changed).

195

Chapman v. California. 386 U.S. 18, 87 S. Ct. 824, 17 L. Ed. 2d 705 (l 967).

Page 108 of 110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5311

App.144

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

As the Florida Supreme Court has held repeatedly, Hurst relief is denied to defendants who
received a unanimous jury recommendation of death. As explained in detail in Grim v. State,
244 So. 3d 147, 148 (Fla. 2018):
In Davis, 196 this Court held that a jury's unanimous
recommendation of death is "precisely what we determined in
Hurst to be constitutionally necessary to impose a sentence of
death" because a "jury unanimously f1inds] all of the necessary
facts for the imposition of [a] death sentence[ ] by virtue of its
unanimous recommendation[ ]." Davis, 207 So. 3d at 175. This
Court has consistently relied on Davis to deny Hurst relief to
defendants that have received a unanimous jury recommendation
of death. See. e.g., Bevel v. State, 221 So. 3d 1168, 1178 (Fla.
2017); Guardado v. Jones, 226 So. 3d 213, 215 (Fla. 2017),
petition for cert. filed, No. 17-7171 (U.S. Dec. 18, 2017); Cozzie
v. State, 225 So. 3d 717, 733 (Fla. 2017), petition for cert. filed,
No. 17-7545 (U.S. Jan. 24, 2018); Morris v. State, 219 So. 3d 33,
46 (Fla.), cert. denied, U.S.--, 138 S. Ct. 452, 199 L. Ed.
2d 334 (2017); Tundidor v. State, 221 So. 3d 587, 607-08 (Fla.
U.S. - - , 138 S. Ct. 829, 200 L. Ed. 2d
2017), cert. denied, 326 (2018); Oliver v. State, 214 So. 3d 606, 617-18 (Fla.), cert.
U.S.--, 138 S. Ct. 3, 199 L. Ed. 2d 272 (2017);
denied, Middleton v. State, 220 So. 3d 1152, 1184-85 (Fla. 2017), cert.
U.S.--, 138 S. Ct. 829, 200 L. Ed. 2d 326 (2018);
denied, Truehill v. State, 211 So. 3d 930, 956-57 (Fla.), cert. denied, U.S.--, 138 S. Ct. 3, 199 L. Ed. 2d 272 (2017). Grim is among
those defendants who received a unanimous jury recommendation
of death, and his arguments do not compel departing from our
precedent.
Grim v. State, 244 So. 3d 147, 148 (Fla. 2018), reh'g denied, SC17-1071, 2018 WL 2338153
(Fla. May 22, 2018), and cert. denied sub nom. Grim v. Florida, 139 S. Ct. 480 (2018).
The jury entered a unanimous recommendation ( 12-0) for the death penalty to be imposed in this
case. Additionally, the facts in this case- the victim was repeatedly tased, bludgeoned with a
crowbar, and set on fire, and yet still lived long enough to tell persons who committed the crime

196

Davis v. State, 2017 So. 3d 142 (Fla. 2016), cert denied, -- U.S.--, 137 S. Ct. 2218, 198 L. Ed. 2d 663 (2017).

Page 109of110

Tina Lasonya Brown. Case No. 2010-CF-1608A

5312

App.145

TINA LASONYA BROWN vs. STATE OF FLORIDA
LT. CASE NO: 2010 CF 001608 A
HT. CASE NO: SC19-704

,

- are so egregious that it supports the finding that any Hurst error in this case was harmless. See
Davis, 207 So. 3d at 175. Defendant is not entitled to relief as to this claim.
ACCORDINGLY, it is hereby ORDERED and ADJUDGED that:

I. Defendant's "Third Amended Motion to Vacate Judgments of Conviction and
Sentence with Special Request for Leave to Amend" is DENIED; and
2. Defendant has thirty (30) days from the rendition date of this Order to file a notice of
appeal; should she so choose.
DONE and ORDERED in Chambers in Pensacola, Escambia County, Florida.

GLB/mco

The Clerk of Court shall effectuate service upon the following:

•
•
•
•

Dawn B. Macready, Assistant CCRC-North (via electronic delivery)
Bridgette Jensen, Assistant State Attorney (via electronic delivery)
Jennifer Keegan, Assistant Attorney General (via electronic delivery)
Tina Brown, DC# 155917, Lowell Correctional Annex, 11120 NW Gainesville Rd.,
Ocala, FL 33482 (via regular mail)

Page 110 of JIG

Tina Lasonya Brown. Case No. 2010-CF-1608A

5313

App.146

Exhibit 4

App.147

EXHIBIT 4. ROLE OF THE JURY IN CAPITAL SENTENCING
IN AMERICAN DEATH-PENALTY JURISDICTIONS
OTHER THAN FLORIDA

Jury
Unanimi
ty?

What the Jury Must Find to Impose
the Death Penalty

Burden of Proof for
Jury’s Decision

Alabama

No: 10 for
death; 7
for life

That ags outweigh mits

No articulated burden of
proof

Arizona

Yes

That mits are not sufficiently
substantial so as to call for leniency

No burden on Defense1

Arkansas

Yes

That ags outweigh mits & that ags
justify death

Prosecution / BRD

California

Yes

That ags outweigh mits & that ags are
so substantial in comparison to mits as
to make death appropriate and justified

Explicitly not subject to a
burden of proof
qualification

Georgia

Yes

That a death sentence should be
imposed

No articulated burden of
proof

Idaho

Yes

That mits, when weighed against ags,
are not so compelling that the death
penalty would be unjust

Unclear2

Indiana

Yes

That ags outweigh mits & that a death
sentence should be imposed

No articulated burden of
proof

Kansas

Yes

That mits do not outweigh ags

Prosecution / BRD

Kentucky

Yes

That, after considering ags and mits, a
death sentence should be imposed

No articulated burden of
proof

Louisiana

Yes

That, after considering ags and mits, a
death sentence should be imposed

No articulated burden of
proof

Mississippi

Yes

That sufficient ags exist, there are not
sufficent mits to outweigh ags, & that
defendant should be sentenced to death

No articulated burden of
proof (but explicitly not
BRD)

Missouri

Yes

That mits do not outweigh ags & that
under all circumstances death should
not be assessed

No articulated burden of
proof

Jurisdiction

1
App.148

Montana

N.A.

N.A.: Once jury finds at least one ag,
the judge decides sentence

N.A.

Nebraska

N.A.

N.A.: Once jury finds at least one ag, a
panel of judges decides sentence

N.A.

Nevada

Yes

That mits do not outweigh ags & that a
sentence of death is appropriate

No articulated burden of
proof

North
Carolina

Yes

That ags are sufficiently substantial &
that mits do not outweigh ags

Prosecution / BRD

Ohio

Yes

That ags outweigh mits3

Prosecution / BRD

Oklahoma

Yes

That ags outweigh mits & that a LWOP
sentence should not be imposed4a

Prosecution / ags “clearly”
outweigh4b

Oregon

Yes

That defendant’s conduct was deliberate & that, after considering ags and
mits, the defendant should receive a
death sentence5

Pennsylvania

Yes

That ags outweigh mits

No articulated burden of
proof

South
Carolina

Yes

That, after considering ags and mits, a
death sentence should be imposed6

No articulated burden of
proof

South
Dakota

Yes

That a death sentence should be
imposed

No articulated burden of
proof

Tennessee

Yes

That ags outweigh mits

Prosecution / BRD

Texas

Yes for
death; 10
for life

That there is a probability of future
continuing violent dangerousness7 &
that there is not sufficient mit to
warrant a sentence of LWOP8

Prosecution / BRD as to
future dangerousness;
neither party bears the
burden as to sufficient mit

Utah

Yes

That ags outweigh mits & that death is
justified and appropriate

Prosecution / BRD

Virginia*

Yes

(1) That there is a probability of future Prosecution / BRD as to (1)
continuing violent dangerousness, or (2)
and (2)
that the defendant’s conduct was
outrageously or wantonly vile, horrible
or inhuman, in that it involved torture,
depravity of mind or aggravated
battery, but (3) if the jury believes that
death is not justified, it may return a
sentence of life imprisonment.

Prosecution / BRD

2
App.149

Wyoming

Yes

That the totality of aggs are so
substantial in comparison to the totality
of mits as to warrant the death penalty

Prosecution / BRD

U.S.
Federal

Yes

That aggs sufficiently outweigh mits so
as to justify a sentence of death, or, in
the absence of a mit, that aggs are
sufficient to justify a sentence of death

No articulated burden of
proof

“ag” = agravating circumstance
“mit” = mitigating circumstance
“BRD” = beyond a reasonable doubt
“N.A.” = not applicable
1

* After the date of the Florida Supreme
Court’s decision in Ms. Brown’s case,
the Virginia Legislature abolished the
death penalty.

Jurors in equipoise may vote for life; unclear whether they may vote for death.

The applicable statute provides that if the jury cannot unanimously agree on whether the
existence of mitigating circumstances makes the imposition of the death penalty unjust, the
defendant is sentenced to life. Jury instructions implementing this provision in terms have been
held correct. State v. Hall, 163 Idaho 744, 803-804, 419 P.3d 1042, 1101-1102 (2018).
However, there is dictum in Dunlap v. State, 159 Idaho 280, 302-303, 360 P.3d 289, 311-312
(2015), saying “This Court has previously determined that placing the burden on the defendant
to prove that mitigating circumstances are ‘sufficiently substantial to call for leniency’ does not
run afoul of the constitution so long as it does not lessen the State's burden to prove the
existence of aggravating circumstances.” The “previous determin[ation]” refers to construction of
an earlier form of the statute which Dunlap views as more demanding of the defendant than the
current statute, and the relevance of this passage in the opinion to the issues presented in
Dunlap is obscure.
2

If and after the jury unanimously finds beyond a reasonable doubt that the aggravating
circumstances outweigh the mitigating factors, the trial judge must also make that finding. If
s/he does not, a death sentence may not be imposed. Otherwise said, in order to support a death
sentence Ohio requires concurrent findings by a jury and the trial judge that aggravation
outweighs mitigation.
3

Oklahoma Statutes Annotated §§ 701.11 provides: “Unless at least one of the statutory
aggravating circumstances enumerated in this act is so found or if it is found that any such
aggravating circumstance is outweighed by the finding of one or more mitigating circumstances,
the death penalty shall not be imposed.” The statute is glossed in Paxton v. State, 867 P.2d
1309, 1323 (Okla Crim.1993), as follows: “It is sufficient that the jury is instructed to weigh the
mitigating and aggravating evidence, and only when the aggravating circumstances clearly
outweigh the mitigating may the death penalty be imposed.” The relevant pattern jury
instruction adopts the Paxton formulation but omits the word “clearly. Oklahoma Uniform Jury
Instructions Criminal, OUJI-CR 4-78, 4-80.
4a, 4b

3
App.150

If the issue of provocation is raised, the jury must also find that the defendant’s conduct was
unreasonable in response to the provocation.
5

The judge may not impose a death sentence unless the jury unanimously recommends it. If
and after such a recommendation is made, “[t]he trial judge, before imposing the death penalty,
shall find as an affirmative fact that the death penalty was warranted under the evidence of the
case and was not a result of prejudice, passion, or any other arbitrary factor.” Code of Laws of
South Carolina 1976 Annotated § 16-3-20. Otherwise said, the judge must concur with the
jury’s judgment that a death sentence is warranted.
6

The court is required to charge the jury that in deliberating on this issue it shall consider all
evidence admitted at the guilt or innocence stage and the punishment stage, including evidence
of the defendant's background or character or the circumstances of the offense that militates for
or mitigates against the imposition of the death penalty.
7

In cases of accessorial liability, the jury must also find beyond a reasonable doubt that the
defendant actually caused the death of the deceased or did not actually cause the death of the
deceased but intended to kill the deceased or another or anticipated that a human life would be
taken.
8

4
App.151

Exhibit 5

App.152

EXHIBIT 5. SOURCES OF THE DATA IN EXHIBIT 4
Alabama:

Michie’s Alabama Code §§ 13-A-5-46, 13A-5-49.

Arizona:

Arizona Revised Statutes Annotated § 13-752; Arizona Pattern Jury
Instructions, Capital Case Instructions (Penalty Phase) RAJI
(Criminal) CCSI 2.6 (4th ed., December 2016 Update); State ex rel.
Thomas v. Granville, 211 Ariz. 468, 123 P.3d 662 (2005); State v.
Tucker, 215 Ariz. 298, 316, 160 P.3d 177, 195 (2007) (dictum).

Arkansas: West’s Arkansas Code Annotated § 5-4-603.
California: West's Annotated California Codes § 190.3, 190.4; California Criminal
Jury Instructions 763, 766; People v. Hawthorne, 4 Cal.4th 43, 841
P.2d 118, 14 Cal.Rptr.2d 133 (as modified 1993).
Georgia:

West’s Code of Georgia Annotated §§ 17-10-30, 17-10-31.

Idaho:

West’s Idaho Code Annotated § 19-2515; State v. Hall, 163 Idaho 744,
419 P.3d 1042 (2018); Dunlap v. State, 159 Idaho 280, 360 P.3d 289
(2015).

Indiana:

Burns Indiana Code Annotated, §§ 35-50-2-3, 35-50-2-9; Miller v. State,
623 N.E.2d 403 (1993).

Kansas:

West's Kansas Statutes Annotated § 21-6617; Pattern Instructions,
Kansas Criminal 54.060, 54.070, 54.100 (4th ed.).

Kentucky: Baldwin’s Kentucky Revised Statutes Annotated, §§ 532.025, 532.030,
532.055.
Louisiana: West's Louisiana Statutes Annotated, Code of Criminal Procedure arts.
905, 905.1, 905.3, 905.4, 905.5, 905.6, 905.7, 905.8.
Mississippi: West's Annotated Mississippi Code § 99-19-101; Ambrose v. State, 254
So.3d 77 (Miss. 2018); Evans v. State, 226 So.3d 1 (Miss. 2017).
Missouri:

Vernon's Annotated Missouri Statutes §§ 565.030, 565.032.

Montana:

West's Montana Code Annotated §§ 46-18-301, 46-18-303, 46-18-304,
46-18-305.

Nebraska: West's Revised Statutes of Nebraska Annotated §§ 29-2521, 29-2522,
29-2523.
Nevada:

North
Carolina:

West's Nevada Revised Statutes Annotated §§ 175.554, 175.556,
200.030, 200.033, 200.035; Middleton v. State, 114 Nev. 1089, 968 P.2d
296 (1998); Geary v. State, 114 Nev.100, 952 P.2d 431 (1998).
West's North Carolina General Statutes Annotated § 15A-2000; North
Carolina Pattern Jury Instructions for Criminal Cases, Crim. 150.10
(APP.)
1
App.153

Ohio:

Baldwin’s Ohio Revised Code Annotated §§ 2929.03, 2929.04; Ohio
Jury Instructions Criminal, 2 CR Ohio Jury Instructions 503.011.

Oklahoma: Oklahoma Statutes Annotated §§ 701.10 – 701.12; Oklahoma Uniform
Jury Instructions Criminal, OUJI-CR 4-72 – 4-80; McGregor v. State,
885 P.2d 1366 (Okla. Crim. 1994); Paxton v. State, 867 P.2d 1309 (Okla
Crim.1993).
Oregon:

West’s Oregon Revised Statutes Annotated § 163.150.

Pennsylvania:

42 Pennsylvania Consolidated Statutes Annotated § 9711; 234
Pennsylvania Administrative Code, Rule of Criminal Procedure 808.

South
Carolina:

Code of Laws of South Carolina 1976 Annotated § 16-3-20; Rosemond
v. Catoe, 383 S.C. 320, 680 S.E.2d 5 (2009).

South
Dakota:

South Dakota Codified Laws § 23A-27A; Piper v. Weber, 771 N.W.2d
352 (S.D. 2009).

Tennessee: West’s Tennessee Code Annotated § 39-13-204.
Texas:

Vernon’s Texas Statutes and Codes Annotated art. 37.071; Texas
Criminal Jury Charges, TXJICRIM 6:390.

Utah:

West’s Utah Code Annotated § 76-3-206, 76-3-207.

Virginia*: West’s Annotated Code of Virginia § 9.2-264.4; Matthew Bender
Virginia Model Jury Instructions Criminal, Instructions P33.122 –
P33.130(g).
Wyoming: West’s Wyoming Statutes § 6-2-102; Olsen v. State, 67 P.3d 536 (2003).
Federal:

United States Code Annotated §§ 3591– 3593.

* After the date of the Florida Supreme Court’s decision in Ms. Brown’s case, the
Virginia Legislature abolished the death penalty.

2
App.154

